<html>
<title> - SECOND IN SERIES ON WELFARE REFORM: WORK REQUIREMENTS ON THE TANF CASH WELFARE PROGRAM</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



SECOND IN SERIES ON WELFARE REFORM: WORK REQUIREMENTS ON THE TANF CASH 
                            WELFARE PROGRAM

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 3, 2001

                               __________

                           Serial No. 107-10

                               __________

         Printed for the use of the Committee on Ways and Means


                   U.S. GOVERNMENT PRINTING OFFICE
74-216                     WASHINGTON : 2001


For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone (202) 512�091800  Fax: (202) 512�092250
              Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, Jr., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               WILLIAM J. COYNE, Pennsylvania
WALLY HERGER, California             SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               BENJAMIN L. CARDIN, Maryland
DAVE CAMP, Michigan                  JIM McDERMOTT, Washington
JIM RAMSTAD, Minnesota               GERALD D. KLECZKA, Wisconsin
JIM NUSSLE, Iowa                     JOHN LEWIS, Georgia
SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
JENNIFER DUNN, Washington            MICHAEL R. McNULTY, New York
MAC COLLINS, Georgia                 WILLIAM J. JEFFERSON, Louisiana
ROB PORTMAN, Ohio                    JOHN S. TANNER, Tennessee
PHIL ENGLISH, Pennsylvania           XAVIER BECERRA, California
WES WATKINS, Oklahoma                KAREN L. THURMAN, Florida
J.D. HAYWORTH, Arizona               LLOYD DOGGETT, Texas
JERRY WELLER, Illinois               EARL POMEROY, North Dakota
KENNY C. HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin

                     Allison Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
SCOTT McINNIS, Colorado              SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  LLOYD DOGGETT, Texas
PHIL ENGLISH, Pennsylvania
RON LEWIS, Kentucky

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________
                                                                   Page
Advisory of March 27, 2001, announcing the hearing...............     2

                               WITNESSES

Library of Congress, Vee Burke, Specialist in Income Maintenance, 
  Congressional Research Service.................................    69

                                 ______

Acton Institute for the Study of Religion and Liberty, Father 
  Robert A. Sirico...............................................    56
Center for Law and Social Policy, Steve Savner...................    60
Michigan Family Independence Agency, Douglas E. Howard...........    36
New York City Human Resources Administration, Jason A. Turner, 
  accompanied by Lisa Falcocchio, New York City Parks Department.    13
Welfare to Work Partnership, Rodney J. Carroll, accompanied by 
  Takia Roberts, CVS Pharmacy....................................    41
YWCA of Greater Milwaukee, Julia Taylor, accompanied by Dorothy 
  Taylor, Generation 2 Plastics..................................     7

                       SUBMISSIONS FOR THE RECORD

Community Voices Heard, New York, NY, statement and attachments..    88
National Employment Law Project, New York, NY, Maurice Emsellem, 
  statement......................................................    96
NETWORK, statement...............................................   100
Noble, Deborah, Willimantic, CT, statement.......................   101
NOW Legal Defense and Education Fund, New York, NY, statement and 
  attachments....................................................   102
Wider Opportunities for Women, Diana Pearce and Jennifer Brooks, 
  statement and attachments......................................   109

 
SECOND IN SERIES ON WELFARE REFORM: WORK REQUIREMENTS ON THE TANF CASH 
                            WELFARE PROGRAM

                              ----------                              


                         TUESDAY, APRIL 3, 2001

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:02 p.m., in 
room B-318 Rayburn House Office Building, Hon. Wally Herger 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
March 27, 2001
HR-2

                   Herger Announces Hearing Series on

                             Welfare Reform

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold the second day in a hearing series on welfare 
reform issues. This hearing will focus on work requirements in the 
Temporary Assistance for Needy Families (TANF) cash welfare program, as 
well as other means-tested benefits programs. The hearing will take 
place on Tuesday, April 3, 2001, in room B-318 of the Rayburn House 
Office Building, beginning at 3:00 p.m.

    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.

BACKGROUND:

    The Personal Responsibility and Work Opportunity Reconciliation Act 
of 1996 (P.L. 104-193), commonly referred to as the 1996 welfare reform 
law, made dramatic changes in the Federal-State welfare system designed 
to aid low-income American families. The law repealed the former Aid to 
Families with Dependent Children program, and with it the individual 
entitlement to cash welfare benefits. In its place, the 1996 
legislation created a new TANF block grant that provides fixed funding 
to States to operate programs designed to achieve several purposes: (1) 
provide assistance to needy families, (2) end the dependence of needy 
parents on government benefits by promoting job preparation, work, and 
marriage, (3) prevent and reduce the incidence of out-of-wedlock 
pregnancies, and (4) encourage the formation and maintenance of two-
parent families. Associated changes included individual time limits and 
work requirements intended to reinforce the new focus on work and 
independence for families needing assistance.

    The TANF program's focus on work has played an important role in 
helping more than two million individuals enter the workforce or avoid 
the welfare rolls altogether. This hearing will examine the lessons 
learned from the history of American social policy regarding work and 
programs that expect work in exchange for benefits. The hearing also 
will examine specific work requirements in TANF and other programs. 
Finally, the hearing will consider whether work requirements should be 
modified to send an even stronger pro-work message to current and 
would-be beneficiaries.

    In announcing the hearing, Chairman Herger stated: ``When President 
Franklin Roosevelt spoke about welfare before Congress in 1935, he said 
`To dole out relief in this way is to administer a narcotic, a subtle 
destroyer of the human spirit. . . . It is in violation of the 
traditions of America.' FDR was right. Yet for too long providing 
benefits without promoting or requiring work reinforced a cycle of 
dependence. That was how welfare operated prior to 1996. Now under 
welfare reform we have begun to set our social policy back on course. 
This hearing will examine past approaches, and consider our next steps 
to promote work so all parents can support their families.''

FOCUS OF THE HEARING:

    The focus of this hearing is on work requirements in TANF and other 
anti-poverty programs. The Subcommittee will seek information on prior 
efforts to require work in exchange for benefits, and also consider the 
record of current programs that promote work.

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect or MS Word format, with their name, address, 
and hearing date noted on a label, by the close of business, Tuesday, 
April 17, 2001, to Allison Giles, Chief of Staff, Committee on Ways and 
Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Human Resources office, room B-317 
Rayburn House Office Building, by close of business the day before the 
hearing.

FORMATTING REQUIREMENTS:

    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.

    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette in WordPerfect or 
MS Word format, typed in single space and may not exceed a total of 10 
pages including attachments. Witnesses are advised that the Committee 
will rely on electronic submissions for printing the official hearing 
record.

    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.

    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.

    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.

    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.


    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``http://waysandmeans.house.gov''.

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                <F-dash>


    Chairman Herger. The subject of today's hearing is work 
requirements and welfare reform. At our first hearing, we heard 
that welfare reform has had a number of positive effects. 
Caseloads are down 50 percent, incomes are up, and more than 2 
million children have been lifted out of poverty nationwide. 
There are many factors behind these impressive results, but 
none more important than work. Since States started reforming 
welfare and the 1996 law took hold, a new ethic of work has 
swept over America's welfare system and the families who had 
come to depend on it. The best measure of this change is what 
happened among low income workers, especially women. Today 
single mothers are more likely to work than even married 
mothers, with working never-married mothers close behind. That 
is a dramatic shift from the early nineties when fewer than 
half of never-married mothers worked.
    The result? According to the Urban Institute, mothers, even 
in the bottom two-fifths of income earners, have gained ground. 
How? Because they are working and so earning more. And in place 
of welfare, they are earning new benefits like the earned 
income credit which rewards work.
    The purpose of today's hearing is to help us better 
understand this renewed work ethic, the implications for 
former, current and would-be recipients, and what this all 
means as we take a look at more reforms in the coming year.
    First we will hear from practitioners and beneficiaries in 
cities and States around the country. They will tell us how the 
most aggressive work programs have changed the lives of 
beneficiaries and entire communities. Next, we will hear how 
the business community has stepped up to help put former 
recipients in jobs. Then we will get some perspective on moral 
issues involved in requiring work for benefits. And finally, we 
will hear from experts about work requirements, both under the 
new cash welfare block grant and related programs.
    Considering the changes we have seen and our hopes for 
future progress, this is an exciting topic. We thank all of our 
witnesses for being here today to explore these issues with us. 
Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record 
at this point.
    [The opening statement of Chairman Herger follows:]

    Opening Statement of the Hon. Wally Herger, a Representative in 
 Congress from the State of California, and Chairman, Subcommittee on 
                            Human Resources

    The subject of today's hearing is work requirements and welfare 
reform.
    At our first hearing, we heard that welfare reform has had a number 
of positive effects. Caseloads are down 50 percent, incomes are up, and 
more than two million children have been lifted out of poverty 
nationwide. There are many factors behind those impressive results, but 
none more important than work.
    Since States started reforming welfare and the 1996 law took hold, 
a renewed ethic of work has swept over America's welfare system and the 
families who had come to depend on it. The best measure of this change 
is what happened among low-income workers, especially women. Today 
single mothers are more likely to work than even married mothers, with 
working never-married mothers close behind. That is a dramatic shift 
from the early 1990s, when fewer than half of never-married mothers 
worked.
    The result? According to the Urban Institute, mothers even in the 
bottom two-fifths of income earners have gained ground. How? Because 
they are working and so earning more. And in place of welfare they are 
earning new benefits like the Earned Income Credit, which rewards work.
    The purpose of today's hearing is to help us better understand this 
renewed work ethic, the implications for former, current and would-be 
recipients, and what this all means as we take a look at more reforms 
in the coming year.
    First, we will hear from practitioners and beneficiaries in cities 
and states around the country. They will tell us how the most 
aggressive work programs have changed the lives of beneficiaries and 
entire communities. Next, we will hear how the business community has 
stepped up to help put former recipients in jobs. Then, we'll get some 
perspective on moral issues involved in requiring work for benefits. 
And finally, we will hear from experts about work requirements, both 
under the new cash welfare block grant and related programs.
    Considering the changes we have seen and our hopes for future 
progress, this is an exciting topic.

                                <F-dash>


    Chairman Herger. Mr. Cardin.
    Mr. Cardin. Thank you, Mr. Chairman. I want to thank you 
for convening this hearing and I also want to compliment you on 
the panels that we have before us today. I am pleased that we 
are focusing today on the most important component on welfare 
reform: That is work. Enabling people to make the transition 
from welfare to work is the first critical test of any welfare 
reform initiative. I believe the 1996 welfare law is passing 
that test. In fact, the employment rates for poor single 
mothers with young children increased 23 percent between 1996 
and 1999.
    However, our enthusiasm about these results should be 
tempered by three facts: First, we still have about one-third 
of people that are leaving welfare and are not going into the 
work force. We don't have much information about this group. We 
should find out what is happening to them. Second, there is a 
growing proportion of people that are currently on the caseload 
that have severe barriers to finding employment. They lack high 
school diplomas, they have, in some cases, drug addiction 
problems, they have poor work history and have sometimes mental 
or physical disabilities.
    So I think we need to understand that we have to devote the 
necessary resources to deal with the people that remain on cash 
assistance.
    And third, Mr. Chairman, there is the uncertainty of our 
economy and what impact that will have on our work with welfare 
reform.
    The second major test of welfare reform is whether former 
recipients are keeping their jobs and whether they are moving 
up the employment ladder. In this regard, we are not able yet 
to give a grade to the 1996 law as to whether it has been 
successful or not. We just don't have enough information.
    As the Congressional Research Service told us during our 
last hearing, most welfare leavers are not increasing their 
income when they leave welfare for work. If this trend 
continues, the final legacy of welfare reform will be that we 
replaced a generation of welfare poor with a generation of 
working poor. We can and must do better than that.
    There are several remedies for this problem: Some are 
outside jurisdiction of the Subcommittee such as increasing the 
earned income tax credit or improving our Nation's educational 
system or expanding investments in inner city neighborhoods. 
But other reforms are directly relevant to this panel's 
reauthorization of TANF. First, Mr. Chairman, I would suggest 
we must maintain the Federal financial commitment to TANF. Let 
us make sure that the dollars that we are currently making 
available to our States are retained to deal with these 
problems.
    Second we should help individuals take advantage of some of 
the positive steps taken by most States under welfare reform, 
namely, raising the so-called earnings disregard so that we can 
increase the income for people that are in the work force. And 
we should adopt a national policy of work-stops-the-clock so 
that a person is not under a disincentive to take advantage of 
higher earnings disregards.
    Third, we must do a much better job ensuring that 
individuals who are leaving welfare for employment are 
receiving the work supports that they are entitled to such as 
food stamps, Medicaid and child care. Fourth, the restrictions 
on training and education contained in the 1996 law must be 
revisited. And finally we should encourage States to consider 
the impact of TANF policy on poverty.
    I have talked about this before, but we should encourage 
our States to be more aggressive in not only getting people off 
of cash assistance and dependency on Federal support, but also 
getting people out of poverty.
    Before I conclude, let me quickly comment on the issue of 
Workfare, which is one of issues that this hearing will focus 
on. The goal of work experience programs should not be to 
discourage needy families from obtaining assistance nor to 
provide a source of cheap labor for city or State projects. 
Work programs should be specifically designed to help 
individuals make the transition into wage-paying jobs. 
Furthermore, recipients of work programs must be treated with 
dignity and respect as well as being afforded all the 
protections provided to other workers.
    Mr. Chairman, I look forward to hearing our witnesses and 
working with you so that when we reauthorize TANF, we certainly 
maintain the focus on employment, but also deal with the 
problems that we have identified in getting people out of 
poverty and making sure that they are able to succeed in the 
workplace.
    [The opening statement of Mr. Cardin follows:]

 Opening Statement of the Hon. Benjamin L. Cardin, a Representative in 
                  Congress from the State of Maryland

    Mr. Chairman, I am pleased that we are focusing today on the most 
important component of welfare reform--work. Enabling people to make 
the transition from welfare to employment is the first critical test 
for any welfare reform initiative. I believe the 1996 welfare law is 
passing this test. In fact, the employment rate of poor single mothers 
with young children increased 23% between 1996 and 1999.
    However, our enthusiasm about these results should be tempered by 
three facts. First, about a third of those of exiting welfare are not 
going into work, and we have very little research about their well-
being. Second, a growing portion of the current welfare caseload has 
more severe barriers to employment, such as the lack of a high school 
degree, no work history, problems with substance abuse, and mental or 
physical disabilities. These problems will demand more attention and 
more resources if this population is expected to make the transition 
from welfare to work. And third, the current uncertainty about the 
economy raises particular risks for those who have recently left 
welfare for work.
    The second major test of welfare reform is whether former 
recipients are keeping their jobs, and whether they are moving up the 
employment ladder. The 1996 law has not yet made the grade is this 
area.
    As the Congressional Research Service told us during our last 
hearing, most welfare leavers are not increasing their income when they 
leave welfare for work. If this trend continues, the final legacy of 
welfare reform will be that we replaced a generation of welfare poor 
with a generation of working poor. We can and must do better.
    There are several remedies for this problem. Some are outside the 
jurisdiction of the Subcommittee, such as increasing the earned income 
tax credit, improving our Nation's educational system, and expanding 
investment in inner city neighborhoods.
    But other reforms are directly relevant to this panel's 
reauthorization of TANF. First, we must maintain the Federal financial 
commitment to TANF so that States can invest not only in job placement, 
but also in job retention and wage progression. Second, we should help 
individuals take advantage of one of the positive steps taken by most 
States under welfare reform, namely raising their so-called earnings 
disregards, which allow recipients to subsidize very low wages with a 
partial welfare benefit. One way to pursue this goal would be to 
establish a National policy of ``work stops the clock,'' meaning that 
periods of employment do not count against an individual's five-year 
time limit on TANF.
    Third, we must do a much better job of ensuring that individuals 
who are leaving welfare for employment are receiving the work supports 
they are entitled to, such as food stamps, Medicaid and child care.
    Fourth, we should evaluate the restrictions on training and 
education contained in the 1996 law to ensure that we are not limiting 
the future earning potential of welfare recipients.
    And finally, we should encourage States to consider the impact any 
TANF policy has on poverty.
    Before I conclude let me quickly comment on the issue of 
``workfare,'' which is one of the issues this hearing will focus on. 
The goal of work experience programs should not be to discourage needy 
families from obtaining assistance, nor to provide a source of cheap 
labor for State or City projects. Work programs should be specifically 
designed to help individuals make the transition into wage-paying jobs. 
Furthermore, recipients in work programs must be treated with dignity 
and respect, as well as being afforded all of the protections provided 
to other workers.
    Mr. Chairman, I look forward to hearing the testimony of the 
witnesses. Thank you.

                                <F-dash>


    Chairman Herger. Thank you very much, Mr. Cardin. And now 
we will have our first panel, please. First we will hear from 
Julia Taylor, the executive director of the YWCA of Milwaukee, 
who is accompanied by Dorothy Taylor a former welfare recipient 
who is now working. Next will be Jason Turner, commissioner of 
the New York City Human Resources Administration. He is 
accompanied by Lisa Falcocchio. Then we will have Doug Howard, 
director of the Michigan Family Independence Agency. And our 
last witness of this panel is Rodney Carroll, who is president 
and chief executive officer of the Welfare to Work Partnership, 
and he is accompanied by Takia Roberts, who has gone to work 
with the help of the Welfare To Work Partnership. Would our 
first panel be seated, please. Thank you.
    Ms. Taylor.

STATEMENT OF JULIA TAYLOR, EXECUTIVE DIRECTOR, YWCA OF GREATER 
MILWAUKEE, ACCOMPANIED BY DOROTHY TAYLOR, EMPLOYEE, GENERATION 
                2 PLASTICS, MILWAUKEE, WISCONSIN

    Ms. Julia Taylor. Good afternoon, Chairman Herger and 
Members of the Subcommittee on Human Resources. Thank you for 
the opportunity to speak today. I am Julia Taylor, chief 
executive officer of YW Works and president of the YWCA of 
Greater Milwaukee. I am pleased to be here to respond to the 
Subcommittee's request for information on work requirements of 
TANF and to share with you our experiences while operating 
Wisconsin's TANF programs, W-2, since 1997. We knew that 
implementing W-2 would be an awesome responsibility as well as 
a challenge to operate a program that meets the vast range of 
needs of our customers. The resources provided by the Federal 
Government are essential in our efforts to move people toward 
self-sufficiency. Your commitment to supporting TANF and other 
antipoverty programs is critical to our customer's success and 
it is greatly appreciated.
    W-2 funded through TANF provides cash assistance case 
management job placement and retention services. Additionally, 
the Food Stamp and Employment Training, known as FSET receives 
TANF dollars. Currently, there is very little funding for the 
FSET program, which serves primarily men. It serves a large 
percentage of homeless individuals. Under the current work and 
education programs for the FSET program, it is mandated by the 
State of Wisconsin, the Federal Government does not match the 
amount of food stamp benefits an individual receives with the 
amount of work they are required to do, thereby creating a 
disincentive to participation.
    The services that YW Works provides is delivered through a 
comprehensive one-stop job center model. It is designed to meet 
the needs of employers searching for skilled workers in 
training and education and employment needs of the community. 
In 2000, we served over 27,000 customers, 703 attending job 
clubs, 12,378 utilizing our job net, and 1,258 attending on-
site employer recruitments and 1,359 assessments.
    When the AFDC programs ended in Wisconsin in the fall 1997, 
there were 34,650 cases statewide. At that time at YW Works, we 
served 2,420 customers. Our average starting wage at placement 
at that time was $6.87. As of February 2001, there were 10,853 
cases statewide, of which almost 76 percent remain or are in 
Milwaukee County.
    We currently serve 909 customers in our program with an 
average starting wage of placement of $7.45.
    Those figures demonstrate a significant drop of individuals 
on welfare. However, they also show that the vast majority of 
the remaining customers reside in one area of Wisconsin, 
Milwaukee County, and we are also witnessing that these 
remaining customers have increased barriers to successful 
employment, including lower education and literacy levels, 
mental and physical health issues, alcohol and drug abuse and 
criminal records that make it difficult to secure a job. With 
the dynamics of a caseload constantly changing, our programs 
must continue to evolve to meet the demands of the customers we 
serve.
    We believe that the work requirements are beneficial to our 
efforts getting people engaged in work is the first step in 
self-sufficiency, and our program has been successful in 
placing customers in jobs. From January 2000 to February 2001, 
we have helped 2053 customers secure employment with an average 
wage of $7.54. In order to build upon this requirement and 
improve our customers' ability to retain employment, we have 
created specialized work settings that provide customers with 
assessment, soft skills, and on-the-job training and support 
services that go hand in hand with the work requirements. 
Creative Workshop is a workplace that creates wearable art, and 
Generation 2 Plastics is a plastic injection molding company 
with an emphasis on recycling. These training workplace 
environments ensure that our customers receive ongoing 
training, intensive and specialized job coaching, supportive 
services on site and sustained case management. Both Generation 
2 Plastics and Creative Workshop offer the training and 
sustained social support needed by many customers with multiple 
barriers such as lack of transportation, child care, alcohol, 
drug abuse and mental health issues.
    In order to strengthen the TANF program, we recommend that 
service providers be offered increased flexibility within the 
first year of a customer's participation to concentrate on 
intensive education and training needs. In addition, the funds 
need to be set aside for work force advancement that can 
provide education and training opportunities for individuals 
currently in lower paying jobs. The hours for the FSET program 
also need to be incorporated with short-term training and 
supportive services that will address the barriers experienced 
by the specific population.
    In addition to the programs already mentioned, YW Works 
offers other programs that increase our customers ability to 
gain employment. The State of Wisconsin has secured money from 
the U.S. department of Labor to focus on services for non-
custodial parents and hard-to-serve W-2 customers. YW Works 
Welfare To Work program serves the non-custodial parent in 
those hard-to-serve W-2 customers. We have enrolled and served 
the most Welfare to Work customers in Milwaukee County. Out of 
387 enrolled customers, 36 percent were referred to alcohol and 
drug treatment. 259, or 60 percent, were placed in jobs of 
which 156 percent had completed job training programs--or 156, 
I am sorry, 60 percent.
    Of the employed customers in Children's First, a court 
ordered support program for non-custodial parents and Welfare 
to Work, 42 are now paying child support, many for the first 
time. These customers participate in the same intensive case 
management and training as our W-2 customers and also part 
split in the Fatherhood program, which teaches dads how to be 
good fathers and increase their involvement with their 
children. There are many more challenges ahead and as we 
continue to meet the needs of our communities, such as bridging 
the digital divide, providing business with a skilled and 
trained labor force, assuring affordable housing, education and 
training for career advancement of low income individuals 
currently in the work force, continuing support for fathers, 
and getting employers more involved, the TANF programs in 
Wisconsin have been successful in engaging people in the work 
force, and we believe there is still a lot more to do.
    We strongly encourage you to support the TANF 
reauthorization which is making a significant difference in 
people's lives. This Federal program has helped thousands of 
Wisconsin residents to enter the work force and to begin to 
break the cycle of poverty.
    Once again, we thank you for the opportunity to share with 
you our experiences. I would like to introduce Dorothy Taylor 
to share with you her story.
    [The prepared statement of Ms. Julia Taylor follows:]

    Statement of Julia Taylor, Executive Director, YWCA of Greater 
                               Milwaukee

    Good afternoon Chairman Herger and members of the Subcommittee on 
Human Resources. Thank you for the opportunity to speak today. I am 
Julia Taylor, Chief Executive Officer of YW Works and president and CEO 
of YWCA of Greater Milwaukee. I am pleased to be here to respond to the 
Subcommittee's request for information on the work requirements of TANF 
and to share with you YW Works' experiences while operating Wisconsin's 
TANF program--W-2--since 1997.
    We knew that implementing W-2 would be an awesome responsibility as 
well as a challenge to operate a program that meets the vast range of 
needs of our customers. The resources provided by the federal 
government are essential in our efforts to move people toward self-
sufficiency. Your commitment to supporting TANF and other anti-poverty 
programs is critical to our customers' success, and is greatly 
appreciated.
    W-2, funded through TANF, provides cash assistance, case 
management, job placement and retention services. Additionally, the 
Food Stamp and Employment Training (FSET) Program receives TANF 
dollars. Currently, there is very little funding for this program, 
which serves a large percentage of homeless individuals. The current 
work and education requirements under FSET mandated by the federal 
government do not match the amount of food stamp benefits individuals 
receive, thereby creating a disincentive to participation.
    Another service that YW Works offers is a comprehensive One-Stop 
Job Center. It is designed to meet the needs of employers searching for 
skilled workers and training, education, and employment needs of the 
community. In 2000, we served over 27,000 customers, 703 attending job 
clubs, 12,378 utilizing job net (electronic job search program), 1,258 
attending onsite employer recruitments and 1,359 assessments.
    When AFDC programs in Wisconsin started in Fall of 1997, there were 
34,650 cases statewide. At that time, we served 2,420 customers. 
Average starting wage at placement was $6.87. As of February 2001, 
there were 10,853 cases statewide of which almost 76% (8,199) were in 
Milwaukee County. We currently serve 909 customers in our program with 
an average starting wage of $7.45.
    Those figures demonstrate a significant drop in individuals on 
welfare. However, they also show that the vast majority of the 
remaining customers reside in one area of Wisconsin--Milwaukee County. 
We are also witnessing that these remaining customers have increased 
barriers to successful employment including: lower education and 
literacy levels, mental and physical health issues, alcohol and drug 
abuse, and criminal records that make it difficult to secure a job. 
With the dynamics of the caseload constantly changing, our programs 
continue to evolve to meet the demands of all of the customers we 
serve.
    YW Works believes that the work requirements are beneficial to our 
efforts. Getting people engaged in work is the first step toward self-
sufficiency, and our program has been successful in placing customers 
in jobs. From January 2000 to February 2001, we have helped 2,053 
customers secure employment with an average wage of $7.45. In order to 
build upon this requirement and improve our customers' ability to 
obtain and retain employment, we have created specialized work settings 
that provide customers with assessment, soft skills and on-the-job 
training, and support services that go hand-in-hand with the work 
requirements. The Creative Workshop is a workplace that creates 
wearable art and Generation 2 Plastics is a plastic injection molding 
company with an emphasis on recycling. These workplace environments 
assure our customers ongoing training, intensive and specialized job 
coaching, supportive services on site and sustained case management. 
Both Generation 2 Plastics and Creative Workshop offer the training and 
sustained social support needed by many customers with multiple 
barriers such as lack of transportation and child care and alcohol and 
drug abuse and mental health issues.
    In order to strengthen the TANF program, we recommend that service 
providers be offered increased flexibility within the first year of a 
customer's participation to concentrate on intensive education and 
training needs. In addition, funds need to be set aside for workforce 
advancement that can provide education and training opportunities for 
individuals currently in lower paying jobs. Furthermore, the work hours 
required under FSET should be reduced or eliminated and replaced with 
short-term training and supportive services that will address the 
barriers experienced by this specific population.
    In addition to the programs already mentioned, YW Works' offers 
other programs that increase the customers' ability to gain employment. 
The State of Wisconsin has secured money from the U.S. Department of 
Labor to focus on services for non-custodial parents and hard-to-serve 
W-2 customers. YW Works' Welfare to Work Program serves the non-
custodial parent and those hard-to-serve W-2 customers. YW Works has 
enrolled and served the most Welfare to Work customers in Milwaukee 
County. Out of 387 enrolled customers 36% were referred to AODA 
treatment and 259 or 60% were placed in jobs of which 156 or 60% had 
completed job-training programs. Of the employed customers in 
Children's' First (a court ordered child support for non-custodial 
parents) and Welfare to Work, 42% are now paying child support. These 
customers participate in the same intensive case management and 
training as our W-2 customers and also participate in the Fatherhood 
Program, which teaches dads how to be good fathers and increase their 
involvement with their children.
    There are many more challenges ahead as we continue to meet the 
needs of our communities such as; bridging the digital divide gap, 
providing business with a trained and skilled labor force, assuring 
affordable housing, educating and training for career advancement of 
low-income individuals currently in the workforce, continuing support 
for fathers, and getting employers more involved. TANF programs in 
Wisconsin have been successful in engaging people in the workforce and 
we believe there is a lot more to do. We strongly encourage you to 
support the TANF reauthorization, which is making a significant 
difference in people's lives. This federal program has made helped 
thousands of Wisconsin residents' break the cycle of poverty.
    Once again, thank you for the opportunity to share with you our 
experiences.

                                <F-dash>


    Ms. Dorothy Taylor. Good afternoon, Chairman Herger and 
members of the Subcommittee on Human Resources. Thank you for 
the opportunity to speak to you today. My name is Dorothy 
Taylor. I am 40 years old. I have three children, two 
grandchildren. I work at Generation 2 Plastics in 
Milwaukee,Wisconsin where I drive a forklift, operate plastics 
machinery. I am here today because of the W-2 program. I spent 10 years 
of my life on welfare, taking odd jobs here and there, until W-2 came 
around.
    I didn't think much of W-2 a couple of years ago until my 
last unemployment check ran out. I thought to myself, I have 
got to feed these kids. I went through the whole program at the 
YWCA including the pre-Academy, the Academy of Excellence, 
Creative Workshop and Generation 2 Plastics. I worked hard and 
was offered a full-time job at Generation 2 Plastics. I took 
the job. Now I have benefits, medical insurance, and a pension.
    It is important for me to have this chance and to have 
people behind me. Excuse me, I am kind of nervous.
    Chairman Herger. You are doing great.
    Ms. Dorothy Taylor. I am going to show everyone that I am 
not going to fail. If I hadn't joined W-2, I would probably be 
homeless, walking the street, going to churches to eat. I see a 
lot of that. Some people just don't want to try anymore.
    Some people blame their situation on W-2, but it is not W-
2. It is them. I tell them you can't get something for nothing. 
I tell them to get up and get what W-2 has to offer. And it 
does have a lot to offer.
    There is training and help to get you your GED. You need an 
education. I tell my children that you need an education just 
to sweep the sidewalk. I am working on my GED. I am almost 
ready to start taking my tests. I want to wait just a little 
while longer because the one thing I hate is failing on the 
first try. But if I can get my GED, I can keep my kids on track 
so they don't wind up like the old me. Maybe some day I will 
take some college courses. If I wind up doing that, I will know 
I have done my best.
    My 14-year-old son is proud of me. I was interviewed by the 
Los Angeles Times and some other newspapers. They took my 
picture. My son has my picture up on his wall. You don't know 
how much this means to me, that my 14-year-old son is so proud 
of me.
    I tell my children that it is not necessarily what you 
learn in school that helps. It is how you use what you learn in 
everyday life that means something. W-2 isn't like AFDC. You 
can't just sit at home and keep having babies. W-2 stopped that 
and that is the best thing. It used to be that kids as young as 
12 years old were pregnant. That was alarming. And those girls 
weren't going to school. If I had the resources, I would have 
helped those girls. W-2 got those people back to work and got 
their children well cared for.
    Keep the program going. If the program helps me, it can 
help a whole lot of other people. If the program stops, it will 
hurt all the little people. It will hurt our children. If the 
programs don't keep going, a whole lot of people are going to 
suffer. Thank you.
    Chairman Herger. Dorothy, thank you. We want you to know 
not only is your 14-year-old very proud of you, but we are all 
very proud of you as well for what you are doing.
    [The prepared statement of Ms. Dorothy Taylor follows:]

     Statement of Dorothy Taylor, Employee, Generation 2 Plastics, 
                          Milwaukee, Wisconsin

    Good afternoon Chairman Herger and members of the Subcommittee on 
Human Resources. Thank you for the opportunity to speak today. My name 
is Dorothy Taylor. I'm 40 years old and I have three children and two 
grandchildren. I work at Generation 2 Plastics in Milwaukee, Wisconsin 
where I drive a forklift and operate plastics machinery. I'm here today 
because of the W-2 program. I spent 10 years of my life on welfare, 
taking odd jobs here and there, until W-2 came around.
    I didn't think much of W-2 a couple of years ago, until my last 
unemployment check ran out. I thought to myself, ``I've got to feed 
these kids.'' I went through the whole program at the YWCA, including 
the pre-Academy, the Academy of Excellence, Creative Workshop, and 
Generation 2 Plastics. I worked hard and was offered a full-time job at 
Generation 2 Plastics. I took the job. Now I have benefits, medical 
insurance and a pension.
    It's important for me to have this chance and to have people behind 
me. I'm going to show everyone that I'm not going to fail.
    If I hadn't joined W-2, I'd probably be homeless, walking the 
street and running to the churches to get something to eat. I see a lot 
of that. Some people just don't want to try anymore.
    Some people blame their situation on W-2, but it's not W-2 that's 
the problem. It's them. I tell them you can't get something for 
nothing. I tell them to get up and get what W-2 has to offer. And it 
does have a lot to offer.
    There's training and help to get your GED. You need an education. I 
tell my children that you need a GED just to sweep the sidewalk at some 
job. I'm working on my GED now. I'm almost ready to start taking my 
tests. I want to wait just a little while because the one thing I hate 
is failing on the first try. But if I can get my GED, I can keep my 
kids on track so they don't wind up like the old me. Maybe some day 
I'll take some college courses. If I wind up doing that, I'll know I've 
done the best with my life.
    My 14-year-old son is proud of me. I was interviewed by the LA 
Times and some other newspapers. They took my picture. My son has my 
picture up on his wall. You don't know how much this means to me, that 
my 14-year-old son is proud of me.
    I tell my children that it's not necessarily what you learn in 
school that helps. It's how you use what you learn in every day life 
that means something.
    W-2 isn't like AFDC. You can't just sit at home and keep having 
babies. W-2 stopped that and that's the best thing. It used to be that 
kids as young as 12-years-old were pregnant. That was alarming, and 
those girls weren't going to school. If I had the resources, I would 
have helped those girls. W-2 got these people back to work and got 
their children well cared for.
    Keep the program going. If the program helped me, it can help a 
whole lot of other people. If the program stops, it will hurt all the 
little people. It will hurt our children. If the programs don't keep 
going, a whole lot of people are going to suffer. Thank you.

                                <F-dash>


    Chairman Herger. And with that, next is Mr. Jason Turner, 
Commissioner of the New York City Human Resources 
Administration. And he is accompanied by Lisa Falcocchio.
    Mr. Turner.

STATEMENT OF JASON A. TURNER, COMMISSIONER, NEW YORK CITY HUMAN 
   RESOURCES ADMINISTRATION, ACCOMPANIED BY LISA FALCOCCHIO, 
    DIRECTOR, WORK EXPERIENCE PROGRAM, NEW YORK CITY PARKS 
                           DEPARTMENT

    Mr. Turner. You got her name right. That is really good. It 
took me a while to do that myself. Thank you very much, Mr. 
Chairman. I am pleased to have this opportunity to present 
before the Committee, and representing Mayor Giuliani. At the 
onset of his administration in 1994, Mayor Giuliani decided he 
wanted to have two emphases, one on crime reduction and the 
other on welfare reform. Today, tens of thousands of 
individuals who are temporarily receiving welfare are engaged 
in work activity, contributing to the city and making a 
difference in their own lives.
    Although work while on welfare was not--although, work 
while on welfare for those not in the private sector was one of 
the central goals of the PRWORA legislation, this Committee may 
be interested to know that there is--it is not a significant 
component of what most people do during the day. What I mean by 
that is the caseloads have gone down and private employment has 
gone up. Most of those are the central successes of welfare 
reform to date.
    But of those who are not working in the private sector at 
the moment, very few are working in the work experience 
programs. And it is, I believe, very important for us as a 
country to create work opportunities while individuals are 
waiting to go into the private sector. And Lisa will talk about 
how we operate our parks deputy program in just a moment.
    Actually, only 4 percent of the entire welfare caseload of 
2.1 million adults is engaged in work activity right now who 
are not in the private labor market. Since welfare reform, 
there has been only an increase from about 35,000 to 78,000 
people in work activity nationwide. Clearly, States as a group 
have exercised their option under the TANF caseload reduction 
credit to focus their attention on other aspects of the 
program. A major management commitment is necessary to mount a 
large and ongoing work experience program for a high proportion 
of recipients. And in New York City, and in Wisconsin, they 
each run programs which share the aspiration to have a fully 
work-based system. What that means is that those people who are 
not privately employed, a 35-hour simulated workweek is 
created, which is a blend of actual work in the Parks 
Department, or it could be in a welfare office or a nonprofit 
facility of three days a week, and usually two days is 
dedicated to other related things like helping look for private 
employment, or maybe getting a GED or going to ESL class.
    So what we like to do in New York and in Wisconsin is the 
same in many respects, is blend--create a real workweek but 
blend that workweek between actual work and skills upgrading. 
And it is those two things, actual work which is practicing the 
skills and habits of showing up to work on time and getting 
your children to school, and the skills upgrading which allows 
you to use some of the education or ESL training that you have 
got in an actual work site.
    Those two things together create the best opportunity for 
people with very, very low work histories to move up into the 
labor force. But that is not happening. It really isn't 
happening on a very large scale. What we believe should occur, 
is that work experience play a larger role in most State's 
welfare operations. As it relates to what our recommendations 
are for this Committee, is, number one, we should increase the 
proportion of TANF recipients participating in work experience. 
We believe that every State should be required to have a 
substantial proportion of its caseload engaged in real work 
activity on an ongoing basis, if they are not privately 
employed while they are on welfare.
    We all agree, if you are working part-time and you are 
still receiving welfare, leave you alone. Because you are doing 
the right thing and we hope you increase your hours and get off 
of welfare. But if you are doing nothing and you are able-
bodied, you should be engaged in work activity, and that is not 
currently the case.
    Second, we should enforce the provision of the TANF law 
that requires sanctions for non participation applied on a pro 
rata basis. Let me explain what that means. When the Congress 
passed welfare reform in 1996, it said they wanted the welfare 
benefit to act like a wage so that just like if you show up at 
your work site and you only show up half of the time, you take 
home half of the paycheck, they wanted welfare benefits to 
operate in much the same way so that people would get used to 
going to a work site and earning their benefits.
    Actually the way the Clinton administration interpreted 
that law, they didn't enforce it so that at the moment in many 
States, including New York, California and many other States, 
if you don't go to your work assignment, very little--there is 
very little benefit change.
    Currently in New York City, for instance, we have 40,000 
people actively participating in work activities, but an equal 
number, about 40,000 who have been asked to come in and 
participate in work activities who are sitting at home and not 
doing anything, and there is very little that we can do to 
encourage them to come in because we don't have--they are still 
receiving almost their entire welfare check. That provision 
should be enforced.
    Third, States should be able to merge their work 
obligations under Food Stamps and those under TANF. And since 
Food Stamps is not a program responsibility of this Committee I 
won't spend too much time on that. But finally, the constraints 
imposed on work experience programs by Federal regulations 
should be lifted through legislative clarification. And what I 
mean by that is that the Clinton administration, in its 
regulations, imposed the requirements of the Fair Labor 
Standards Act and other requirements, such as OSHA, on those 
individuals who are in a work experience activity where they 
clearly don't apply.
    Let me give you an example of how that can be harmful. For 
instance, the minimum wage provisions of Federal law, mean that 
you could be working almost at a schedule of 35 hours a week 
and be in a simulated work environment. But if the provisions 
of the Fair Labor Standards Act were invoked, the individual 
participant would have to work far fewer hours and not get that 
practice.
    Finally the promise of welfare reform has been achieved to 
a far larger degree than was anticipated, but we should be 
concerned that States are not developing the work programs and 
infrastructure necessary to constructively engage those who 
remain on assistance. It is often asked what will happen when 
the economy declines. What will happen to welfare reform. The 
right answer is that work experience should act like an 
accordion and absorb people who are temporarily out of the 
private labor market, while keeping their work habits and 
skills moving forward so that when the economy improves, they 
can move right back.
    And now I would like Lisa to talk a little bit about how we 
run a very large work program in the Parks Department.
    [The prepared statement of Mr. Turner follows:]

    Statement of Jason A. Turner, Commissioner, New York City Human 
                        Resources Administration

    I am pleased to have this opportunity to present to this Committee 
information on how work requirements in TANF are being carried out in 
the country's largest local welfare program, and what our experience 
means for reauthorization in this area. The specific subject of my 
remarks revolve around the provision of PRWORA requiring states to 
engage recipients not in private employment in work experience.
    At the onset of his administration in 1994, Mayor Giuliani made 
welfare reform and crime reduction the central aspects of his new 
administration. Specifically, for welfare he set out to create a large 
program to allow recipients the opportunity to practice work while 
returning valuable services to the city while receiving benefits. In 
New York this is called ``WEP,'' or the Work Experience Program. The 
Mayor's program was set in motion fully two years before being required 
under PWRORA.
    Today, we have seen the merit of work experience on a large scale. 
Caseloads have dropped by more than half since their peak in March of 
1995, while follow-up surveys show high rates of employment and 
retention. Moreover every day New York City employs tens of thousands 
of welfare recipients in work activities which help them get ready for 
private employment, while benefiting all New York citizens in the form 
of improved city services.

Work Experience Today
    Work experience is defined as unpaid work activity by adults 
receiving benefits who are not generally employed in the private 
economy. Work experience can have one or more of the following 
objectives.

          1. Increasing the employability of participants by offering 
        opportunities to practice work and to learn the habits and 
        social skills necessary to succeed in entry level employment;
          2. Reducing welfare dependency by improving employment 
        prospects and by altering the work/leisure tradeoff;
          3. Fulfilling a social and moral obligation of recipients to 
        contribute to society in exchange for benefits;
          4. Attacking the culture of poverty, which is related to the 
        notion of social obligation above, but is not the same.

    Although work while on welfare for those not privately employed was 
one of the central goals of PRWORA, it is not now a significant 
component of the welfare reform programs that most states offer. Given 
the goals of TANF, this is a surprising and important fact which is not 
widely recognized and to which we will return.

Congressional expectations regarding the inclusion of work experience 
        under TANF were much higher than in the earlier JOBS program
    The authors of TANF clearly intended that work, even while still 
receiving benefits, should transform the meaning of temporary 
assistance, and they signaled this by setting high levels of weekly 
work levels and participation rates. In addition, the TANF authors took 
special care to observe the lessons from past failed attempts to 
legislate work requirements, for instance that unless clearly defined, 
states would not actually require work. Notwithstanding the flexibility 
otherwise inherent in the TANF block grant, the work requirements and 
measurements are very specifically spelled out. By contrast with 
earlier federal legislation, especially in light of the disappointing 
Job Opportunities and Basic Skills Training Program (JOBS) created by 
the Family Support Act in 1988, TANF drafters attempted to lock in 
higher work levels. They did so in four ways:
    First, they insisted on honest counting. The participation 
standards written into the earlier JOBS program had been beset by the 
phenomenon of the ``shrinking denominator,'' or the ability of states 
to exclude large numbers of individuals from being counted as available 
for work-related activities. Thus states were allowed to announce work 
participation rates which were misleadingly high. TANF helped resolve 
this by keeping a broad definition of who is available for work, 
including nearly all adults minus only those cases with a child under 
age one (at state option for a period of up to 12 months per family) 
and those cases in sanction status (for no more than three months 
within the preceding 12 months). Thus, few cases can be removed from 
the denominator of the ratio of those actually working.
    Second, the TANF statute defines precisely what counts as work (in 
the numerator of the calculation), rather than leaving this definition 
to the states. The definition of work under TANF conforms to the common 
sense meaning of the word, rather than absorbing into it education, 
training, and other assorted activities.
    Third, the legislation includes substantial required participation 
rates, beginning with 25 percent of the caseload in 1997, and 
increasing to 50 percent by 2002 (and higher for two-parent families). 
Required hours also increase over time, rising from 20 hours per week 
in 1997 to 30 hours in 2000 and thereafter. Penalties assessed to 
states for non-compliance with the above standards were set at a 
realistically low level (5 percent the first year increasing by 2 
percentage points for each consecutive year of failure). This was 
intended to increase the probability that the penalty would actually be 
imposed and collected (thereby signaling that program adherence is 
expected), rather than blocked in Congress by home state members.
    Fourth, TANF imposes more severe financial penalties (sanctions) 
against participants who do not comply with program requirements.

 Surprisingly, there is a very low rate of usage of work experience by 
                                states.

    With all the attention paid to work participation standards by the 
drafters of TANF, a provision was included in the bill which made 
achieving high work rates less imperative than it seemed at the time 
the legislation was enacted. This provision is the caseload reduction 
credit, which reduces the participation rate requirement by one 
percentage point for each percentage point a state's welfare caseload 
falls below 1995 levels. Thus, if a given state's caseload were to fall 
by 25 percent between 1995 and 1999, the TANF work requirement would 
fall from the required 1999 level of 35 percent to 10 percent (35 
percent - 25 percent = 10 percent). Since many states already have well 
over 10 percent of their caseload combining private employment with 
welfare, states such as the one in this example would not need to have 
any welfare recipient in a work program to meet the 35 percent work 
standard.
    Not surprisingly, given the caseload reduction credit, national 
data for 1999 show that the typical state had very few welfare 
recipients in a work experience program. Although over 40 percent of 
the adult caseload in the average state is involved in some required 
activity, nearly 70 percent of these are in unsubsidized employment; 
i.e., they are collecting welfare while working at a regular job. By 
contrast, under 10 percent of all adults who are participating in any 
activity while receiving welfare benefits are in work experience of any 
kind. This figure translates to just 4 percent of the entire caseload 
of 2.1 million adults. Thus, the number of adults on TANF who 
participate in work experience is exceedingly low by any standard. Even 
the Family Support Act enrolled an estimated 20,000 to 35,000 in work 
experience on an average monthly basis in 1994, as compared to 78,000 
now.
    Clearly, states as a group have exercised their option under the 
TANF caseload reduction credit to focus management attention on other 
parts of the program. The significant efforts which would be necessary 
to organize state programs around a substantial commitment to work has 
evidently not been generated by TANF as it is currently configured.
    How one views this development depends partly upon one's judgment 
as to the relative value of maximizing state program flexibility as 
compared to that of requiring full engagement in work activity as a 
primary goal of welfare reform. Our view is that real reform means 
that, for those unable to work in the private economy, work in exchange 
for benefits is the next best alternative.
    A major management commitment is necessary to mount a large and 
ongoing work experience program for a high proportion of recipients, 
and although the policy makers who drafted the TANF program may have 
anticipated that most recipients would be involved in actual work, 
implementation by states has simply not produced this result.

Running a Work Experience Program: Lessons from New York City and 
        Elsewhere
    New York City and Wisconsin each run programs which share the 
aspiration to have a fully work-based welfare system, which means that 
for those not in private employment, work-experience makes up the 
greater part of a full-time simulated work-week, with other activities 
such as job search and education included as lesser parts. The work 
obligation applies to all adults with almost no exceptions, 
andsubstantial management attention is devoted to attendance, tracking, 
and monitoring of sites. In order to assure suitable work assignments 
for those of all capabilities, provisions for specialized work sites 
are made which incorporate vocational rehabilitation. Taken together, 
Wisconsin and New York's work experience programs offer guidance as to 
what might be expected as a result of a more extensive national 
program, as reflected in the observations below.
    Work experience should constitute genuine practice for private 
employment.
    While empirical evidence is lacking, certain features of work 
experience appear to make it more effective in preparing people for 
actual jobs.
    <bullet> The program should operate on a standard full-time 
workweek which conforms to the expectations of private employment. This 
allows participants to practice organizing their lives around a 
realistic work schedule of eight hour work days and five day work 
weeks;
    <bullet> Real work must be accomplished. Nothing is more 
dispiriting to those expecting to work than to remain idle on the job 
or worse, ignored. By contrast, the pride and satisfaction of 
successfully mastering work tasks often results in a big psychological 
lift and translates into confidence in the search for private 
employment;
    <bullet> Third party medical review must be available to determine 
work capability. Medical reviews are essential for the health and 
safety of participants, and to maintain a uniform work standard not 
subject to ``doctor shopping'';
    <bullet> Work assignments must include close supervision and 
regular feedback. Those who lack work histories are often not familiar 
with workplace norms of professionalism and conduct, and frequently 
find it difficult to submit to supervisory authority or get along with 
co-workers. Good supervisors who agree to make part of their task the 
acculturation of participants play a large role in the success of their 
charges;
    <bullet> There must be swift consequences for non-attendance 
without cause. Consequences can be a new experience for those used to 
being involved in a bureaucratic welfare system in which not much 
changes. Thus, the importance of reliability must be taught, and for 
this to occur benefits must be closely tied to attendance.
    Work experience is the operational component which best allows for 
the goal of replacing cash assistance with work. Work experience 
expands or contracts to accommodate the ebbs and flows of the private 
economy like an accordion. It is always there to absorb those outside 
of the labor force while keeping work habits and skills in good repair. 
As compared to other work related component activities such as grant 
diversion or public service employment, work experience has these 
characteristics: it can be operated on a large scale; can constitute 
the major part of a full-time program week (e.g. 35 hours); can 
accommodate participants who remain in the component for extended 
periods; and provides an immediate and ever-present work option for 
individuals rotating into and out of assistance.
    Work experience probably exerts its greatest net caseload impact at 
the time of enrollment. Where work experience has been required of 
applicants who do not find private employment within a certain period 
of time, the number of actual slots used by participants is almost 
always far fewer than anticipated. Fewer slots are necessary because 
individuals who know they must work in exchange for benefits frequently 
elect not to enroll in the program in the first place. Instead, they 
find immediate employment or increase their hours of part-time jobs. In 
other instances they rely on alternatives which were already present, 
such as combinations of unreported work, doubling-up, help from 
relatives, and help from friends.
    The phenomenon of lower than expected work experience usage was 
much in evidence in the transition from the AFDC entitlement program to 
the completely work-based W-2 program in Wisconsin. There, of the 
26,000 AFDC families with an adult head who were obligated to enroll in 
the new W-2 program in which near full-time work-experience was 
required, 45 percent elected not to transfer and closed their case. 
Another 16 percent accepted W-2 case management services but did not 
wish to engage in work experience in order to receive cash benefits.
    Universal work programs require work slots for individuals of all 
capabilities. In New York, excluding child-only cases in which there is 
no adult, fully 87 percent of the TANF caseload is deemed 
``engageable,'' meaning that they are ready for some kind of work 
assignment. Having a near-universal expectation of work helps change 
the culture of the system and channels the energy of recipients in a 
constructive direction away from attempting to qualify for exemptions.
    A work experience program which aspires to have close to universal 
applicability must also have an inventory of assignments suitable for 
participants of varying ability levels. Both New York City and 
Wisconsin provide for a ``ladder'' of work options which provide real 
work for adults with all levels of experience and job readiness. 
Standard work assignments range from outdoor physical work to office 
jobs in government or non-profit agencies. For adults with mild 
disabilities, vocational rehabilitation agencies such as Goodwill can 
provide work in specialized settings. In New York City, roughly one 
third of the mildly disabled who enroll in work rehabilitation have 
orthopedic limitations such as back weaknesses, another third have 
mental health problems, especially depression, and the balance have 
mostly asthma or cardiovascular limitations.
    The incremental costs of running a work experience program are 
manageable, particularly in light of increased resources available as a 
result of significant recent caseload reductions. The research 
organization, Manpower Demonstration Research Corporation (MDRC), 
studied early work experience programs and found the annual costs per 
filled slot in work experience programs to range from $700 to $8000. In 
New York City, the incremental cost of running its large-scale program 
is within the lower part of the range found by MDRC. Total 1999 
expenditures on work experience were about $43.1 million or about $1400 
annually per filled slot excluding child care (because each slot turns 
over multiple times per year, the cost per participant is lower than 
the annual amount). Of the $1400 cost, 67 percent goes to payments to 
other government agencies for direct costs, including timekeepers, 
coordinators, and field supervisors as well as tools and equipment 
(non-profit agencies that host work experience participants often 
absorb these costs). Another 24 percent of costs go for third party 
medical assessments. The remaining nearly 10 percent is used for 
welfare agency administrative costs.
    There can be significant benefits to participating agencies which 
offset some of the costs, and can provide real improvements in the 
services delivered by government and non-profits. Most New York city 
agencies were reluctant to take on the responsibility for managing 
large numbers of work experience participants until Mayor Giuliani 
himself made it clear that work opportunities for welfare recipients 
was a city priority. Once set up to accommodate work experience 
participants however, these same agencies came to see significant 
improvements in the level of service they were able to provide the 
public. To take one example, immediately prior to the introduction of 
large numbers of work experience participants, the city's parks had an 
``acceptable cleanliness'' rating of 74 percent. Largely as a result of 
the additional labor available beginning in 1995, which peaked at more 
than three thousand full-time worker equivalents, the acceptable 
cleanliness rating of the city's parks climbed to 95 percent. More 
recently the sharp caseload declines have resulted in fewer work 
experience participants for Parks, prompting the department to request 
an increase in referrals from the city welfare agency.
    The productivity of work experience participants as compared to 
regular employees was estimated in MDRC's 1993 evaluation of work 
experience programs. MDRC surveyed supervisors, who overall said work 
experience participants were as productive, or nearly as productive, as 
regular employees.). Based on our New York City experience, it seems 
likely that productivity is somewhat lower than that of regular 
employees because of higher turnover, more frequent absences, and a 
tendency for welfare recipients to bring at-home problems to the 
worksite.
    Sanction policies play a large role in achieving high levels of 
participation. High non-participation rates are a feature of most 
mandatory programs. In Wisconsin, where the W-2 program pays cash 
benefits only to those who first participate in work activities, 
compliance by definition is high. However, in states like New York that 
do not use a version of full-check sanction for non-participation, a 
large proportion of families may accept a lower TANF payment rather 
than engage in work. In a high intensity program, the number of 
recipients who accept sanctions to avoid work can actually exceed the 
number of recipients who meet the participation requirement. For 
instance, in New York recently there were 17,000 active TANF work 
experience participants, along with 15,000 engaged in other primary 
activities, for a total of 32,000. At the same time, there were 17,500 
individuals in sanction status for non-participation, with an 
additional 17,000 in the sanction determination process, for a total of 
34,500, or a number slightly higher than those properly engaged in work 
experience.
    However, even strong sanction policies will not encourage all 
potential participants to meet their work obligation. In order to reach 
greater numbers of non-participants, New York City contracted with 
several faith based organizations to make home visits to counsel and 
assist families with problems in an atmosphere of greater trust. Church 
counselors say that they are usually welcomed into these homes and 
develop positive relationships with recipients. However, a minority of 
those they encounter have remained isolated at home for such long 
periods that they lack minimal will and confidence to enter the 
program. Many of these adults believe that even if they did participate 
in work experience, they would fail. For this subset, a longer period 
of relationship building combined with special interventions, perhaps 
with non-government counselors, may be beneficial.
    High turnover rates present management problems but lower the 
number of required work slots. In addition to high initial no-show 
rates, work experience turnover rates are high for those who do enroll. 
In New York, for those who begin a work experience assignment, the 1996 
TANF drop out rate was 38 percent after one month, 53 percent after two 
months, and 61 percent after three months. Since 1996 the turnover rate 
has increased even further as the system has approached near universal 
enrollment and the caseload has declined further.
    The high turnover rate has at least two causes. One cause is that 
those who reliably participate in their work assignments, even for 
short periods, find they can obtain private employment (experience 
shows that private employers like to receive attendance information and 
recommendations from work experience supervisors and take them into 
account). Fully half of all individuals who participated in New York's 
work experience program for any period during the first quarter of 2000 
found employment the same calendar year. In addition, normal caseload 
dynamics in which recipients leave the rolls, further increases 
turnover.
    The high work experience turnover rate means that far fewer actual 
slots are needed to run a universal program than would otherwise be 
required. For its TANF caseload of 161,000, of which 128,000 have an 
adult in the household, New York City is able to run a mandatory 
universal work program with only 17,000 slots, (with the caveat that 
many are not participating even though required to do so), with an 
additional 15,000 slots for other primary activities such as high 
school, post-secondary education or training, and initial-stage 
substance abuse treatment. An additional 10,000 work experience slots 
are sufficient for a general assistance caseload of 75,000.

Considerations for Reauthorization
    The analysis of work experience presented in this paper, combined 
with our experience in administering these programs, leads us to make 
several recommendations to Congress as it pursues welfare reform 
reauthorization over the next two years.
    Increase the proportion of TANF recipients participating in work 
experience. First and foremost, we strongly recommend that Congress 
take action to increase the proportion of adult welfare recipients who 
are subject to a work experience requirement. The level of work 
experience participation should be increased simply by requiring a 
higher percentage of the caseload to meet the work requirement so that 
work becomes an expected standard for those receiving benefits. Every 
state should be required to have a substantial proportion of its 
caseload, say 35 percent to 45 percent, in a work program.
    Enforce the provision of TANF requiring that sanctions for non-
participation be applied as a pro-rata reduction of family benefits. 
The statutory text of the TANF program requires that full-check 
sanctions be applied to cases in which there is a complete failure to 
participate without good cause. In the case of partial participation, 
the legislation requires reductions equal to the portion of hours of 
activity missed without good cause. This interpretation of the term 
``pro rata'' (see Section 404(e)(1)(A) of the Social Security Act) was 
made explicit in the conference report for the 1996 welfare reform 
legislation. However, in its regulations HHS chose to permit states 
wide latitude in interpreting the provision, even to the extent of 
ignoring the provision entirely and retaining the sanction provisions 
of the former AFDC program.
    As a result, several states, including large states like New York 
and California, do not as a practical matter require participation in 
work activities for those who elect to opt out and accept slightly 
lower benefits. For work to become a meaningful and integrated part of 
receiving welfare, the original intent of the TANF provisions must be 
restored so that all states will be required to terminate cash benefits 
for recipients who refuse to participate in work requirements.
    States should be able to merge work obligations under the Food 
Stamp program with those under TANF. TANF made several important 
changes to the Food Stamp law in order to make administration of the 
two programs more compatible. For instance, the ``Simplified Food Stamp 
Program'' option is intended to allow states to have greater procedural 
flexibility in the process of determining benefits, so that there is 
greater compatibility with TANF. Other provisions of the new law allow 
for greater compatibility with TANF's work program. However, these 
statutory changes have been interpreted narrowly by the Department of 
Agriculture, and the statutory changes themselves do not go far enough.
    Constraints imposed on work experience programs by Federal 
regulations should be lifted through legislative clarification. The 
interpretation of various federal statutes bearing on work experience 
programs, issued by both the Departments of Labor and Health and Human 
Services, interfere unnecessarily with the operation of these programs 
and should be clarified by legislation. Among the workplace laws which, 
according to departmental regulations, can have applicability to work 
experience programs, are the Fair Labor Standards Act (especially the 
minimum wage); Occupational Safety and Health Administration rules; 
Unemployment Insurance (at certain non-government sites); the Americans 
with Disabilities Act; titles VI and VII of the Civil Rights Act; the 
Age Discrimination in Employment Act; and the Equal Pay Act. With the 
TANF program being in its early life and with work experience not 
heavily used, many of the above provisions have not yet generated 
litigation, but experience predicts that litigation can be expected.
    The minimum wage provisions of the Fair Labor Standards Act, which 
constrain the number of hoursrecipients can be required to participate 
in work activity, is being averted in states which have deemed work 
experience a training activity. Other states are restricting the 
scheduled hours of work experience. However, this rule, after a court 
test, may constrain work experience in every state because the courts 
may not agree that work experience is training. Because, as we have 
argued, work experience is most powerful when it parallels a full-time 
work schedule of 35 hours per week, these rules on allowable hours of 
work directly reduce the program's effectiveness.
    The current federal interpretation of the applicability of 
workplace law is out of place in the context of state run work 
experience programs under TANF. Participants in work experience are 
already covered by the same program standards and protections afforded 
those in side-by-side activities such as job search, training, and 
education. Applying federal employment laws to these program operations 
was clearly not intended under the TANF statute, and opens up a whole 
range of new conflict and litigation based on decades of overlapping 
laws, regulations, and legal precedents which may have nothing to do 
with welfare-to-work programs. The Family Support Act, which preceded 
TANF, had specific exemptions from several requirements of labor law. 
These exemptions, which were originally included in the Community Work 
Experience Program (CWEP), specified that AFDC benefits were not to be 
construed as compensation for work performed. The logic of this 
provision was that work experience assignments for those receiving 
welfare payments are intended to be educational in the sense of 
preparing adults to take private employment. Congress should revert to 
its earlier explicit exemption of work experience from employment law.

Conclusion
    The promise of the welfare reform law has been achieved to a far 
greater degree than was anticipated by most of its critics. Its most 
distinctive achievement, as shown by the papers in this volume, has 
been to greatly increase the number of single mothers who are working 
in the private economy and who have brought their families out of 
poverty. Ironically, the large number of mothers who have left welfare 
has served to reduce the need for states to maintain high levels of 
participation in work experience programs because of the caseload 
reduction credit. We should be concerned that states are not developing 
the work programs and infrastructure necessary to constructively engage 
those who remain on assistance and those who are sure to return in the 
next business cycle. For those not able to move to work quite yet, work 
experience remains the next best alternative. It can transform the 
meaning of welfare and may even be capable of affecting the larger 
culture of poverty, yet the low level of participation in this 
important activity means that this part of the promise of the welfare 
reform revolution remains unfulfilled.

                  City of New York Parks & Recreation

       Work Experience Program Procedures Manual for Crew Chiefs

                       rudolph w. giuliani, mayor
                      henry j. stern, commissioner

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: January 3, 1995
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #1

                          District Orientation

    New WEP participants report to Borough Orientations every other 
Monday (Tuesday when there is an official City holiday). Participants 
listen to a three hour information session on topics such as Time 
Limits, Park Policies, Procedures, and Safety in the Workplace. 
Participants are then assigned to the District to which they are 
expected to report the following day--Tuesday (Wednesday, if Monday was 
an official City holiday).
    When WEP participants first report to their district, the Crew 
Chief is responsible for providing them with a comprehensive District 
Orientation based on an orientation script (see Appendix A for District 
Orientation Script).
    The District Orientation should cover the following topics:
    <diamond> Rules & Regulations of the District
    <diamond> Chain of Command & District Contact Information (Phone 
and Pager Numbers)
    <diamond> Medically Limited (EII) Participants (see Procedure #8)
    <diamond> All WEP Participants will be treated Equally and Fairly 
(see Procedures #11 and #12)
    <diamond> District Work Policy (see Procedure # 2)
    <diamond> Issue Uniforms and Demonstrate Tool Use (see Procedure 
#6)
    <diamond> Safety in the Workplace (see Procedure #13)
    <diamond> Getting Help In Finding A Job (see Procedures #20 and 
#21)
    <diamond> Awards (see Procedure # 19)
    <diamond> Question/Answer session

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: 1989
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #2

                              Work Policy

    The following work policy is enforced at Parks. Crew Chiefs must 
ensure that participants:
    <diamond> follow their work schedule
    <diamond> work their assigned amount of hours within the two week 
period
    <diamond> notify their supervisor if they will be late or absent
    <diamond> arrive to work drug and alcohol free
    <diamond> complete their assigned duties
    <diamond> provide original, dated documentation on letterhead when 
absent
    <diamond> do not operate Parks motor vehicles

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: January 3, 1995
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #3

       Crew Chief Responsibilities--Chronological Daily Checklist

    The following is a checklist to help Crew Chiefs keep track of 
their daily responsibilities.
    {time}  Confer with Park Supervisors or Principal Park Supervisors 
for daily district assignments.
    {time}  Set up time sheets for participants to sign.
    {time}  Monitor sign-in to verify time of arrival.
    {time}  Return time sheets to file.
    {time}  Transport workers to sites as required.
    {time}  Assign locations and work duties to participants.
    {time}  Sign out all tools, supplies, and garments accordingly (see 
appendix for sample Uniform Sign-Out sheet).
    {time}  Give clear instructions and demonstrate how to perform 
assigned work duties.
    {time}  Schedule lunch breaks (see Procedure #4).
    {time}  Perform duties along with participants and supervise 
activities.
    {time}  Report any accidents or problems to a supervisor (worker's 
compensation, fights, etc.).
    {time}  Collect and sign-in all tools, supplies, and garments 
accordingly.
    {time}  Transport participants back to districts as necessary.
    {time}  Observe sign-out of each participant.
    {time}  Document successful clean-ups.
    {time}  Return logs of work completed to Park Supervisors and/or 
Principal Park Supervisors.
    {time}  Follow all time-keeping procedures (see Procedure #4).

                   WORK EXPERIENCE PROGRAM PROCEDURE

ISSUED: 1989
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #4

 Work Schedules, the Concurrent Workweek, and Time Regulations (Page 1 
                                 of 3)

    WORK SCHEDULES:
    <diamond> When arranging work schedules, Crew Chiefs must keep in 
mind that participants may not work more than eight hours per day.
    <diamond> Crew Chiefs must assign WEP participants they supervise 
only to work the days that they are scheduled to work. Crew Chiefs may 
not assign participants to work on their own Regular Day Off (RDO).
    <diamond> When participants are scheduled to work more than four 
hours a day, a lunch break must be scheduled for a minimum of 30 
minutes and a maximum of one hour.
    <diamond> Participants may be scheduled to work weekends, but not 
when it conflicts with a religious observance (unless the participant 
agrees to work). Note: Any questions regarding religious observance 
should be brought to the attention to the Borough WEP Coordinator.
    <diamond> Participants with children on their public assistance 
case (FA/ADC) may not be required to work weekends when HRA only 
provides child care money Monday-Friday.
    JOB SEARCH & THE CONCURRENT WORKWEEK:
    <diamond> Be aware that many participants are engaged in a 
concurrent workweek. In addition to their WEP assignment, they are 
assigned to a job search program. This requirement can be fulfilled 
either through the Parks run Job Assistance Center (JAC) Program (see 
Procedure #21) or another non-Parks affiliated job search program (e.g. 
Goodwill Industries, Americaworks).
    <diamond> A participant must bring in a letter stating what days 
they are engaged in job search. A Crew Chief may not schedule a 
participant to work on the days the participant is assigned to job 
search.
    <diamond> The Crew Chief is not responsible for timekeeping related 
to job search. Job Search does not take the place of a WEP assignment 
but is in ADDITION to the WEP assignment.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: 1989
REVISED: October 1, 2000
PROCEDURE: #4

 Work Schedules, the Concurrent Workweek, and Time Regulations (Page 2 
                                 of 3)

    JOB SEARCH & THE CONCURRENT WORKWEEK continued:
    <diamond> Participants who are enrolled in a job search program 
must complete their WEP assigned hours as they appear on the timesheet.
    <diamond> Note: A participant can be terminated for not attending 
his/her job search program even if s/he continues to complete his/her 
WEP hours. Crew Chiefs should call their Borough Coordinator's Office 
if they have any questions about a participant who is attending a job 
search program.
    <diamond> Participants may be scheduled to work on City holidays 
unless they have children on their case. However, if a participant is 
scheduled to work a holiday, s/he must be allowed a different day off 
during that bi-weekly period.
    TIME SHEETS:
    Time sheets must be carefully and accurately completed. They serve 
as the only documentation of the hours worked by each WEP participant. 
Any partially or incorrectly completed time sheet may jeopardize a 
participant's benefits and unnecessarily decrease our head count. It is 
vital that time sheets are completed and returned on time.
    Only WEP Supervisors (PRMs, PPSs, PSs, APSWs, and Crew Chiefs) are 
permitted to sign participants' time cards unless otherwise noted by 
the borough Supervisor of WEP (Chief of Operations and/or Chief of 
Administration).
    The accuracy and timeliness of timesheets will contribute to Crew 
Chief's performance evaluations.
    While timesheets should be stored in a secured location to prevent 
fraud, timesheets should also be available when the Crew Chief is not 
in.
    Crew Chiefs are required to submit a timesheet for all WEP 
participants assigned to their district--even those who never reported 
to the District. The Crew Chief should note zero hours worked/excused 
and sign off on the timesheet for any participant who did not show up 
during the biweekly.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: 1989
REVISED: October 1, 2000
PROCEDURE: #4

 Work Schedules, the Concurrent Workweek, and Time Regulations (Page 3 
                                 of 3)

    DOCUMENTATION:
    Documentation for excused absences must be attached to the time 
sheet for the period in which theabsence occurred. If documentation 
arrives after time sheets have been submitted, inform the Borough WEP 
Office.
    The following absences are excused, and do not require 
documentation:
    <diamond> Observed City holidays
    <diamond> Religious holidays
    The following absences are excused, but require original (not 
photocopied), dated documentation:
    <diamond> Illness--doctor's note on letterhead
    <diamond> Jury Duty-jury summons
    <diamond> Job Interview--business card/note from company with name 
of the interviewer
    <diamond> Family Emergencies-note from appropriate agency
    <diamond> Day Care/Day Camp closings (FA/ADC only)
    <diamond> School Closings (FA/ADC only)

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: 1989
REVISED: October 1, 2000
PROCEDURE: #5

                          Time Sheet Checklist

    To ensure that time sheets are maintained properly, Crew Chiefs 
should follow this checklist when organizing and completing time 
records for WEP participants. These procedures are arranged in order of 
importance. Crew Chiefs must:
    {time}  Confirm that they have a time sheet for each worker on the 
roster (see appendix for sample Time Sheet).
    {time}  Notify the Borough WEP Office if they did not receive a 
time sheet for a participant.
    {time}  Note: Every active participant should have a time sheet. 
Notify the borough WEP office if the participant does not bring/ have a 
time sheet. If directed by the WEP office, create a time sheet for any 
participant who reports without one.
    {time}  Ensure that time sheets are accessible each day for 
signing-in and out.
    {time}  Be present during sign-in and out times to monitor the 
accuracy of time sheets.
    {time}  Keep all time sheets organized and in a secure location to 
prevent loss or falsification.
    {time}  Verify that all hours, working or excused, have been 
recorded on the time sheets and totaled properly.
    {time}  Attach documentation of absences to the time sheets.
    {time}  Submit a timesheet for all assigned WEP participants--even 
if they did not report to the District.
    {time}  Submit all time sheets accurately and on time to your 
Borough WEP Office. Crew Chiefs should check with the Borough WEP 
Office to confirm when time sheets are due.
    Note: Late timesheets can result in unnecessary termination of 
participants from Parks WEP.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: 1989
REVISED: May 1, 1999, October 1, 2000
PROCEDURE: #6

                       WEP Uniforms (Page 1 of 2)

    All participants should be provided with the mandatory WEP uniform 
for identification purposes during the workday. The uniform includes:
    <diamond> summer or winter hats
    <diamond> green or orange vest or WEP T-shirts
    <diamond> pair of gloves
    The WEP uniform must be worn at all times by working participants. 
A participant has an option of wearing either a WEP vest, WEP T-shirt, 
or WEP coat. However, s/he must wear one of these two items. Note: If a 
WEP participant is working near vehicular traffic, s/he must wear an 
orange vest.
    In times of inclement weather, the following items may also be 
distributed:
    <diamond> winter jacket
    <diamond> pair of overboots
    <diamond> raincoat or rainsuit
    WEP participants are only allowed to take home hats and T-shirts. 
All other uniform items must be signed-in and out every day.
    Jackets may be labeled with removable tape or adhesive nametags for 
WEP participants who have worked at Parks for an extended period and 
wish to wear the same jacket each day. Each Crew Chief may, at his/her 
discretion, decide on a policy to assign jackets to those participants. 
Worn-out gloves may be returned to the supervisor and exchanged for a 
new pair.
    WEP participants should be offered personal protective equipment if 
asked to perform relevant tasks.
    Note: WEP uniforms should be used exclusively by WEP participants. 
They should not be worn by any Parks employees. WEP participants should 
be advised to not wear their uniform when they are off duty. Issue WEP 
uniforms accordingly.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: 1989
REVISED: May 1, 1999, October 1, 2000
PROCEDURE: #6

                       WEP Uniforms (Page 2 of 2)

    UNIFORM DISTRIBUTION PROCEDURE:
    When uniform items are distributed, Crew Chiefs must:
    {time}  Fill-in their name, borough, district, and the date at the 
top of the Uniform Sign-Out Log (see appendix).
    {time}  Print the WEP Participant's name in the first column of the 
Uniform Sign-Out Log.
    {time}  Check the appropriate boxes for the uniform items borrowed.
    {time}  Ensure that WEP participants sign their name in the ``OUT'' 
column, acknowledging receipt of the uniform items. ID Cards may be 
collected as collateral for the borrowed uniform items.
    {time}  At the end of the day, the Crew Chief must collect all 
uniform items, with the exception of the hats and T-shirts. The Crew 
Chief must sign his/her name in the ``IN'' column, acknowledging the 
return of the borrowed uniform items.
    {time}  Store the WEP uniforms in a safe area overnight.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: January 3, 1995
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #7

                              Termination

    WEP participants can be terminated for any of the following 
reasons:
    <diamond> Not working their total number of assigned hours
    <diamond> Poor work performance or leaving the work site without 
authorization
    <diamond> Falsifying time sheets, medical documentation or other 
documents
    <diamond> Consistently being late or absent without informing their 
supervisor in advance
    <diamond> Not providing written documentation for absences
    <diamond> Vandalizing Parks property
    <diamond> Verbal or physical abuse of another person
    <diamond> Appearing to be under the influence of alcohol or illegal 
drugs
    <diamond> Loss of uniform items
    If a Crew Chief believes a participant should be terminated for any 
of these reasons, s/he should fill out a ``Termination Request'' form 
(see appendix for sample Termination form), and submit it to the 
Borough WEP Coordinator immediately. The Coordinator will take the 
appropriate action.
    The Human Resource Administration (HRA) will terminate, at the end 
of a two-week period, any participant who does not work the full number 
of hours and does not provide proper documentation for missed hours. 
When a participant is terminated for this or any other reason, the 
participant will receive a notice of conciliation to discuss the 
termination and its effect on the participant's benefits. If the 
hearing is not found in favor of the participant, a participant will be 
sanctioned and will not receive any cash assistance, Medicaid and/or 
Food Stamp benefits (depending upon the type of sanction received).

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: August 4, 1997
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #8

          Participants with Medical Limitations (Page 1 of 4)

    If a participant presents a completed Physician's Assessment of 
Client's Employability (EII) form at either their Borough or District 
Orientation, s/he should be assigned to appropriate tasks as prescribed 
by the HSS doctor. These tasks are to be considered light duty.
    When assigning light-duty work, Crew Chiefs should use their 
judgement and take into account the specific medical condition of each 
participant.
    Crew Chiefs should:
    <diamond> Note the working environment (weather, temperature, etc.)
    <diamond> Ensure that the medically limited participants take 
sufficient breaks, have access to water, and are not on their feet for 
too long.
    If a Crew Chief is unsure as to what tasks to assign, it is best to 
assign a medically limited participant to a task that is less 
strenuous.
    APPROPRIATE TASKS FOR WEP PARTICIPANTS WITH MEDICAL LIMITATIONS:
      <diamond> Outdoors (Only acceptable in moderate weather 
conditions):
          <diamond> Sweeping playground areas
          <diamond> Bagging and stabbing litter
          <diamond> Reporting dangerous conditions and defective 
        equipment
          <diamond> Touch-up painting jobs
          <diamond> Simple gardening work
      <diamond> Indoors/Maintenance:
          <diamond> Wiping down, cleaning walls or flat surfaces
          <diamond> Dusting and polishing furniture and fixtures
          <diamond> Sweeping and mopping floors
          <diamond> Replacing restroom supplies
          <diamond> Emptying small waste baskets

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: August 4, 1997
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #8

          Participants with Medical Limitations (Page 2 of 4)

    <diamond>  Indoors/Clerical:
        <bullet>  Organizing and maintaining time cards
        <bullet>  Answering phones, reception
        <bullet>  Typing, faxing, copying
        <bullet>  Assisting in after school programs, summer school, 
        seniors' activities
        <bullet>  Sorting mail
        <bullet>  Assisting in translation for non English speaking 
        participants
        <bullet>  Assisting in inventory of supplies
        <bullet>  Replacing and sorting office supplies
     If a Crew Chief is unsure whether a participant is medically 
limited or what duties to assign a medically limited participant, s/he 
should immediately contact his/her WEP Borough Coordinator for further 
guidance.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: August 4, 1997
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #8

          Participants with Medical Limitations (Page 3 of 4)

    DOCUMENTATION AND MEDICALLY LIMITED WEP PARTICIPANTS:
    Crew Chiefs must create files for participants with medical 
limitations which include the:
    <diamond> EII forms or Doctor's note
    <diamond> Copy of Duty Description form
    Crew Chiefs must make sure that they receive from their Borough 
Coordinators the EII and assignment forms for every WEP participant 
with medical limitations. Duty Description forms must be filled out by 
Crew Chiefs and a copy must be sent to their Borough Coordinator within 
24 hours of the participant's arrival in the District.
    Crew Chiefs must note participants' EII status on all biweekly 
schedules and time sheets so that substitute supervisors are aware of 
medically limited participants' conditions. Once it is determined that 
a participant is medically limited, the classification will appear on 
each participant's time card.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: August 4, 1997
REVISED: May 15, 1998, September 1, 2000
PROCEDURE: #8

          Participants with Medical Limitations (Page 4 of 4)

    WHEN A PARTICIPANT CLAIMS TO BE MEDICALLY LIMITED:
    If a participant claims to be medically limited after arriving in 
the District, the following procedures must be followed:
    <diamond> If the participant presents a completed EII form, s/he 
should be assigned to appropriate tasks according to his/her HSS doctor 
and the Appropriate Duties for Medically Limited Participants form. 
Crew Chiefs must immediately send a copy of the EII form to the Borough 
Coordinator.
    <diamond> If a participant presents a private doctor's note, but 
does not have an EII form, the Crew Chief must immediately contact the 
Borough Coordinator for further guidance and send him/her a copy of the 
documentation.
    <diamond> If the participant does not present any documentation, 
but s/he claims to be ill, the Crew Chief should send the participant 
home and give him/her 24 hours to present a doctor's note to the 
Borough Coordinator.
    <diamond> If the participant is not able or refuses to obtain a 
doctor's note, the Crew Chief should immediately contact the Borough 
Coordinator.
    Crew Chiefs must announce the Parks policy on medical limitations 
at District Orientations. At these orientations, Crew Chiefs must 
ensure that they have all participants' medical limitation 
documentation.
    The proper documentation from a doctor must be printed on 
letterhead and have the doctor's signature. It must state the 
participant's medical condition in detail and give the date that s/he 
will be able to work without any limitations. This note must be dated 
within the last 30 days.
    Crew Chiefs must read all Assignment forms, including the comment 
section of these forms, to make sure that they have a record of all 
participants with medical limitations.
    If at any time during the workday, a participant suffers from an 
illness, nausea, dizziness, heat stroke, etc., the Crew Chief should be 
sure to take all necessary precautions to help the participant. For 
example: move the person out of the sun, get the participant water, 
call an ambulance, send him/her home.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: February 14, 1995;
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #9

                     Participant Injury on the Job

    If a participant sustains an injury on the job, the Crew Chief 
must:
    {time}  Ensure that the participant gets proper medical treatment 
immediately (call Central Communications and 911).
    {time}  Inform Central Communications, the District Supervisor, and 
the Borough WEP Coordinator, of the incident as soon as possible.
    {time}  Travel with the participant to the hospital (if the 
participant requires medical attention) and stay there until his/her 
status is known. If the Crew Chief is unable to accompany the 
participant, s/he must make arrangements for another Parks employee to 
go with the participant to the hospital.
    {time}  Complete the Worker's Compensation C2 form and addendum 
(see appendix for sample Worker's Compensation C2 form).
    {time}  Submit the original C2 form and addendum to the Borough WEP 
Office. The Crew Chief should retain a copy of the forms for his/her 
own records.
    {time}  Complete the participant's time sheet, recording the date 
and nature of the incident.
    {time}  Keep the Borough WEP Coordinator informed of the 
participant's status following the incident.
    {time}  Submit a Parks Incident Report to the Borough WEP Office 
(see appendix for sample Parks Incident Report form).

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: February 14, 1995
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #10

                     Participant Illness on the Job

    If a participant becomes ill on the job (i.e. suffers a seizure, or 
passes out), the Crew Chief must:
    <diamond> Ensure that the participant gets proper medical treatment 
immediately (call Central and 911).
    <diamond> Inform the Central Communications, the District 
Supervisor, and the Borough WEP Coordinator of the incident as soon as 
possible.
    <diamond> Travel with the participant to the hospital (should the 
participant require medical attention), and stay there until his/her 
status is known. If the Crew Chief is unable to go with the 
participant, s/he must make arrangements for another Parks employee to 
go with the participant to the hospital.
    <diamond> Complete the participant's time sheet, recording the date 
and nature of the incident.
    <diamond> Keep the Borough WEP Coordinator informed of the 
participant's status following the incident.
    <diamond> Submit Parks Incident Report to the Borough WEP Office 
(see appendix for sample Parks Incident Report form).

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: January 3, 1995
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #11

                         Fair Treatment Policy

    The work rules and standards of conduct that Parks employees follow 
also apply to WEP participants. A successful working relationship with 
WEP participants is achieved when they feel like they are a part of the 
Parks team. Crew Chiefs should stress that participants' contributions 
are valuable and enhance the quality of life in New York City. Crew 
Chiefs should keep the following things in mind:
    <diamond> Participants are not to be assigned to perform tasks 
alone; they must be assigned as a team of at least 2.
    <diamond> WEP participants should follow the same work and break 
schedule as Parks employees.
    <diamond> All participants should be provided with the proper tools 
and equipment to perform their duties safely.
    <diamond> Work assignments should not be hazardous or endanger 
participants' health.
    <diamond> Participants are expected to achieve the same levels of 
performance as Parks' employees.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: January 29, 1996
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #12

       Discrimination/Sexual Harassment Prevention (Page 1 of 2)

    It is the policy of Parks & Recreation to provide a work 
environment free from discrimination and sexual harassment. This policy 
is not designed to regulate or interfere with voluntary social 
relationships between fellow employees, but it does prohibit those 
actions and behaviors that are unwanted and unwelcome, and/or create an 
intimidating and hostile work environment.
    Granting professional benefits or favors on the basis of race or 
creed or to an employee who has accepted sexual advances is as much an 
act of misconduct as refusing to grant such benefits on the basis of 
race or creed or to an employee who has resisted such advances.
    Anti-discrimination protection applies to all of the terms and 
conditions of employment, including, but not limited to:
    <bullet> Recruitment
    <bullet> Testing
    <bullet> Hiring
    <bullet> Salary and Benefits
    <bullet> Work Assignments
    <bullet> Performance Evaluations
    <bullet> Promotions
    <bullet> Transfers
    <bullet> Discipline
    <bullet> Termination
    <bullet> Working Conditions
    <bullet> Training Opportunities
    It is unlawful to discriminate on the basis of:
    <bullet> Age
    <bullet> Alienage or Citizenship
    <bullet> Color
    <bullet> Creed
    <bullet> Disability
    <bullet> Gender
    <bullet> Marital Status
    <bullet> Race
    <bullet> Prior Record of Arrest or Conviction
    <bullet> Religion
    <bullet> Sexual Orientation
    <bullet> National Origin

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: January 29, 1996
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #12

       Discrimination/Sexual Harassment Prevention (Page 2 of 2)

    Sexual harassment is any repeated or unwelcome sexual advance, 
request for sexual favors, or other verbal or physical conduct of a 
sexual nature. The federal Equal Employment Opportunity Commission 
(EEO) defines such conduct as sexual harassment when:
    <diamond> Submission to such conduct is made, either explicitly or 
implicitly, a term or condition of an individual's employment.
    <diamond> Submission or rejection of such conduct by an individual 
is used as a basis for employment decisions affecting such individual, 
or such conduct has the purpose or effect of unreasonably interfering 
with an individual's work performance or creating an intimidating, 
hostile or offensive work environment.
    <diamond> Any Crew Chief who is aware of active discrimination, 
sexually intimidating or hostile work environment, should take 
immediate action to correct such situations. The Crew Chief should keep 
a written record of the situation and the proposed solution. If the 
solution fails to address the matter to the satisfaction of the people 
involved, the Borough Coordinator should be contacted. Contact the 
Parks Borough Office to find out the name and number of the appropriate 
EEO Coordinator.
    <diamond> All complaints of sexual harassment made either to a Crew 
Chief or to an EEO Officer will be addressed with confidentiality, and 
immediate and appropriate action will be taken.
    <diamond> Harassment and retaliation against those who press 
charges of discrimination or harassment is unlawful. Any employee who 
retaliates against another employee for filling a discrimination or 
sexual harassment complaint, or for cooperating in the investigation of 
a complaint, will be subject to disciplinary action.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: June 26, 1996
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #13

               Safety Procedures for Hazardous Materials

    While Borough WEP Orientations cover the procedures for safely 
dealing with hazardous materials, Crew Chiefs must reinforce these 
rules to their crew. Hazardous materials may include, but are not 
limited to:
    <diamond> Drugs or drug-related paraphernalia
    <diamond> Weapons, including knives or blades of any sort
     If hazardous materials are encountered on the job site, the 
following steps should be taken:
    <diamond> WEP participants are not to pick up or handle hazardous 
materials.
    <diamond> Any WEP participant discovering a hazardous object should 
immediately notify his or her Crew Chief or any other Parks employee or 
call 1800-201-PARK.
    <diamond> The Park Supervisor or Crew Chief will ``flag'' the area 
using either a small red flag or cone (provided at each location) and 
call Central Communications at (718) 383-6363 and provide the following 
information:
    <bullet> Park where ``flag`` is located
    <bullet> Nearest landmark
    <bullet> Object being flagged
    <bullet> Caller's name and title
    <diamond> Central Communications will then notify the nearest 
trained sector mobile crew to respond and dispose of the material. 
``Flagging'' is done to prevent children or other workers from coming 
in contact with the material. The Borough Health and Safety Manager 
should be contacted if a particular site does not have flags or cones.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: August 4, 1997
REVISED: October 20, 1999, October 1, 2000
PROCEDURE: #14

                           Inclement Weather

    EXTREME WEATHER CONDITIONS:
    <diamond> Only the Chief of Operations can authorize participants 
to go home early in extremely hot/cold weather conditions.
    <diamond> If any WEP participants are excused due to inclement 
weather, it must be noted on their time sheets and they will be given 
credit for all hours which they were scheduled to work that day. Crew 
Chiefs must note the credited hours in the hours worked column on the 
time sheet. Participants who report to work will receive a full day's 
carfare.
    <diamond> Participants are not expected to work in conditions under 
which other Park employees are not expected to work.
    INCLEMENT WEATHER WORK PLANS:
    <diamond> All Crew Chiefs must have inclement weather work plans 
that can go into effect when it rains or snows, or when the weather is 
particularly hot or cold. The following is a list of possible indoor 
assignments.
    <bullet> Cleaning indoor facilities
    <bullet> Cleaning bathrooms
    <bullet> Taking inventory of materials
    <bullet> Washing windows
    <bullet> Painting trash barrels
    <bullet> Servicing mechanical equipment
    <bullet> Being trained in the use of mechanical equipment by Crew 
Chiefs
    <diamond> WEP participants who are suitably dressed for inclement 
weather (rain gear or winter clothing) may also be assigned to outdoor 
work on cold and rainy days. However, participants should be given 
ample breaks from work in such harsh weather.
    <diamond> On hot days, water should be readily available. Crew 
Chiefs should also make certain that participants take sufficient 
breaks in shady areas.
    <diamond> If, after implementing inclement weather work plans, 
there are still participants who cannot be utilized, the Chief of 
Operations can authorize a Crew Chief to excuse them for the day.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: May 15, 1998
REVISED: October 1, 2000
PROCEDURE: #15

                         Authorized Inspections

    A WEP site may be visited at any time by inspectors from:
    <diamond> Parks & Recreation
    <diamond> Human Resources Administration
    <diamond> Other City, State or Federal Agencies
    If an inspection of your site occurs, inform your Borough WEP 
Coordinator immediately. You should work with your Borough WEP 
Coordinator to comply with any requested follow-up action.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: August 29, 1997
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #16

                        Unauthorized Site Visits

    The following procedures are to be observed when any unauthorized 
representative visits a WEP site.
    Note: The Crew Chief should call Central Communications and inform 
them of the visit.
    The Crew Chief should inform the representative that s/he may only 
speak to WEP participants during times not scheduled for work. These 
times are:
    <bullet> before their assigned reporting times
    <bullet> at official break times
    <bullet> after their tour of duty
    If the representative refuses to leave, inform him/her that the 
Parks Enforcement Patrol (PEP) will be called to escort him/her off the 
premises. If the representative does not leave, call Central 
Communications at (718) 383-6363 or (800) 201-PARK to have PEP 
dispatched to the site. Crew Chiefs should call their Borough WEP 
Coordinator and Chief of Operations immediately afterwards to report 
the incident.
    Note: You should direct members of the press or anyone else seeking 
extensive information to the public information office (212) 360-8311.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: November 28, 1995, May 25, 1999
REVISED: October 1, 2000
PROCEDURE: #17

State Motor Vehicle Inspections and Preventive Maintenance Inspections 
                           on Leased WEP Vans

    The following procedures should be followed for State Motor Vehicle 
Inspections and Preventive Maintenance Inspections on leased WEP 
vehicles.
    STATE MOTOR VEHICLE INSPECTIONS:
    State inspections must be conducted once a year on the date 
indicated on each vehicle's state inspection sticker. To receive a 
state inspection, the Crew Chief responsible for the vehicle should 
call the WEP office or the dispatcher to make an appointment for an 
inspection. The vehicle should be driven to Cartov Leasing's Fort 
Hamilton Parkway location (address listed below), where the inspection 
will be conducted while the Parks vehicle operator waits.
     PREVENTIVE MAINTENANCE INSPECTIONS (PMI):
    Each leased WEP vehicle is required to have three PMI's per year. 
Dates for these PMI's are assigned in the ``PMI schedule for leased 
vans.'' The Crew Chief responsible for the vehicle should make an 
appointment with Cartov Leasing to have the inspection done during the 
week the vehicle is assigned in the ``PMI schedule for leased vans.'' 
If the Crew Chief responsible for the vehicle is unaware of the 
assigned PMI dates, s/he should request a schedule from his/her Borough 
WEP Coordinator. PMI's are performed at Cartov Leasing's Fort Hamilton 
Parkway location, while the Parks vehicle operator waits. Cartov will 
note body damage on the PMI forms and will leave PMI receipts on the 
dashboard of the vehicle. Once a PMI has been completed, it should be 
recorded in the monthly ``WEP van breakdown and PMI report'' (see 
appendix sample WEP Van Breakdown and PMI form), which is sent to the 
Borough WEP Coordinator at the end of each month.
     Cartov's Fort Hamilton Parkway location: 3475 Fort Hamilton 
Parkway (between 36th Street and Chester Avenue)

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: November 28, 1995
REVISED: May 25, 1999, October 1, 2000
PROCEDURE: #18

               Leased WEP Vehicle Breakdown (Page 1 of 3)

     REPAIRS:
    WEP vehicles may also be sent to Cartov Leasing for repairs. 
Contact the following people to coordinate repairs for your vehicle:
    <diamond> Bronx: John Condon (718) 430-1873 and/or Elliott Sykes 
(718) 430-1896
    <diamond> Brooklyn: Kent Stridiron (718) 965-8929
    <diamond> Manhattan: Melissa Mendez (212) 408-0225 and/or the 
Manhattan WEP Office (212) 408-0228
    <diamond> Queens: Bob Gervasi (718) 699-4242 and/or Linda Koenig 
(718) 520-5930
    <diamond> Staten Island: Jack Guidotti (718) 816-9166
    TOWING:
    <diamond> During the day, contact the borough dispatcher or Central 
Communications.
    <diamond> At night or weekends, contact the dispatcher or Central 
Communications at 1-800-201-PARK.
    <diamond> Cartov Leasing can tow a vehicle to its Fort Hamilton 
location. Call (718) 972-4990.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: November 28, 1995
REVISED: May 25, 1999, October 1, 2000
PROCEDURE: #18

               Leased WEP Vehicle Breakdown (Page 2 of 3)

    DOCUMENTING REPAIRS:
    <diamond> Keep a running log of all vehicle breakdowns.
    <diamond> Record the date on which the vehicle is first brought in 
for repair, and track the number of days that it remains out of service 
in the WEP Van Breakdown and PMI report.
    <diamond> At the end of the month, send the WEP Van Breakdown and 
PMI report (accompanied by receipts for the work done) to your Borough 
WEP Coordinator.
    <diamond> Note: Because Parks does not own its WEP vehicles, their 
out-of-service rates can not be tracked on the city's MCMS (Maintenance 
Control Management System).
    ACCIDENT & VANDALISM PROCEDURE
    If the vehicle was just involved in an accident with another 
vehicle, fixed object, or pedestrian:
    <diamond> Contact Central Communications immediately (1-800-201-
PARK) and follow any instructions they give.
    <diamond> Obtain all relevant information regarding the other 
driver(s) involved in the accident (i.e. name, address, Driver's 
License #, license plate, vehicle info, insurance info, etc.). If the 
other driver(s) involved in the accident requests insurance information 
from you, inform them that any claim for damage or injury must be sent 
to:
    City of New York/Office of the Comptroller, Bureau of Law and 
Adjustment, 1 Centre Street, Room 1225, New York, NY 10007
    <diamond> Your supervisor must be notified of the accident, even if 
no violations are issued and there are no injuries.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: November 28, 1995
REVISED: May 25, 1999, September 1, 2000
PROCEDURE: #18

               Leased WEP Vehicle Breakdown (Page 3 of 3)

    ACCIDENT Continued
    <diamond> Fill out the Parks Driver Accident Report Form and the 
N.Y State Department of Motor Vehicles Accident Form (MV 104) located 
in the glove compartment of the vehicle (they are also available at the 
dispatch office). These forms MUST be filled out within twenty-four 
(24) hours of an accident. The Parks form must be submitted to your 
Supervisor for completion. The DMV form must be sent to the state (as 
indicated on the form), with a copy going to your Supervisor.
    VANDALISM
    <diamond> A ``A Property Damage/Theft Report'' must be filed 
regarding each incident of vehicle vandalism or vehicle abuse. 
Vandalism report should be reported to the Police and Central 
Communications. Copies must also be submitted to garage dispatch and 5-
boro.
    <diamond> An ``injury/illness/incident report'' must be filed for 
each case of vehicle abuse or suspected abuse. These are to be reported 
to garage dispatch and to the appropriate supervisor.
    Note: Under no circumstances are WEP participants allowed to drive.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: April 1, 1996
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #19

                     WEP Appreciation (Page 1 of 1)

    As part of Parks & Recreation's effort to provide incentives to 
outstanding WEP participants, the following WEP Appreciation programs 
have been implemented:
     DISTRICT WEP PARTICIPANT OF THE MONTH:
    Crew Chiefs should receive a District WEP Participant of the Month 
nomination form from their WEP Borough Coordinator (see appendix for 
sample WEP Nomination Form). Crew Chiefs should complete the form to 
nominate an outstanding WEP participant from their district, and return 
it to the WEP Borough Coordinator. Call your Borough WEP Coordinator's 
office to find out when the Nomination Forms must be submitted. Upon a 
favorable review of the nominated participants from each district, an 
individual will be selected as the District WEP Participant of the 
Month, and his/her Crew Chief will be contacted with the results. 
Winners also become candidates for the Borough WEP Participant of the 
Month award. A district recognition ceremony should be arranged during 
which the appropriate district manager presents the participant with a 
certificate and a Parks T-shirt.
    BOROUGH WEP PARTICIPANT OF THE MONTH:
    The WEP Participant of the Month for each Borough is selected from 
the recipients of District WEP Participants of the Month. Each of these 
five outstanding participants is awarded a certificate of achievement, 
a Parks T-shirt, and a check for $30.00. Call your Borough WEP 
Coordinator's office to find out when the T-shirts, certificates, and 
checks will be available for distribution.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: April 1, 1996
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #19

                     WEP Appreciation (Page 2 of 2)

     BI-ANNUAL BOROUGH WEP PARTICIPANT OF THE MONTH LUNCHEON:
    Every six months, a luncheon is arranged through the Central WEP 
Office to honor the Borough WEP Participants of the Month. Held at the 
Arsenal in Manhattan, this ceremony is attended by the Parks 
Commissioner, First Deputy Commissioner, and Deputy Commissioner, 
various District Managers, Borough Commissioners and/or Chief of 
Operations.
    ZAP AWARDS:
    ZAP Awards (food, event tickets, T-shirts, etc.) are solicited from 
major corporations so that WEP Crew Chiefs can provide instant rewards 
for outstanding work. Contact your Borough WEP Coordinator for more 
information.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: 1994
REVISED: May 15, 1998, October 1, 2000
PROCEDURE: #20

                  Parks Career Training Program (PACT)

    PARKS CAREER TRAINING PROGRAM (PACT)
    WEP participants interested in moving into full-time employment 
should be encouraged to apply to PACT. Those individuals accepted to 
the program agree to work 35 hours per week, in exchange for job 
counseling, skill building, driver training, and job placement services 
that are designed to help them find full-time employment in the private 
sector. Additionally, PACT participants have access to General 
Equivalency Degree, Basic Education, and English as a Second Language 
classes.
    PACT job skill training is primarily on-the-job and takes place in 
parks and park facilities throughout the five boroughs. This hands-on 
training is supplemented with workshops ranging from computer classes 
to chain saw use. The PACT training period varies from one to eight 
months.
    The PACT major training areas include, but are not limited to, the 
following:
    <diamond> Custodial/Maintenance
    <diamond> Clerical
    <diamond> Horticulture
    <diamond> Security
    <diamond> Handyman/Fix-it
    Approximately half of the PACT participants are assigned to PACT-
supervised training crews and half are assigned to individual 
apprenticeship assignments.
    To be considered for the PACT program, a WEP participant must:
    <diamond> Have a strong desire to move from public assistance to 
employment in the private sector.
    <diamond> Be willing to work 35 hours per week.
    <diamond> Each year PACT places over 300 participants into full-
time jobs.
    Crew Chiefs should encourage participants to call the PACT office 
at (212) 830-7778, or to contact their Borough WEP Coordinator for more 
information.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: October 1, 2000
PROCEDURE: #21

                      Job Assistance Center (JAC)

    JOB ASSISTANCE CENTER (JAC)
    The Job Assistance Center (JAC) is Parks' own concurrent job search 
program (see procedure # 4 for more information on concurrent job 
search).
    Participants are assigned to JAC by HRA and are required to spend 
21 hours a week at their WEP assignment and 14 hours a week at their 
JAC assignment. WEP participants may also volunteer to be enrolled in 
JAC by contacting their borough WEP office.
    JAC offers workshops and job placement assistance. WEP participants 
who are assigned to JAC have access to:
    <diamond> Board of Education Certified GED and ESL classes
    <diamond> Clerical Academies
    <diamond> job shadowing program
    <diamond> interview appropriate attire through our in-house 
clothing closet and through Dress For Sucess
    Each year JAC places over 200 participants into full-time jobs.
    Crew Chiefs who are interested in learning more about JAC should 
call the Central Office at (212) 360-8130.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: 1994
REVISED: May 15, 1998, September 1, 2000
PROCEDURE: #22

                              College WEP

    College WEP is designed for participants who:
    <diamond> Are presently in college.
    <diamond> Have a college degree or some college background.
    The program places eligible Parks WEP participants in WEP 
assignments that use their skills and are related to their field of 
study or extra curricular interests. Current placements include:
    <diamond> Administrative offices
    <diamond> Telecommunications
    <diamond> Horticulture
    <diamond> Environmental education
    <diamond> Pre-school and after-school children's programs
    <diamond> Computer resource centers
    <diamond> Recreational activities
    <diamond> Senior citizen programs.
    Crew Chiefs should encourage eligible WEP participants to apply for 
this program. Interested WEP participants should call their Borough WEP 
Coordinator.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: July 17, 1996
REVISED: May 15, 1998, September 1, 2000
PROCEDURE: #23

                             Business Link

    Business Link was established by the Human Resources Administration 
(HRA) to assist WEP participants in their search for outside 
employment. It is very important that participants be made aware of the 
employment opportunities offered through Business Link. Business Link 
periodically issues job notices with information regarding jobs 
currently available to WEP participants. There is usually a deadline 
for responses, so immediate action is required. Upon receipt of the 
Business Link posting, Crew Chiefs are expected to do the following:
    <diamond> Immediately post Business Link notices in areas 
accessible to all WEP participants.
    <diamond> Encourage participants to respond to job notices.
    <diamond> Permit participants to use Parks telephones to arrange 
Business Link appointments.

                   WORK EXPERIENCE PROGRAM PROCEDURES

ISSUED: April 21, 1996
REVISED: May 15, 1998, September 1, 2000
PROCEDURE: #24

                           Blood Drive Policy

    Parks & Recreation conducts blood drives semi-annually, and all WEP 
participants should be encouraged to participate. Those who participate 
will receive credit for three hours of earned time. If a participant 
attends the drive, confirmation of his/her attendance will be sent to 
the Borough WEP Office by the blood drive coordinator. If the 
participant donates blood and leaves prior to his/her tour, the three 
hours of earned time will be applied to complete that day. If the 
participant returns to the job site directly after attending the drive, 
his/her three hours should be granted at a later date.
    Information regarding time and location will be made available to 
the Borough Offices prior to each blood drive.

                                <F-dash>


    Ms. Falcocchio. Thank you, Mr. Chairman and members of the 
Subcommittee on Human Resources. My name is Lisa Falcocchio. I 
am from the Parks Department. I was asked to come here today to 
talk a little bit about how we run our Welfare to Work program 
operationally.
    The Parks Department is a unique city agency in that we 
have really embraced Welfare to Work and Workfare. In 1994, we 
had a work experience program or a WEP participant head count 
of a little bit over 1,000, and we peaked in 1998 with almost 
7,000, which is equivalent to about 3,000 full-time employees.
    For us, this has been a big undertaking, but the work we 
put that setting up the program has proved enormous. Our 
cleanliness ratings, which is one of the ways that we rate how 
effective this program has been for us is, as a city agency, 
have shot up. 1994 there were 75 percent cleanliness ratings 
with the parks and playgrounds, and currently we are at about 
95 percent. And our WEP head count today is about 3,000. One of 
the things that we are able to do is the way the program is 
structured, is every 2 weeks we get referrals from HRA from 
each of the boroughs.
    From day one, when participants come into our program, we 
wanted it to be very clear to them that they are part of the 
Parks Department. They are part of our work force. We explain 
to them that this is not a permanent job, that is, probably 
won't lead to permanent employment, but we offer them the 
different tools that are there to help transform them into 
private sector employment.
    We have two job training programs that are part of their 
time while they are in the parks Welfare to Work program. And 
since 1994 we have placed over 2,000 people in full-time 
private sector employment. And our retention rate is about 86 
percent for over 3 months. And the average rate is a little bit 
more than $8 an hour.
    The way the work site is actually set up is each of our 
boroughs are separated into districts. We have trained 
supervisors who are called crew chiefs. They were in-line 
workers. Their responsibility before they were promoted to 
supervisor was basically the position of a city park worker to 
do maintenance jobs in the parks, to maintain the parks and 
playgrounds. Before or while they were promoted, we realized 
that it was very important for them to receive additional 
training. Initially when they were promoted to supervisor of 
our WEP group and they are about 15 to 25 participants per 
group, depending on our head count and operational needs, they 
go through initially about 6 days of training, and then each 
year it depends, sometimes it is three days, sometimes it is 
one day, depending on the needs.
    When participants come into the program, we make sure we 
explain to them about HRA policy, about park policy. And then 
they usually get assigned to a work assignment that is closest 
to where they live. Sometimes, depending on child care and 
other issues, it makes more sense for there to be an assignment 
closer to where their child goes to school. We try to 
accommodate those needs.
    We make sure they have their safety equipment they need, 
the uniforms they need, and that they understand that there are 
different options available to them. They have the option to 
get assessed. Every participant who comes through our program 
we do a self-assessment with them, usually through one of our 
job training programs to see what their skills are. If people 
have special skills or are in college, we try give them an 
assignment that reflects their scheduling needs, or if they 
know computers, to help them get up to date in whatever the 
latest technology is so that that becomes a marketable skill.
    In addition, we give driving training for people to get 
their license or commercial driver's license where they can 
practice on the parks' trucks. It is sort of the bigger 
picture, how can this really be a work experience? I mean, that 
sort of is the presentation.
    And I think the final thing to say, though, is that our 
supervisors who have such an influential role because they are 
with our participants 3 days a week, they are trained very much 
in how to make this a real work experience.
    Chairman Herger. Thank you very much.
    Next I would like the gentleman from Michigan, Mr. Camp, to 
introduce our next witness.
    Mr. Camp. Thank you, Mr. Chairman. I do want to welcome and 
introduce Doug Howard, who is the director of the Michigan 
Family Independence Agency, and also to mention that under his 
leadership, Michigan has experienced the lowest welfare 
enrollment since 1969, and under his leadership also under 
Michigan's Project Zero Initiative, more importantly, the 
number of families without earned income has been reduced to 
zero in 86 out of 104 sites in Michigan. So we look forward to 
your testimony and thank you for being here, Doug. Welcome.

   STATEMENT OF DOUGLAS E. HOWARD, DIRECTOR, MICHIGAN FAMILY 
                      INDEPENDENCE AGENCY

    Mr. Howard. Thank you. Thank you, Chairman Herger and your 
colleagues, and a special thank you to Congressmen Camp and 
Levin for their interests in not only what we do in Michigan, 
but how it is affecting children and families. I know you all 
share that interest. I also want to thank you, ChairmanHerger, 
for continuing what many of your colleagues have done before you in 
coming and reaching out to the States.
    You recently appeared at an American Public Human Services 
Association meeting where we had the opportunity to interact. I 
am a Member of the board of directors for that association. One 
of the things the States have done is try to come together on 
consensus on a number of social policy issues. Some of you are 
familiar with the recent publication, Crossroads-New Directions 
in Social Policy. It is broader ranging than today's 
discussion, but there are a number of references in here to 
TANF and work requirements. And if it is appropriate and if 
there is no objection, I would like to ask if we could submit 
this as part of the record. We can make it available in 
electronic format.
    Chairman Herger. Without objection.
    Mr. Howard. Thank you. I appreciate it. Michigan is a State 
that began down the path of moving towards work-based reforms 
as early as 1992 under Governor John Engler's leadership. Along 
with a number of other States in the early and mid 90s, we 
really began moving into that environment through a number of 
State waivers. And we have had great success, as Congressman 
Camp has pointed out, we have seen very sharp declines in the 
cash assistance caseload. We have seen a decline of nearly 70 
percent. That doesn't mean that we are serving 70 percent less. 
What we are doing are moving people from a pure reliance on 
cash assistance into the work force. In some cases they are 
leaving all programs, in other cases we are still providing 
supports.
    I would like to put up a chart reflecting the shift from 
cash grants to work support--yes, that chart. This is an 
example of the types of support we are providing for work and 
an example of how the flexibility of TANF has allowed us to 
focus more on work-base supports. This is included in a 
separate exhibit from the testimony I have submitted. The upper 
dark blue line that is on a downward trend reflects the annual 
payout in cash assistance grants in the State of Michigan.
    The lower kind of mauve colored line that is increasing 
represents child care assistance. You will see that last year 
those lines actually crossed, and we are now paying out more in 
a service such as child care to support families in the work 
force than are actually paying for families who may be staying 
at home. We are seeing those same type of upward trends in 
other States. We see those same type of upward trends in a 
number of other services, transportation, some programs perhaps 
with lower cost but upward trends in mentoring, parenting 
skills and other services that help families keep their family 
structure intact so they can remain in the work force.
    So we believe that the flexibility under PRWORA has really 
allowed us to do that reinvestment. The whole centerpiece in 
this is, of course, the work requirements. We do believe very 
strongly that the focus on work requirements has helped us 
change the culture of the program, not only for staff, but also 
for the clients and the general public. If nothing else, it has 
helped us create the opportunity for families to make good 
business decisions.
    I would like to jump to the next poster board as an example 
of what I referred to in the way of good business decisions. 
Under the old ADC program, which essentially is represented by 
the first column entitled ``welfare,'' there was not a lot of 
incentive to go to work. Families would lose their benefits 
nearly as fast as they gained income. Between cash assistance 
and food stamps, these are Michigan specific numbers, they had 
roughly $800 in disposal income a month.
    As we move into the work requirements under TANF, 
essentially matching up the welfare and work column to the 
current 30-hour work requirement looking at minimum wage, 
adding in earned income tax credit, the employment and the 
continued eligibility for food stamps and cash we see in 
Michigan, that their disposable income has climbed to over 
$1,300. Finally if they go to work full-time, even at minimum 
wage, that further increases their income. Obviously, the 
higher the income level, the better off that family is.
    So we know that this has certainly created value for the 
family. There are a number of studies out there that show that 
the most common reason for leaving welfare is work. We have 
seen over 260,000 families leave assistance just due to work in 
the State of Michigan. Their wages have ranged from minimum 
wage all the way up to $25 an hour. We think one of the 
opportunities before us in work-based reforms that we are 
trying to integrate locally is a focus not just on job 
placement, but on retention and advancement activities.
    One of the things we have often said is that we believe 
work strengthens families. But sometimes to help with that 
retention and advancement, we need to put some things in place 
to strengthen the family so they can keep the job. So we have 
seen an expansion of the messages we think about, how we 
support families and work, child care, transportation, helping 
them deal with issues at home. We have seen clear success 
stories where parents have relayed, as you are hearing today, 
that they are doing this for their family and children.
    One of the things we do in Michigan we are quite proud of 
because it puts a face on this every month, is hold an 
achiever-of-the-month ceremony around the State in which a 
current or former recipient tells their story. And the most 
common thread in those stories is that they have done this for 
themselves and their children, the message that they are 
sending for their children is very important.
    I think, in conclusion, I would just say that there are 
continuing issues under the work requirements. We need to keep 
the focus on work. We would ask Congress to continue with the 
things you have done under PRWORA around the ability to 
reinvest funding, the flexibility States have been given which 
will allow us to focus not only on placement, but retention and 
advancement, and ultimately on strengthening families. Thank 
you for your time.
    Chairman Herger. Thank you very much, Mr. Howard.
    [The prepared statement of Mr. Howard follows:]
Statement of Douglas E. Howard, Director, Michigan Family Independence 
                                 Agency
    Good afternoon, Mr. Chairman and members of the Subcommittee. Thank 
you for the opportunity to provide comments regarding work requirements 
in the Temporary Assistance for Needy Families (TANF) welfare program. 
I am Doug Howard, Director of the Michigan Family Independence Agency 
(MFIA). MFIA helps to improve the quality of life in Michigan by 
protecting children and vulnerable adults, delivering juvenile justice 
services, and providing support to strengthen families and individuals 
striving for independence.
    In the mid-1990s, states began significant work-related reforms, a 
process accelerated in 1996 by the TANF federal block grant. The block 
grant--which required strong work requirements for those receiving 
aid--was a historic step in allowing states the flexibility needed to 
establish effective welfare policy. Coinciding with these changes was 
an unprecedented drop in the cash assistance caseload, which has 
declined nationally by some 50 percent from its peak level in March 
1994. Nationally, the rolls have now declined for five consecutive 
years. In 1992--well before the federal reforms--Governor Engler 
introduced significant work-related reforms. Since then, Michigan's 
cash assistance caseload has declined by nearly 70 percent, and the 
rolls have now declined for eight consecutive years.
    Healthy debate has emerged concerning the causes of such large-
scale caseload decline. Some argue that declines are driven by policy 
changes while others believe the strong economy of the 1990s is the 
major factor. But one thing is clear--the availability of jobs, 
combined with work requirements that reduce the economic incentives of 
being on welfare, have played an important role in moving recipients 
into the workforce.
    As summarized by the Brookings Institute, studies of mothers who 
left cash assistance find that about 60 percent are employed and about 
75 percent have been employed at some time since leaving cash 
assistance. After a decade of relative stability, the number of single 
mothers working rose by about 25 percent between 1993 and 1999. Even 
more impressive was a 50 percent increase in the number of never-
married mothers who had a job. That these are the mothers who have had 
the biggest increase in employment in recent years suggests that even 
poorly educated mothers that used to stay on welfare for long periods 
are proving themselves capable of succeeding at work in the private 
sector, at least during a period of low unemployment.\1\
---------------------------------------------------------------------------
    \1\ Haskins, Ron, Isabel Sawhill, and Kent Weaver. 2001. ``Welfare 
Reform: An Overview of Effects to Date,'' Brookings Institute 
Publications, Brief #1.
---------------------------------------------------------------------------
    A 1999 study by the Urban Institute found that work is the most 
common reason for leaving cash assistance. More than two-thirds (69 
percent) reported leaving cash assistance because of increased earnings 
or hours on an ongoing job or because of a new job. The Urban Institute 
study also found that the types and quality of jobs held by former 
recipients are similar or better than those held by other low-income 
mothers (mothers with incomes less than 200 percent of the poverty 
rate).
    More recent work on wage growth over time among less-skilled women 
suggests that experience in the labor market does increase earnings. In 
fact, wages of less-skilled women grow as fast with experience as do 
those of more educated women, but from a much lower starting point. In 
Michigan, we have had more than 266,000 families leave cash assistance 
due to earnings since 1992. We know that their wages have ranged from 
minimum wage to up to $25 per hour.
    These data indicate an amazingly rapid shift in work behavior over 
a relatively short period of time. Overall, the data is generally 
consistent in finding that most families who have left welfare for work 
have more money than they had when they were on welfare.
Welfare Reform's Impact on Children
    Simultaneous with these historic declines in cash assistance, both 
overall child poverty and black child poverty have declined 
substantially. In fact, declines in poverty among black children in 
1997 and 1999 are the biggest single year declines on record and the 
1999 level of black child poverty is the lowest ever. Similarly, the 
overall child poverty rate in 1999 is lower than in any year since 
1979.\2\
---------------------------------------------------------------------------
    \2\ Haskins, Ron. 2001. ``The Second Most Important Issue: Effects 
of Welfare Reform on Family Income and Poverty,'' New World of Welfare 
Conference.
---------------------------------------------------------------------------
    Both the 1980s and 1990s saw substantial progress against poverty. 
However, the drop in poverty during the six years of the 1990s economic 
expansion is more than twice as great as the drop during the six years 
of 1980s expansion. The explanation of this remarkable difference 
cannot be greater job growth during the 1990s because the net increase 
in employment was around 20 million during both periods.\3\
---------------------------------------------------------------------------
    \3\ Haskins, Ron. 2001. ``The Second Most Important Issue: Effects 
of Welfare Reform on Family Income and Poverty,'' New World of Welfare 
Conference.
---------------------------------------------------------------------------
    Researchers Rebecca Blank and Ron Haskins believe there are 
families at the bottom (5 or 10 percent of the income distribution) 
that appear to be worse off without cash welfare. These mothers have 
numerous barriers to employment such as three or more young children to 
care for, learning disabilities, mild retardation or health or 
substance abuse problems.
    A recent study by the Manpower Demonstration Research Corporation 
found that requiring single mothers to work as a condition of receiving 
cash assistance did not hurt their children. Rigorous evaluation of 11 
welfare programs in six states provided ``strikingly consistent 
evidence'' of the benefits to children.
    Looking at children of all ages, the Brookings Institute concluded 
from a variety of TANF-like experiments that were conducted under 
waivers prior to welfare reform that the effects on children were 
small. Child participation in organized activities, center-based child 
care, and health insurance programs generally increased. Academic 
achievement, behavior, overall health, and the home environment of the 
child, however, changed very little or not at all.
    In the case of elementary-school children, the picture is fairly 
positive. There is strong evidence that welfare reform can be a potent 
force for enhancing achievement and positive behavior. When welfare 
reform packages do not appear to help younger children, there is little 
evidence of harm. The only bad news is that decreased supervision may 
increase adolescent risk behavior.\4\
---------------------------------------------------------------------------
    \4\ Duncan, Greg J. and P. Lindsay Chase-Lansdale. 2000. ``Welfare 
Reform and Child Well-being,'' Northwestern University.
---------------------------------------------------------------------------
    As the majority of data suggests, a large portion of families who 
have left cash assistance for work have a distinct advantage over those 
who continue to collect welfare checks. This is reflected by the fact 
that as the nation's caseloads have sharply declined, more people--
particularly single-parent families and black children--have advanced 
out of poverty.
Working Toward the Future
     Even though everyone can work at some level, there are going to be 
people who need help. The American people want us to help the needy as 
long as they are doing something to help themselves. With the new 
policies and perspectives granted by Congress, states have successfully 
shifted away from a program that once paid people to stay home to one 
that provides incentives and supports for working. The statistics show 
we are on the right track. The myths about the impossibility of 
reducing dependence have been shattered. Yet, there is more work to be 
done.
    Work requirements are proving to be extremely effective in reducing 
dependence and promoting self-sufficiency. There is now an opportunity 
to align other public assistance programs, including food stamps and 
public housing, to the principle of work.
    States believe that next year one of the biggest opportunities 
during TANF reauthorization is the potential for alignment of programs, 
both in HHS and other federal agencies, that effect the TANF 
population. The most often mentioned program among my colleagues, from 
other state social services directors to front line workers, is the 
need to simplify and add flexibility to the Food Stamp Program 
administered by the US Department of Agriculture. That program is also 
due for reauthorization next year. This provides Congress with an 
excellent opportunity to apply some of the lessons learned over the 
last five years in TANF to households that receive food stamps. Work 
requirements in the food stamp program are much less rigorous than 
under TANF; assets that a family is encouraged to acquire under TANF, 
such as a vehicle, can make a low-income working family ineligible for 
food stamps once theyleave cash assistance. Different reporting 
requirements and different standards for verification of income, 
shelter, utility and medical costs make it extremely difficult for 
customers and for staff to be certain benefit amounts are accurate. I 
urge you to take every opportunity to reduce bureaucratic burdens on 
low-income families and seniors, and on the states, by aligning program 
requirements or allowing additional flexibility within programs that 
serve low-income populations.
    Today, most states are serving as many, if not more, families 
through an array of work supports such as childcare, transportation, 
and mentoring. Part of our future challenge is to reduce reliance on 
Non-TANF programs by increasing job retention and advancement for those 
who have left cash assistance.
    But Government cannot and should not be expected to do this alone. 
Many of our best successes occurred because individuals displayed 
personal responsibility and communities have accepted ownership of 
problems and solutions. The flexibility under TANF has made this 
possible.
    On the heels of these sweeping changes, the next round of national 
debate is now beginning. In 2002, Congress must decide the future 
direction of welfare reform. This is the time to increase state's 
flexibility, simplify and align federal requirements and provide an 
adequate funding level that will pledge continued success. Our progress 
in Michigan--and nationally--argues for a continuation of what has 
worked and new initiatives so that no families are left behind.
    Congress deserves credit for contributing to the national success 
of welfare reform by giving states the flexibility and authority to 
advance the value and expectation of work. As Congress reflects on the 
success of welfare reform, I encourage you to continue to rely on the 
experience of Governor's and the states. The state experiences and 
challenges of the last five years can prove invaluable as Congress 
considers the role of work requirements in public assistance programs.
    [The attachment is being retained in the Committee files.]

  MICHIGAN FAMILY INDEPENDENCE PROGRAM MONTHLY FAMILY BENEFITS--WELFARE
                 VERSUS WORK--FAMILY OF THREE IN DETROIT
------------------------------------------------------------------------
                                                 Welfare &
                                     Welfare        Work      Work Only
------------------------------------------------------------------------
Cash Assistance..................         $459          $88  ...........
Food Stamps......................          341          296          269
Employment.......................  ...........      \1\ 664      \2\ 886
Earned Income Credit.............  ...........          266          324
                                  --------------------------------------
      Total Family Benefits......          800        1,314       1,479
------------------------------------------------------------------------
\1\ Part time (30 hr/wk) at minimum wage ($5.15/hr).
\2\ Full time (40 hr/wk) at minimum wage ($5.15/hr).

  FAMILY INDEPENDENCE AGENCY CASH ASSISTANCE (FIP) AND CHILD DAY CARE 
               (CDC) ANNUAL EXPENDITURES FY 1994-FY 2002
[GRAPHIC] [TIFF OMITTED] T4216A.001

                                <F-dash>


    Chairman Herger. Our concluding witness for this panel will 
be Mr. Rodney Carroll, the president and chief executive 
officer of the Welfare to Work partnership. He is accompanied 
by Takia Roberts, who has gone to work with the help of the 
Welfare to Work partnership. Mr. Carroll.

 STATEMENT OF RODNEY J. CARROLL, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, WELFARE TO WORK PARTNERSHIP, ACCOMPANIED BY TAKIA 
   ROBERTS, LEAD PHARMACY TECHNICIAN, CVS PHARMACY, MARYLAND

    Mr. Carroll. Thank you and good to see you again Mr. 
Chairman. Mr. Cardin, Mrs. Johnson and other distinguished 
Members of the Committee, I am delighted to be here to 
represent the American business community. I would like to also 
commend you on having this hearing and taking the important 
steps to fixing the 60-year-old problem.
    As I was preparing my notes and preparing to talk today, I 
wasn't quite sure what I was going to say. I was going to tell 
you about the Welfare to Work Partnership and how we started 
with five companies, and that we now have over 22,000 
companies, and those 22,000 companies have hired 1.1 million 
people, and 40 percent above the minimum wage average salary, 
and 83 percent promotion track jobs and so forth. But I figured 
I didn't want to tell you that.
    I also was going to tell you about our recommendations that 
we have and we have a book that we handed President Clinton 
last year on our recommendations, but you have a copy of that 
book in front of you, so I guess you could look at that at your 
leisure.
    I also could tell you about the two biggest problems that 
we have found, which are child care and transportation, but 
everybody knows that. So as I began to think about what I was 
going to say, how I was going to say it, I thought that I would 
tell you about nobody. That is right, I said nobody. You know 
when I was growing up in Philadelphia, I was 16 or 17 years 
old, grew up in a family on welfare. I guess I thought I was 
probably nobody. You see, nobody really had anybody, any plans 
for my life. Nobody was expecting anything from me. Nobody felt 
that I was going to make anything. Just wanted me to stay out 
of trouble, stay out of the way, you know, don't really do 
anything. Because as growing up on welfare, nobody really 
believed that I was ever going to do anything to make any 
difference in life and be a good citizen.
    But you see, deep down inside, I knew differently. And I 
knew that if I could get an opportunity, a chance to do 
something in my life, that I could make a good life of it.
    So as I went to high school and I eventually went to 
college, and at some point I got a job. And I got this job at 
UPS. And I worked at UPS for 22 years up until last year when I 
left UPS to be the chairman of the Welfare to Work Partnership. 
When I came into UPS, I didn't come into UPS with a suit and 
tie on, I started in the trucks unloading and loading boxes, 
like most of the UPS people do. As I go through the Partnership 
and I go around the country and I talk to companies and people 
all around, you know what they tell me? They tell me the same 
thing: welfare recipients, by and large whatever race or color, 
they all are looking for a chance. They are looking for an 
opportunity. They want to make something out of their lives. 
They want to do something. And many times it is just a barrier 
that causes them not to be able to reach these goals.
    You remember Mr. Cardin said that although the rolls have 
been cut in half we have impressive numbers all around the 
country, certainly impressive numbers in Michigan and Wisconsin 
and certainly New York City, we still have about 2 million 
people that are still looking for that same opportunity. It is 
not time to raise the flag now and say hey, we have won. We 
have still got a long way to go. The question begins how are we 
going to get there? But first, we need to recognize that we do 
have some distance to travel and we do need to make some more 
gains as we go along. You see, my experience has been that the 
people that have not yet made the transition, those people even 
have more difficulties. They may even have more challenges 
ahead. There may need to be more resources put toward those 
people so that they will have the same opportunity that I had 
and the same opportunities that perhaps you had. The Welfare to 
Work Partnership is very proud of its record so far. We are in 
five cities on the ground. And the objective, again, as Mr. 
Cardin, said is not only getting a job, going from welfare to 
the working poor, but also it is really about going from 
dependence to independence.
    And in order to do that, you not only have to get a job, 
but you have to be retained on the job and you also have to 
advance on the job. So as I go around the country and talk to 
businesses all around, I talk to them about why it is smart for 
them to hire people from welfare. I never tell them about 
charity or social responsibility. I tell them why it is a smart 
solution for their business. I tell them about people like 
Takia Roberts, I tell them about myself.
    One of our business partners is CVS Pharmacies. CVS 
Pharmacies sits on our board. I am proud to say that CVS has 
hired an estimated 12,000 people in the last couple years from 
Welfare to Work. They hire many times entry level, but they 
have programs that allow people to come in entry level and if 
they work hard, if they do a good job, they can advance and 
they can make something out of their lives.
    As I told you earlier, I came here not only to tell about 
those things, but to tell you about nobody. But now I would 
like to introduce you to somebody.
    Sitting to my right is Takia Roberts. I would like for her 
to tell you about her life and her story and where she is going 
and where she hopes to be.
    [The prepared statement of Mr. Carroll follows:]
Statement of Rodney J. Carroll, President and Chief Executive Officer, 
                      Welfare to Work Partnership
    ``We cannot be the kind of country we want to be if we're content 
to leave people behind . . . We have the knowledge. We have the 
resources . . . What we need now is commitment. We're asking every 
company across the country to join our Partnership.''
    --Gerald Greenwald, Chairman Emeritus, United Airlines Chairman, 
The Welfare to Work Partnership
    ``Welfare to work is the perfect example of how two supposedly 
diametrically opposed goals of business--making money and being 
socially responsible--can intersect in a meaningful way.''
    --Jonathan Tisch, President and CEO, Loews Hotels Vice Chairman, 
The Welfare to Work Partnership
    Good afternoon Congressman Herger and members of the Human 
Resources subcommittee. I thank you all for inviting me to testify 
about the business perspective on welfare reform and the 
reauthorization of the Temporary Aid to Needy Families program.
    It is a rare moment when a vexing social problem and a compelling 
business need align to create positive change. Such an opportunity 
presented itself in 1996, when this subcommittee wrote and the full 
Congress passed the Personal Responsibility and Work Opportunity 
Reconciliation Act, reversing six decades of welfare policy. The new 
law created a historic challenge for the business community to hire 
those who would be leaving the welfare rolls in large numbers. And, 
fortuitously, it created an unprecedented chance for employers to fill 
their payrolls with new workers, just as a booming economy was making 
that job more difficult than ever.
    As you well know, welfare caseloads have plummeted by half since 
1996, and the majority of adults who are now off the welfare rolls have 
gone to work. In May of 1997, The Welfare to Work Partnership was 
created by five corporations--United Airlines, Burger King, Monsanto, 
Sprint, and UPS--to educate and encourage other employers to consider 
hiring this new pool of workers. More than 20,000 employers have 
answered our challenge and committed to hire and retain former welfare 
recipients. In fact, we can now estimate that these companies have 
hired 1.1 million new workers from the public assistance rolls--mainly 
for good, full-time jobs offering full medical benefits. We are pleased 
to be at the forefront of this quiet social revolution.
    The Partnership takes great pride in the progress our employers 
have made. Still, we are quick to acknowledge that the job of ending a 
failed welfare system is far from complete. Important challenges lie 
ahead. More than two million families remain dependent on the federal 
Temporary Assistance for Needy Families (TANF) program and, as 
employers, we are well aware that many of them face the most difficult 
barriers on their road to work. We also know that too many individuals 
who have left the rolls eventually return. Perhaps the most daunting 
challenge, however, is in supporting large numbers of our fellow 
Americans who have ``done right'' by their families and worked hard to 
leave welfare, only to find themselves struggling to make ends meet. As 
a nation, we owe these individuals more; together, we can do more to 
help them achieve lasting independence.
    To move the agenda forward in pursuit of that goal, we offer a 
series of policy recommendations to you and your colleagues in 
Congress. The Partnership and our Business Partners believe that only 
by working together--with neither partisan nor ideological 
differences--can we complete the ambitious agenda of welfare reform. 
Our recommendations include the following:
    <bullet> Reauthorize the 1996 welfare law and hold the line on 
funding to assist those still in need. When Congress revisits the 1996 
law, it should not reduce TANF block grant funding despite large 
declines in welfare cases. The nation's investment should be sustained 
to help states tackle the difficult barriers faced by the ``hardest to 
serve'' recipients remaining on the rolls and those who have already 
left. States, for their part, should move expeditiously to spend their 
TANF allocations on services most vital to welfare recipients and to 
all low-wage workers. Any effort by states to use TANF money for other 
purposes should be strongly discouraged.
    <bullet> Do more to prepare welfare recipients for long-term 
success before their first day of work. Lawmakers should also find a 
better balance between the strict ``work first'' philosophy at the core 
of the 1996 law and more intensive efforts to prepare welfare 
recipients for reliable and better-paying jobs. While The Partnership's 
companies believe most recipients should be required to work and are 
eager to employ these new workers, many have come to see the practical 
limitations of a program that, in some cases, pushes recipients into 
jobs before they are prepared to succeed in them.
    <bullet> Help us address the biggest obstacles to work--child care 
and transportation--and to maximize small business involvement in 
welfare to work. Lawmakers should sustain or, ideally, increase 
resources for a range of programs that help former welfare recipients 
stay on the job. Partnership companies call for increased emphasis on 
child care and transportation aid, as they are consistently the two 
biggest challenges facing new workers. We also ask for help by 
government bodies and other employers to ensure that small businesses--
the engine of job growth in America--can successfully hire 
disadvantaged workers.
    <bullet> Relax strict time limits on welfare for people working at 
least part time. Congress should seriously consider changing the 1996 
law to ``stop the clock'' on welfare benefits for individuals who are 
working but earning so little money that they continue to receive a 
partial wage supplement. In a recent survey, nearly two thirds of 
Partnership employers supported such a proposal.
    <bullet> Do more to ``make work pay'' for employees leaving the 
welfare rolls. Congress, state and local lawmakers, and service 
providers must maximize a range of supports that help former recipients 
keep their jobs and leave welfare behind for good. Partnership 
companies call on Congress to increase the Earned Income Tax Credit for 
low-wage workers, and on states to enact such refundable credits of 
their own. We also urge stakeholders to aggressively promote valuable 
work supports like Medicaid, the Children's Health Insurance Program 
and food stamps for all families who need extra support on the road to 
permanent self-sufficiency.
    These recommendations and others are included in a report we issued 
this past summer called The Bottom Line for Better Lives. In this 
document, The Partnership and its business leaders share other 
recommendations with those in a position to affect change, including 
strategies to streamline the workforce and training systems, to reach 
out to the fathers of children on welfare, and to build on the progress 
to date with efforts to assist millions of other disadvantaged 
Americans in need of decent jobs.
    A few years ago, welfare to work was little more than a slogan. 
Today it is a reality across America. Companies have proven that 
welfare to work is as good for their business as it is for the 
community. And welfare recipients have proven that, when given a chance 
and the right employment-related supports, they can make the successful 
transition from welfare to work.
    We are happy to report that businesses will remain engaged in the 
welfare to work effort despite recent concerns about an economic 
slowdown. In fact, nearly three quarters of Partnership companies 
report continued difficulty finding reliable, entry-level employees and 
most intend to hire welfare recipients in the coming year. In the 
process of building their business with dedicated and reliable workers, 
these companies will help hundreds of thousands of Americans begin the 
transition from dependence to independence. These new workers, in turn, 
will gain valuable skills and experience they never had before. Welfare 
to work has helped--and will continue to help--countless Americans be 
productive citizens, provide for their families, and be role models for 
their children.
    There are two unanticipated benefits of the welfare to work 
initiative. First, it has generated deep support in the American 
business community. Second, it has increased the likelihood that the 
lessons we have learned in moving welfare recipients toward productive 
lives can be applied to many other groups of citizens--like ex-
offenders, non-custodial parents and people with disabilities--who have 
lived too long in the shadows of the American dream. With the help of 
wise policy makers and committed service providers, we can open the 
doors of opportunity to millions more of our fellow citizens.
    Mr. Chairman and other members of the subcommittee, I thank you for 
your time today, and would behappy to answer any questions.
    For a full copy of The Bottom Line for Better Lives, please visit 
The Partnership's Web site at www.welfaretowork.org and click on 
``What's New.''

                                <F-dash>


    Ms. Roberts. Good afternoon. I really don't have anything 
prepared. I just want to tell you a little bit about myself. I 
grew up in the projects as some of these people in the panel. I 
was a high school dropout. I went back to school, which was a 
nice school. I was working in a fast food restaurant. When I 
went back to school to get my high school diploma, I met a 
young man with an apprenticeship program who introduced me to 
Welfare to Work.
    Before I started, I was just like, well, it is just another 
job. It wasn't anything to me. And now, you know, since I have 
been working there, I am a lead pharmacy technician, I work 
with doctors, pharmacists, a lot of different people. My job 
includes filling prescriptions, now I know what I want to do 
out of life. I want to go to school and become a pharmacist. It 
is just--I just really don't have anything prepared, you know, 
I just wanted to tell you all that I am really nervous, excuse 
me. So I just--you know, if it wasn't for the program, I really 
don't know what I would be doing right now.
    You know, I came from working in the fast food restaurant 
to a lead pharmacy technician. So I just want to thank them for 
having this program because I now have a career not just a job. 
That is it. Thank you.
    Chairman Herger. Thank you very much, Mr. Carroll and Ms. 
Roberts. We are also very proud of you. You are really a role 
model, both you and Ms. Taylor, to show that if you are willing 
to work and become involved, you can make something of 
yourselves. And it is not just you. We believe everyone out 
there can do it. The goal of this Committee, and certainly I 
believe of our country, is to help everyone be able to enjoy 
the American dream. Maybe with that we will turn to some 
questions.
    Ms. Julia Taylor, a key outcome of Wisconsin's program has 
been a staggering caseload decline of over 90 percent. That has 
meant increased work by those who left the rolls, but another 
key outcome has been that Wisconsin has the resources and the 
capacity to focus intensive individualized services on those 
still remaining on the rolls who often have difficult issues to 
overcome.
    Ms. Taylor, I would assume you agree that Wisconsin's work 
requirements and time limits in keeping with the national 
welfare reform law are key components driving the caseload 
decline, but can you tell us more about these key features of 
Wisconsin's welfare law?
    Ms. Julia Taylor. Certainly. Actually the largest drop in 
the caseload occurred during pay for performance, which was 
actually just prior to W-2, which was when we first began 
putting a work requirement in place under the initial jobs 
program. When W-2 began, we saw another substantial caseload 
dropoff, and a lot of it, part of it was indication load 
cleanup. We go out and visit houses where we had not even a 
response. And we would find that there was no house at that 
address or that person was no longer residing there.
    We also found that there were a lot of people that just 
need a little bit of help to go to work and be successfully 
attached to the workplace. So the very first, I would say, 
first massive dropoff happened in the first 6 months. Actually, 
for the last year and a half to 2 years, we have not seen a 
significant dropoff in the caseload. Part of that is that the 
people that are remaining in the caseload are much more multi-
barriered, are much harder to serve, often have a family Member 
with a disability, very low reading skills and math skills.
    So being able to provide the supportive services has been 
critical in terms of helping people move toward employment. I 
don't want to sound like people still don't move toward 
employment in the caseload, because they do and they are often 
very successful. It just takes a longer period of time and it 
takes more much more intensive counseling. Because often we are 
working with the entire family not just with one individual. 
And we have also been working a lot more with men recently 
particularly men just getting out of prison, men who are 
identified as noncustodial parents, to try to get them employed 
not just to help with the child support, but also to work with 
the family and to understand some more responsibilities about 
being a father other than just the responsibility of paying 
child support.
    Chairman Herger. Well, thank you. In your estimation, would 
relaxing work requirements in general make the task of helping 
the hardest to serve easier or tougher?
    Ms. Julia Taylor. I think it depends on how you define work 
requirements. We have often defined work requirements as having 
a substantial training base and supportive services so people 
might be in a GED program. They also might be working in the 
Creative Workshop, which is more of an assessment program as 
part of their work requirement.
    So I think some of it is in how it is defined. Part of it 
is also creating a real life work environment so people know 
what it is like to go to work, so they are getting used to the 
discipline of work. The reason we created Generation 2 Plastics 
was rather than put a person with an employer and have them 
fail, we would rather have them learn what the workplace is 
like before they were permanently attached to the workplace. 
That has been a pretty successful process for us. We have a 
fairly high rate of retention, about 76 percent and a higher 
rate of placement.
    Chairman Herger. Mr. Turner, would you mind answering the 
same question?
    Mr. Turner. Let me start by answering that by elaborating 
on what Ms. Taylor just said. Because I am somewhat familiar 
with the Wisconsin program. She said that much of the caseload 
decline occurred right after pay-for-performance. And 
translated, that means the pro rata provisions that the 
Congress inserted for the entire welfare reform bill were 
actually tried before the Welfare Reform Bill passed in 1996 on 
a waiver in Wisconsin. Once you connected the benefit with an 
obligation to participate, all of a sudden the things that she 
was describing, people who really didn't need the money and 
really had other options, didn't come on the caseload or leave 
the caseload right away. And of the remaining ones, they got 
the practice of what it means to show up to an assignment and 
get a benefit. So a lot of the success was contained in that 
provision itself.
    The other aspect that I would like to elaborate on is that 
now there is a very low proportion of individuals that are 
remaining in the caseload in Wisconsin. The same can't be said 
in New York, yet although we have reduced the caseload 52 
percent since its high. But for those individuals who were 
participating, only work experience really gives them the 
practice that is necessary to work out issues that they need 
before they succeed in private employment.
    It is very easy to get a private job right now. The problem 
that we have with welfare recipients is they don't keep the 
jobs. The reason they don't keep the jobs is not usually 
because they can't master the tasks that are asked of them but 
they don't have the habits. Getting to work on time, getting 
along with coworkers, showing up the next day, doing it day 
after day, making the arrangements to get your kids to school 
on time. We don't want to burn out our employer community by 
having welfare recipients move totally into employment and then 
have the employers disappointed.
    One thing a work program does is allows all these issues to 
be worked out in a practice motion before they are launched 
into private employment. And that is why it is so critical to 
have a large and ongoing work experience program in addition to 
private preliminary.
    Chairman Herger. Thank you, Mr. Turner. You mentioned you 
are familiar with Wisconsin. Would you like to tell us why you 
are familiar with Wisconsin?
    Mr. Turner. Well, I was very flattered to have the 
opportunity under Governor Thompson as a State employee in 
Wisconsin, back in the early 1990's and into the mid 1990's, to 
be the director of the Welfare Reform Project that made 
recommendations that became Wisconsin Works.
    Chairman Herger. So you actually worked there or were very 
instrumental in putting together that work program initially?
    Mr. Turner. Well, it was the Governor's program, but I was 
happy to help out.
    Chairman Herger. Thank you. The gentleman from Maryland, 
Mr. Cardin.
    Mr. Cardin. Thank you, Mr. Chairman. And let me, once 
again, thank all of our witnesses here, and particularly those 
who have experienced the system first-hand. Your testimony here 
is very important to us. You put a face on the issues. We hear 
about the numbers. But we don't always see the people. And it 
is very helpful to us. I know it is not easy to testify before 
our Committee, but I want to personally thank you all for being 
here. It has made a difference in this hearing.
    I want to talk a little bit, Mr. Turner, about your 
testimony, because I am somewhat confused on a couple points 
maybe you could help clarify. I thought you made a good point 
about the mixed workweek for the people in Workfare in that 
they have a work experience, plus they do other assignments 
during the week to find private sector employment or to gain 
additional skills. Now, if the minimum wage law were not 
applicable, wouldn't that just encourage the system to have the 
individual participate in work activities for a longer period 
of the workweek?
    Mr. Turner. No, not necessarily.
    Mr. Cardin. Then why are you concerned about the minimum 
wage applying?
    Mr. Turner. Because when the minimum wage is applied where 
welfare benefits, for instance, in a small household don't 
allow you to, for instance, put together a workweek which 
includes three days of actual working plus two days of other 
activities, it becomes very, very difficult. And much--many low 
benefit States--New York is not a low benefit State--you can't 
really create a simulated workweek with a 3-day, 3-plus-2 the 
way I described it. You have to cut back on the work. What you 
want to do to have a successful program is simulate an actual 
workweek. That is why we object to it.
    Mr. Cardin. I am still not sure I fully appreciate that.
    Mr. Turner. You want to have a 35 hour----
    Mr. Cardin. If you were not subject to the minimum wage, 
then you could have the person participate in a 35-hour work--
direct workweek, could you not? Could you not? Am I correct on 
that?
    Mr. Turner. Let me see if I understand your question.
    Mr. Cardin. If you are not subject to the minimum wage, you 
could then have the person participate in a work activity for 
35 hours.
    Mr. Turner. What we do in New York and what Wisconsin did 
is create 3 days of work plus 2 days of other activity.
    Mr. Cardin. But you were subjected----
    Mr. Turner. If you retain the minimum wage provision, that 
is--as interpreted in the current law in many States, you can't 
run a simulated workweek.
    Mr. Cardin. Currently you cannot do a 5-day workweek, 
correct, of all work if you are under the benefits you are 
providing?
    Mr. Turner. You can, but only if you have a high benefit 
State plus you add the food stamps, and together, then you can 
do the 5 days. But many low benefit States you can't do that.
    Mr. Cardin. I understand what you are saying. I still 
question whether the incentives might be just the reverse if 
the minimum wage laws were not applicable. But let me get on to 
some other issues. Because I am somewhat confused by why you 
were so concerned about protecting the people that participated 
in your program from the protections that are in the law, you 
want work experience, you want to protect the individuals in 
the work experience. I know that New York has had alleged 
problems with sexual harassment. The City has suggested Title 7 
of the Civil Rights Act does not apply. I know you are 
contesting that currently. What protects the people from being 
sexually harassed?
    Mr. Turner. Let me answer that very simply: First, the 
application of workplace laws, basically creates a work 
training program that leads to crazy outcomes. For instance, 
you don't want to have crazy things going on such as welfare 
recipients treating welfare benefits as though it is income and 
having wage income. And you don't want to have unemployment 
insurance----
    Mr. Cardin. I don't mean to interrupt you but we are on a 
limited time here. Are you suggesting that because the person 
is, under your definition, not an employee, it is permissible 
for to you sexually harass that individual?
    Mr. Turner. Oh, that is nonsense. I am not going to even 
bother with that question.
    Mr. Cardin. I know that is nonsense. But I asked a specific 
question. Wait a minute, sir.
    Mr. Turner. Sexual harassment is not permissible under 
any----
    Chairman Herger. Mr. Cardin.
    Mr. Camp. If the witness would be allowed to answer.
    Mr. Cardin. Yes. If I could ask the question first.
    Mr. Camp. Well, you keep interrupting.
    Mr. Cardin. Mr. Turner, my question dealt with protection 
against sexual harassment.
    Mr. Turner. It is already in the law.
    Mr. Cardin. What law?
    Mr. Turner. You cannot be part of any welfare program in 
New York City or be an employee, either one, and be subject to 
sexual harassment without having your rights protected.
    Mr. Cardin. Under what law?
    Mr. Turner. If you go to----
    Mr. Cardin. Then what is the problem with Title 7?
    Mr. Turner. If you go to City University of New York, and 
you are in a training program or in a class and you are 
sexually harassed, you are not at work but your rights are 
protected. My point is it is totally superfluous, but it has 
crazy unintended consequences. One wants to use the laws that 
already apply to people in training programs and apply them 
while they are in work experience. That is the comparability, 
not workplace law. It doesn't make any sense.
    Mr. Cardin. It doesn't make any sense because the Federal 
remedy doesn't work in the--for people in your program, but it 
works for people in the work force or it doesn't work for 
people that are normally in the work force?
    Mr. Turner. I started to give you some examples, but I was 
cut off.
    Mr. Cardin. Give me some examples.
    Mr. Turner. Some of crazy things that happen, if you apply 
workplace laws to a training program, which doesn't apply, is 
you have people getting welfare benefits, counting it as wage 
income and having all of the different--there are 25 different 
programs, 25 different laws that the GAO came up with that 
apply in the workplace that don't currently apply when you are 
running a welfare program. Do you want to have all these laws 
apply? They don't all apply. Some of them do. Some of them 
don't. But what you do have already in place are protections 
that are endemic--in Michigan, in New York, and in Wisconsin, 
we have run training programs for many, many years. And we have 
laws that apply there. The comparability is between somebody 
who is in a work assignment, and that is part of his Welfare to 
Work program, and somebody who is in a GED class. That is the 
comparability. Not somebody who is working at McDonalds and has 
workplace laws apply to them and somebody in a training 
program. That is thing I am trying to get across. The 
provisions are right there.
    Mr. Cardin. Do you supervise the people that are in this 
program?
    Mr. Turner. I lost you.
    Mr. Cardin. Do you supervise the people that are in the 
work force program?
    Mr. Turner. I still don't understand the question. Do I 
personally?
    Mr. Cardin. Is there supervision?
    Mr. Turner. Of course.
    Mr. Cardin. Is there direction given to the individuals 
that participate in the program?
    Mr. Turner. I don't know what you mean by that. Obviously, 
if you are going to run a program, you have to manage it. And 
that is what we do.
    Mr. Cardin. And that is to use similar supervision to 
someone who is in the GED program?
    Mr. Turner. Absolutely. We supervise people that are in the 
GED program. They have to show up and participate. Their 
benefits are reduced, and they are in a training program and we 
try and move them to work. That is the same thing. The 
difference is they are in a simulated work activity. That is 
the comparability.
    Mr. Cardin. What type of work activities are we talking 
about? Aren't we talking about working?
    Mr. Turner. We just had a description of some of the things 
that we do. The best kind of training for work is actual 
participation in a real work-like activity, not something where 
you are sitting in class. Most welfare recipients who have 
never been in a work environment before don't know how to act, 
they don't know how to get ready for work, and they don't know 
what to do in a work environment and work site. That is the 
kind of practice they need.
    Mr. Cardin. And therefore, it is adequate for you to figure 
out how to protect their interest in regards to the laws that 
you do not believe should be applicable to this type of a 
circumstance.
    Mr. Turner. The system already protects them throughout 
their participation whether they are in GED or working at the 
Parks Department.
    Mr. Cardin. Perhaps you will just make available to our 
Committee an explanation to that statement. I would appreciate 
it if you would provide that in writing to the Committee.
    Chairman Herger. Thank you. The gentleman from Oklahoma, 
Mr. Watkins, to inquire.
    Mr. Watkins. Thank you, Mr. Chairman. Members of the 
Committee. Let me say to Mr. Carroll, I will ask you a 
question. I would like to say to Mrs. Taylor and Mrs. Roberts, 
I salute you and I commend you. I know it takes a lot of guts. 
I think about my own mama, who was a forced single mother, 
trying to raise three kids, and she said that we weren't going 
to go on welfare. And I realize what she meant by that when I 
was working three part-time jobs to try to get through school. 
But also, I would like to say to you, don't underestimate your 
role as a mother. That 14-year-old son that is proud of you, I 
can assure you my mother was a lady with very little formal 
education, but a woman with a world of wisdom and the stigma of 
welfare she wasn't going to have us be in the welfare.
    But she had little formal education. But she kept preaching 
education, education, education. And I reflect on my mama and 
realize that she didn't know what college was, but all three of 
her children received advanced degrees. And all of them are 
participating, I would like to think, maybe all except me, in a 
constructive role in life.
    But Mrs. Taylor, Ms. Roberts, I just cannot emphasize 
enough what you can stand for where your families, as you 
develop your families in life, whatever you do. And so, I hope 
you will carry that with you. And I know I, when 10 years of 
school after coming back from California, my family has broken 
up because of economic instability. My father became an 
alcoholic and died an alcoholic. They went to California three 
times before I was 9 years of age. We came back to Oklahoma. 
But I say this because itis important that you carry that with 
you because keep those young people in school.
    I want to ask Mr. Carroll, I don't come from a large city, 
I grew up outside of the community of less than 200 people. And 
one time though, when I was a youngster about the time I was 
leaving, we had two banks and two streets of businesses. Now, 
we have one store in that small rural area. So we don't have 
jobs, but we have people who are on welfare and I devoted my 
entire public life to try to build jobs and build the economy.
    I am very interested when you said you started five new 
companies under the partnership under the program. Could you--
would you maybe let me know, or what are those five companies 
and what do they do?
    Mr. Carroll. I think I tried to say we started with five 
companies. And we began the partnership about five companies.
    Mr. Watkins. Okay.
    Mr. Carroll. The five companies were United Airlines, 
Monsanto, Burger King, UPS and Sprint. And then we grew slowly 
but surely, and we now have over 22,000 companies throughout 
the U.S.
    Mr. Watkins. These are companies that started working with 
you as a partnership trying to take people off welfare, which 
is tremendous. That is a great, great partnership if you can 
have it. I don't have Fortune 500 companies in my district.
    Mr. Carroll. Over half of these companies are small 
companies that we may not have heard of, so about half the 
companies, 12,000 or so are small, less than 50 employees.
    Mr. Watkins. I have been working, starting up companies and 
literally, in rural economic depressed areas trying to build 
jobs from scratch. What I was wondering, if there was any you 
might--could spare. I will commend you, UPS, you said you had 
22 years. I always thought if I could get a team of workers 
like those UPS workers, I could do a great deal more. You know, 
I might amount to something too by that time.
    Mr. Carroll. Let me say what I am gathering is that there 
could be people in a very rural area, and there is not a lot of 
job opportunities in that particular area. The Internet offers 
tremendous possibilities.
    Mr. Watkins. If I can get Internet in that rural area.
    Mr. Carroll. Now with wireless you can get Internet 
everywhere. So I am more than happy to share information on 
companies that would be willing to assist you.
    Mr. Watkins. I would welcome if you would have any 
companies that would help in the rural areas. Because we are 
left behind in the digital divide. I am trying to work to 
bridge that gap because it is a different situation out there 
in economic depressed rural areas. There are many of them that 
have not recovered since the Great Depression. And we have got 
to build off farm jobs because we cannot save them, which is 
Ag, which I have two degrees in Ag, we cannot do it.
    Mr. Carroll. I would be more than happy.
    Mr. Watkins. Thank you, Mr. Chairman.
    Chairman Herger. Thank you, Mr. Watkins. Next to inquire is 
the gentleman from Michigan, Mr. Levin.
    Mr. Levin. I will be brief, I know Mrs. Johnson also has to 
go to another meeting. Let me make a couple of comments then I 
will leave and turn over my time to you Nancy, whatever other 
time you have left.
    First of all, I want to say, Mr. Turner, when we were 
considering welfare reform, went into this issue of exemption 
from Federal law in great detail. I don't remember all of the 
back and forth. We rejected the notion of a blanket exemption. 
And I want to go back and read some of the documents relating 
to it. I remember that the reference to see what wasn't a 
decisive, by any means, precedent for that kind of exemption. 
And I missed some of the back and forth. But I remember having 
long, long discussions about worker safety issues, et cetera. 
So I may be back in touch with you. But I want everybody to 
know we have looked into this and there were serious questions 
we had about your proposal.
    Let me--Mr. Howard and I have had a chance to talk about 
this. I want to refer to one piece of your testimony, Mr. 
Howard, to emphasize what I think is the challenge ahead, and 
actually the response of Ms. Taylor referred to it. On page 4 
you talked about wages have ranged from minimum wage up to $25 
per hour. You and I have talked about this. I had a meeting 
with the program in Macomb County, and from their records, the 
best they could tell the average wage for someone who had moved 
from Welfare to Work was under $7 an hour. And I do think the 
studies that we have indicate that that is much more prevalent 
than $25 an hour.
    Indeed, one of the real problems is people move to Welfare 
to Work which has, I think, very substantial benefits, and the 
core of welfare reform is that it is essential that people, as 
they move from welfare to work, make a living in colloquial 
terms. And when people are making 7 bucks an hour and have a 
couple kids, it is very tough going, to put it mildly. And 
especially when the evidence is that a lot of them, though 
eligible for food stamps, never apply.
    And also the disturbing fact that a lot of them do not have 
health care after the year. So I just want us to realize that a 
good part of the challenge remains ahead to make sure that as 
people move from welfare to work, they are in positions that 
pay them a living wage. Ms. Taylor, that really refers to your 
response, which I think was interesting and I think 
enlightened.
    In terms of people's placement, it is important to keep in 
mind training and retraining that moves them up the ladder 
economically. With that, I will turn the balance of my time 
over to Mrs. Johnson. Thank you for letting me go before you.
    Chairman Herger. Thank you, Mr. Levin. The gentlelady from 
Connecticut.
    Mrs. Johnson. Thank you. First of all, I do want to say to 
Ms. Taylor and Ms. Roberts how helpful your testimony is 
because for those of you who have been in this business for 
long times and been through several rounds of welfare reform, 
and how many women have looked at me, it is such a trap, I 
can't get out, I can't get medical coverage, I can't this, I 
can't that. It is really wonderful to see that the kind of 
things that we have been able--people have been able to offer 
you, have actually helped you see that there are careers out 
there. And things you would be good at that would give you a 
good income, a good living and a good group of people to work 
with, and that this does matter to your kids.
    So it is really wonderful to hear your testimony. And I 
congratulate both of you on how far you have come, and I hope 
your friends are doing as well.
    Also I want to put in the record, Mr. Turner what a very 
good procedures manual that you have for your work experience 
program. And how clearly you spell out that sexual harassment 
is not allowed and discrimination is not allowed on the basis 
of age, citizenship, color, creed, disability, gender, marital 
status, race, religion, prior record of arrest or convicts, 
sexual orientation or national origin, and that you do actually 
have a very good procedure here for your supervisors as to what 
should happen when there is an injury on the job and how they 
should complete the workmen's comp forms and all those things.
    So we will try to figure out the law, the legal issue of 
making sure that all programs would have such good procedures 
and why students are covered this way and the difference 
between this and being sort of caught in the employment laws 
which catch you the same way the old welfare program caught 
women on welfare.
    So I think, I don't want people to be able to be 
discriminated against because I also want us to be able to give 
people voluntary work experience, combine it with other things 
and help them move on in life. Sometimes the constraints of 
laws that were written for full-time employees are a hazard to 
your health if you are trying to just move forward. Then I just 
want to ask two questions, and since I am way behind on time 
too, do you think the system has--if we just fund it at the 
current level and we allow flexibility, is there enough money 
for day care, substance abuse treatment and to deal with the 
mental health issues that you are getting into as you reach, 
you know, those who are unemployed? And then the other part of 
my question is the work opportunities tax credit helpful to you 
at all? So just quick responses.
    Mr. Turner. Well, speaking for New York City on the first 
issue, is there, now that we are getting to the lower levels, 
is there sufficient funding for some of those other activities 
that you described? The short answer is yes. In New York City, 
we used to spend $217 per adult per year on non-benefit related 
services, like job training and child care. Today, because of 
the TANF block grant and the combined reduction in the 
caseload, we spent $3,200 per adult per year on those 
activities. We currently have no shortage of substance abuse 
slots in New York City. We have--child care is made available 
for everyone going to work. We are very happy with that.
    Mrs. Johnson. Work opportunities, tax credit?
    Mr. Turner. We have not found employers clamoring for the 
work opportunities tax credit.
    Mrs. Johnson. Do you educate them about it?
    Mr. Turner. No, we don't. We probably should.
    Mr. Carroll. I would say that as far as the funding, sure 
we would love to see the funding stay the same. The people that 
are remaining do have multiple barriers. But even the people 
that are just off are barely just off. And they are going to 
need some additional training and some support. The people that 
Mr. Watkins is talking about is rural America, they may need 
some special assistance to get from where they are connected 
with the economy at large.
    The American business we have a split, we have some 
companies that are taking advantage of the Welfare to Work tax 
credit like you wouldn't believe, into the millions. I could 
even give small businesses like Burger King franchises, they 
swear by it. It has to do with education. You have to be able 
to explain what it is and how it is. There is a perception to 
some how this is going to be so difficult to hand out and so 
difficult to access, that particularly a small business says I 
don't want to deal with it. We talk to them and tell them why 
they should do that and how this tax credit may offset some of 
the costs they may put out, it is a win-win.
    Mr. Howard. I would say on the funding, if I put on my 
ADHSA hat, there are probably some States that may have some 
disagreement on whether you stay the same or think about an 
index to inflation. But generally I think I would agree with 
what I have heard. We have seen some increased barriers in the 
remaining caseload. It is not a blanket statement. There will 
be people that can move through quickly. We are able to refocus 
more resources on job retention and job advancement.
    So I think generally, funding is probably adequate for the 
path we have been on, for the path we want to go as long as we 
retain the flexibility. The flexibility may be just as key to 
the States, if we start seeing carveouts and mandates that may 
affect our ability to do things and my answer changes.
    The work opportunity tax credit, I am aware that employers 
are using it. I don't know to what extent that is driving the 
decision right now. I would say, probably, the labor market 
demand we have seen over the last couple of years has been more 
critical in their decision to hire recipients and partnerships 
like the Welfare to Work partnership and some things we have 
going on with employers in the States where they have actually 
done this. We have seen some experiences of employers where 
they have job retention rates go from 20 percent up to 85 
percent when we have targeted services. So they are recognizing 
the benefit they get from targeting individuals who need the 
work and then working to keep them in the work force. So it may 
be important to some employers, but I don't know to what 
extent.
    Mrs. Johnson. Thank you very much. And thank you all for 
your testimony. I appreciate the good work you are doing out 
there.
    Chairman Herger. Thank you, Mrs. Johnson. The gentleman 
from Michigan.
    Mr. Camp. Thank you, Mr. Chairman. Mr. Howard, I just 
wanted to ask you since welfare was enacted, welfare reform in 
1996, what surprised you the most about its impact on work and 
welfare recipients?
    Mr. Howard. I think, to some extent, the speed with which 
we have been able to succeed and our ability to reinvest. It 
has been a very pleasant surprise. I don't want to leave the 
impression that I don't think there aren't a few problems and 
there aren't opportunities for improvement. We know there are 
still families struggling.
    But I firmly believe with all of my heart that this program 
is so much better than the old ADC program. It helps more 
families. It moves more people to work. It sends the right 
message. It has been tremendous. The speed with which things 
have happened, I have referred to obviously, the economy has 
contributed to a great extent. I would tell you it is not just 
the economy. I also ran a welfare reform program in Iowa before 
I came to Michigan. And one of the earlier experiments we did 
under waivers was looking at the job entry rate. Same people in 
the same economy in the same counties, when they had welfare 
reform policy, were entering the work force at over twice the 
rate of those who continued to get the old ADC policies.
    So we know the policies clearly have advanced work, but we 
knew we could bring the rolls down. We knew we would move more 
people into work. I think as administrators we look back we see 
that it was real, but I don't know anyone would have estimated 
it would have happened this fast. I am very pleased that we 
have thus been able to refocus on helping remaining families 
and continuing to focus on job retention and advancement 
instead of only what does it take to get someone in any job.
    Mr. Camp. What do recipients say about that focus?
    Mr. Howard. There is mixed reaction, but generally it is 
very positive. One of the things I haveincluded in my written 
testimony is a set of vignettes on some of the--I mentioned earlier, 
the achiever of the month. And generally, we get very positive 
feedback. There may be always an individual here or there that may have 
fallen through the cracks or who may not have taken advantage of an 
opportunity. But I would tell you the majority clearly believe that 
this has provided them the support to go to work. You saw our chart on 
day care investment.
    We are clearly putting support in place. Our achievers of 
the month always talk about the focus on the children. You 
heard that today. That is critical, the message they are 
sending. I would tell you, some of the proudest people in the 
room at those ceremonies are the kids. They are watching their 
mother, or two parents in some cases, at the front of the room 
talk about it. So we get very good feedback.
    One of the very first pieces of feedback I ever had from a 
recipient was something that stuck in my head, it was a comment 
that the toughest thing about welfare reform isn't that you are 
making us do something, the toughest part is you are making us 
make decisions about it because under ADC, you never made us do 
that before, you just told us what to do and when to do it. 
That tells me we are engaging people in taking charge of their 
lives.
    Mr. Camp. Thank you very much. I also want to thank Ms. 
Taylor and Ms. Roberts for their testimony. Thank you for 
coming here today. Appreciate it very much. Thank you, Mr. 
Chairman.
    Chairman Herger. Thank you, Mr. Camp. I want to join in 
thanking each of you for being here and again particularly it 
is great to see the success stories. And certainly, Ms. Taylor 
and Ms. Roberts, you two are outstanding examples and just keep 
up the good work. As we mentioned before, we are very proud of 
you. And we are also very pleased and very proud of the job 
that all of you are doing in administering this.
    So with that, I would like to thank you and call up our 
second panel to testify at the witness table, please. Our first 
witness on this panel is Father Robert Sirico, president of the 
Acton Institute for the Study of Religion and Liberty. Our next 
witness is Steve Savner, senior staff attorney, Center for Law 
and Social Policy; and our third witness is Vee Burke, 
specialist in income maintenance at the congressional research 
service. Father Sirico.

    STATEMENT OF FATHER ROBERT A. SIRICO, PRESIDENT, ACTON 
INSTITUTE FOR THE STUDY OF RELIGION AND LIBERTY, GRAND RAPIDS, 
                            MICHIGAN

    Mr. Sirico. Thank you.
    Mr. Camp. If I could just welcome Father Sirico from 
Michigan from the Acton Institute and he is a well-known 
lecturer, and really a commentator on important issues 
involving not only welfare reform, but also economic civil 
rights and other issues and has been a former Member of the 
Civil Rights Commission. I welcome you to the Subcommittee 
today, and look forward to hearing your testimony.
    Mr. Sirico. Thank you. Thank you, Mr. Chairman Congressman 
Camp, ladies and gentlemen of the Committee. I have submitted 
prepared testimony but I will try to summarize that. It is 
difficult for a preacher, when you put a clock in front of him, 
but we will see what we can do. The test of any moral society 
is how it treats its most vulnerable members. But this test is 
not one merely of sentiment nor of intention alone. It must be 
considered rationally, it must be looked at with a cool and 
objective eye. Others have already dealt with the question of 
the economic efficiency of the Workfare programs in terms of 
the material results.
    But I would say that before even these things can be 
considered, the moral question must be addressed. Some have 
called Workfare ``slavery.'' Admittedly, this is a somewhat 
emotive term that has been applied to it. But nonetheless, it 
undermines and calls into question the moral validity of such 
programs as Workfare.
    I would like to focus my testimony on two moral issues: the 
first being the nature of obligation, and secondly, the 
importance of reciprocity or what might also be called 
solidarity, human reciprocity and community. First there is an 
obligation to the poor. Our society has this obligation to the 
most vulnerable, to the most defenseless. But there is also an 
obligation by the poor, that is, an obligation that the poor 
themselves have. And to disregard this obligation I think is to 
disregard the integrity and the dignity of the people who are 
vulnerable. In this regard, I think how one goes about 
implementing programs such as Workfare is very important, and I 
would advocate an implementation of the principle of 
subsidiarity, which basically says that needs are best met at 
the most local level of their existence. I have elaborated on 
that in my prepared remarks.
    Secondly, with regard to obligation, perhaps the passage 
from Saint Paul's letter to the Thessalonians speaks at least 
for the Christian tradition with regard to assistance. He says 
``if a man will not work, neither let him eat.'' There is 
another ancient Christian text dating from about the first 
century, or perhaps the early second century, known as the 
Didache. And there we find some advice that modern policy 
planners might do well to adapt for use within the contemporary 
and secular context. It reads, ``let everyone who comes to you 
in the name of the Lord be received but after testing Him, you 
will know Him. If the one who comes to you is a traveler help 
him as much as you can but he shall not remain with you more 
than 2 or 3 days unless there is need. If he wishes to settle 
among you and is a craftsman, let him work and eat. If he has 
no trade, provide according to your conscience, so that no 
Christian may live among you idle. If he does not agree to 
this, he is trading on the name of Christ. Beware of such 
men.''
    Now of course the Didache was addressed to a group of first 
century Christian believers, but I think the principles that it 
articulates and the sentiment of the obligation of the poor 
that it outlines with regard to a respect for the poor who have 
an obligation to work for what they receive, is something that 
should inform the contemporary debate as well.
    While there is obligation, there is also reciprocity, which 
is important. We are, after all, talking about human beings. 
People who have needs, who have rights, and who have an 
inalienable dignity by virtue of who they are as human beings.
    It is in this regard that I think it is important for 
people who receive welfare to have an opportunity provided for 
them to work. There are many ways there which work benefits the 
community generally by augmenting the amount of human capital 
that exists. I think in this regard we are, again, focusing on 
the dignity of the people who may find themselves marginalized 
and vulnerable for a period of time, but who nonetheless are 
seen to have something to contribute.
    In this regard, we must prepare them for responsibility and 
the responsibility of long hours that are usually associated 
with higher paying jobs. What we are talking about here is 
something that has already been alluded to: habits. I use the 
word ``habit'' deliberately because it underlines another 
dimension of my thoughts about why people on welfare should be 
required and expected to work.
    We must learn, all of us, how to manage our time, how to 
balance our responsibilities, and how to be more creative in 
whatever it is we do. And in this regard, we can develop many 
virtuous habits of action that express our development as 
persons.
    The results of Workfare programs promise to help the 
unemployed in ways, however, that go beyond the mere material. 
Virtuous habits, moral habits of action will serve people in 
good stead no matter what situation they find themselves in. In 
an economy in which human capital continues to assume great 
importance, the necessity of possessing such virtues will only 
increase. As such, Workfare does not amount to an attack on 
poor people but rather is very much in the best interests of 
those who, for whatever reason, find themselves without paid 
employment. Thank you very much.
    Chairman Herger. Thank you, Mr. Sirico.
    [The prepared statement of Mr. Sirico follows:]

 Statement of Father Robert A. Sirico, President, Acton Institute for 
       the Study of Religion and Liberty, Grand Rapids, Michigan

    Thank you very much. Ladies and gentlemen of the Committee, I thank 
you for asking me to testify today.
    For several years now, the question of welfare reform has figured 
prominently on the public policy agenda in our country, with people 
from all political persuasions recognizing that it is neither 
economically possible nor morally sensible to continue with the type of 
welfare initiatives bequeathed to us by the New Deal and Great Society 
programs of the past.
    An integral part of the resulting debate has been the issue of 
whether people who are in receipt of public benefits should be required 
to work. Others will be able to testify as to the relative economic 
efficiency of workfare programs, both in terms of concrete material 
results and the cost of such programs to the taxpayer.
    But before these issues can even be considered, it is vital that 
the moral questions raised by workfare be addressed. In some parts of 
our country, workfare has been described, in rather emotional terms, as 
being akin to a form of slavery. Not for the first time, we observe 
that, at the heart of a public policy debate, there are profoundly 
moral issues at stake, and until these are settled, there will always 
be questions about the basic ethical legitimacy of workfare programs. 
Today, I would like to focus your attention on two of the most 
important of these moral issues. The first concerns the nature of the 
obligations that we accept when we receive assistance from others. The 
second is why it is important for people receiving welfare benefits to 
work if they are able to do so.
    Let us begin with the first of these questions. People in receipt 
of welfare payments are effectively being paid an income by the 
community, just as public officials, military personnel, and 
politicians are paid an income by taxpayers. There is no reason why 
welfare recipients should not also give something back to the community 
that is, one hopes temporarily, sustaining their material existence. I 
appreciate, of course, that different circumstances will dictate how 
much work should be required from different people. No one has a desire 
to place unbearable burdens, for example, on women who have been 
deserted by their husbands and who are struggling to raise, often 
single-handedly, young children. I am also conscious of the potential 
sacrifices that workfare asks employers to undertake. Nonetheless, when 
such programs are administered in accordance with the social principle 
known as subsidiarity, that is, administered at the level closest to 
the person in need, the likelihood of this being done in an intelligent 
and appropriate way will increase. The basic principle that people in 
receipt of payments from others should be, as a normative matter of 
justice, give something in return, reflected in public policy.
    Many will be interested to know that this position has been 
integral to the Christian tradition from its very beginning. Some of 
you will recall St. Paul's insistence that `If a man will not work, let 
him not eat'. In the ancient Christian text, the Didichade (probably 
dating from the first century), we find some advice that modern policy 
planners might do well to adapt for use within a contemporary context. 
It reads: ``Let everyone who comes to you in the name of the Lord be 
received; but, after testing him, you will know him. . . If the one who 
comes to you is a traveler, help him as much as you can; but he shall 
not remain with you more than two of three days unless there is need. 
If he wishes to settle among you and is a craftsman, let him work and 
eat. If he has no trade, provide according to your conscience, so that 
no Christian shall live among you idle. If he does not agree to do 
this, he is trading on the name of Christ; beware of such men.''
    Society does have an obligation to assist those who are in need. 
Those who can work but cannot find a job, however, also have an 
obligation to those who are assisting them to meet their basic needs. 
Workfare, in this sense, is an expression of the essential justice that 
underlies this mutual obligation. At the same time, it also integrates 
the charitable impulse with realism about the negative effects of 
constantly giving people something for nothing. St. Paul was not naive 
about humanity's capacity to use and abuse the good will of others. 
Moreover, to disregard this reality in the formation of public policy, 
is in essence to disrespect the creative capacity of the very people we 
seek to assist.
    This brings us to my second point: why it is important for people 
receiving welfare to work. There are many ways in which workfare 
benefits the community, such as augmenting the amount of human capital 
that exists in society. But perhaps more important is the effect of 
workfare on the personality and moral habits of the recipients 
themselves. Depending upon the type of work that is undertaken by 
workfare participants, there is an increased likelihood that they will 
learn new skills that will assist them in finding and keeping non-
workfare employment. In short, workfare will help them to prepare for 
the responsibility and long hours that are usually associated with 
higher paying jobs. It is difficult to underestimate the benefit that 
this can have upon people, especially those who have never seen anyone 
in their family or immediate community in permanent employment. To this 
extent, workfare can have a role to play in enhancing the skill-base of 
those who have had little opportunity or incentive to develop the type 
of work-habits that are essential for the successful performance of any 
job. The simple habit of being at work on time may be taken as a given 
by most of us. Yet many people need to acquire this habit. Workfare 
will help them to do so.
    I use the term `habit' quite deliberately, because it underlines 
another dimension to my thoughts about why people on welfare should be 
required to work. Whatever the nature of our jobs, few of us would 
dispute that work is a central dimension of our personality. Work opens 
up new horizons for us. It can help us, for example, to think about how 
we manage our time, how to balance responsibilities to our families and 
employers, or how to be more creative in whatever it is that we do. At 
an even deeper level, of course, it is through work that we can develop 
many virtuous habits of action that express our development as persons.
    Work often requires us, for instance, to be industrious, to act 
prudently, and even, at times, to take measured risks. It may also 
discourage us from being slothful, imprudent, or developing an 
excessive aversion to taking entrepreneurial risks. While workfare may 
not immediately immerse us in all such habits--after all, they do have 
to be developed and often are years in the making--it will provide 
anorientation for many people to acquire these moral goods. From this 
standpoint, we see that workfare has the potential to provide many 
people from marginalized backgrounds with the opportunity to acquire 
and/or grow these essential types of moral habits.
    None of this, of course, is to underestimate the difficulties that 
our society faces in transforming the way in which we help the 
unemployed in the United States. To take our society from the handout 
mentality of public assistance without obligation, to a culture of 
solidarity that is attached to the notion of mutual obligation and 
fulfillment of responsibility, may, in some instances, be traumatic. It 
challenges all of us, ranging from employers willing to undertake the 
training of unskilled employees, to those long-term unemployed who have 
been encouraged to think that welfare is obligation-free.
    Not only, however, is there no reasonable alternative to workfare, 
but the results of workfare programs promise to help the unemployed in 
ways that go beyond the material. Virtuous moral habits of action will 
serve people in good stead, no matter the situation in which they find 
themselves. In an economy in which human capital continues to assume 
great importance, the necessity of possessing such virtues will only 
increase. As such, workfare does not amount to an attack on poor 
people. Rather, it is very much in the best interests of those who, for 
whatever reason, find themselves without paid employment.
    Thank you for your attention.

                                <F-dash>


    Chairman Herger. Next is--our next witness is Steve Savner, 
senior staff attorney at the Center for Law and Social Policy.

 STATEMENT OF STEVE SAVNER, SENIOR STAFF ATTORNEY, CENTER FOR 
                     LAW AND SOCIAL POLICY

    Mr. Savner. Good afternoon, Mr. Chairman. Thank you very 
much for inviting me to testify today. I work for the Center 
for Law and Social Policy, which is a nonprofit organization 
that engages in research, analysis and advocacy on a range of 
policy issues affecting low income families. In my written 
testimony, I tried to lay out a framework for thinking about 
work requirements and work participation under TANF and 
included a number of recommendations for how those provisions 
might be changed. Let me start by saying I think there are two 
basic principles that were embodied in the law that could be 
improved. And I think that we have heard allusions and 
differences of opinion about those in the prior testimony.
    First, one of the basic tenets of the law was that we 
wanted to get away from a one-size-fits-all system and give 
States broad flexibility. Coupled with that, there needs to be 
accountability for that flexibility, accountability for how the 
funds are used, accountability for achieving outcomes in the 
context of stable jobs and higher family income, and also 
accountability in terms of treating people fairly.
    I am struck by Mr. Howard's strong support for that, and I 
think implicitly, Mr. Turner's strong rejection of that. Mr. 
Turner indicates a strong desire to reimpose on States a one-
size-fits-all program which says that work experience, unpaid 
work experience is really the only way that we can help prepare 
people for employment. Clearly, that is not what 49 other 
States think. They think there are lots of other ways to 
effectively help people prepare for employment. If you look at 
the recommendations of Welfare to Work Partnership, they 
encourage us to think about more training and skill upgrading 
for employees.
    So clearly there are other voices. I think it is important 
that we, until we know for sure that there is only one right 
way to help prepare people for good jobs, not hamstring States 
by telling them how they must do this. It is also interesting 
that in the context of what States have been doing in terms of 
work participation, in 1999, States engaged about 38 to 39 
percent of the adults on the caseload in work-related 
activities. That was more than the requirement which was 35 
percent. So even without using the caseload reduction credit, 
people were engaged.
    Now, Mr. Turner suggests somehow that States didn't do what 
Congress wanted because a lot of those people were in 
unsubsidized employment and getting benefits. It seems to me 
that is exactly what Congress and everybody else wanted, 
paramount, above everything else, was to get people into 
unsubsidized employment.
    So I would disagree that counting people who are in 
unsubsidized jobs is somehow unfair, or not meeting the 
purposes that Congress set.
    Turning specifically to the strategies that States are 
using, first of all, I think notwithstanding Mr. Turner's 
assertions, there is no evidence that the kind of program that 
he is supporting and running is better than any other Welfare 
to Work program that we see, better than paid work experience, 
better than certain kinds of skill development or job search 
and intensive engagement programs.
    The evidence that we have from research suggests that there 
were very weak results from work experience programs, and it is 
not clear at all that there is any factual basis for the 
assertion that this is an effective way, much less the best way 
to prepare people for employment.
    I want to respond to two additional points that came up in 
the testimony earlier. One is this whole issue of employment 
protections. As Congressman Levin pointed out earlier, this was 
much debated. Under the Family Support Act, we had protections 
that basically said work experience programs could not operate 
where people worked for more hours than their grant, minus 
child support, divided by the minimum wage.
    So I think that is interesting that the law said we will 
take the net, what we give a family, taking into account the 
extent to which it is reimbursed by child support, and divide 
that by the minimum wage. So while the law explicitly said 
these aren't employees, these aren't wages, it put in place a 
comparable protection. I think one of the reasons why we ought 
to be serious and steadfast in maintaining these protections is 
also that we have Federal agencies, the Occupational and Safety 
and Health Administration, the Equal Employment Opportunity 
Commission, for example which have long experience and are 
expert in making sure that workers have safe and healthful 
environments to work in, and environments that are free from 
discrimination.
    They are quite used to and an expert in dealing with people 
in the workplace trying to discover what issues are affecting 
them and make sure the laws are enforced. One of the big 
benefits to applying those workplace protections to people in 
unpaid work experience programs, is they get the benefit of 
that enforcement.
    I want to just say a word about some other new programs, 
different models that we have heard about, and those are 
transitional jobs programs where State and local welfare 
agencies are creating programs that include part-time 
experience on a job, where people are getting paid wages, and 
are treated like employees, coupled with skill development 
activities, job training, and basic education.
    Washington State has a statewide program that is showing 
very positive results, Philadelphia has a program that is 
operated with both TANF and Welfare to Work funds. The program 
was the product of ajoint agreement between Governor Ridge and 
Mayor Rendell. People work for 25 hours a week in paid jobs, and engage 
in 10 hours a week of professional development activity. The program is 
getting extraordinarily high placement rates for people who stay in the 
program through completion.
    Again, these are programs where officials have made a 
decision that work should be treated like work for everybody 
else and people should get wages. That is a tenet of those 
programs and they are getting very positive results. So again, 
I think Congress should, in reauthorization, allow and promote 
further experimentation as long as States, one, are accountable 
for results and, two, are accountable for treating people 
fairly and consistent with civil rights and worker protections.
    Chairman Herger. Thank you, Mr. Savner.
    [The prepared statement of Mr. Savner follows:]

 Statement of Steve Savner, Senior Staff Attorney, Center for Law and 
                             Social Policy

    Mr. Chairman and Members of the Subcommittee:
    Thank you for inviting me to testify. I am a Senior Staff Attorney 
at the Center for Law and Social Policy (CLASP). CLASP is a nonprofit 
organization engaged in research, analysis, technical assistance, and 
advocacy on a range of issues affecting low-income families. Since 
1996, we have followed closely the implementation of the Personal 
Responsibility and Work Opportunity Reconciliation Act, as well as 
research concerning its implementation and welfare to work programs 
more broadly. In addition, we often talk and visit with state and local 
officials, administrators, people affected by welfare policies, program 
providers, and others concerned about implementation of efforts to 
change welfare programs.
    Today's hearing focuses on work requirements in TANF and other 
anti-poverty programs, their effectiveness and lessons learned from 
which recommendations for TANF reauthorization might be drawn. My 
comments will focus on TANF program requirements and issues to consider 
in the context of TANF reauthorization, and draws extensively from 
``Improving Employment Outcomes Under TANF,'' (Strawn, Greenberg and 
Savner, February 2001). \1\
---------------------------------------------------------------------------
    \1\ Paper prepared for the ``New World of Welfare'' Conference, 
held January 31-February 2, 2001, organized by the University of 
Michigan's Ford School of Public Policy and the Brookings Institution. 
The paper will appear in a book of conference papers forthcoming in 
2001 from the Brookings Institution Press.
---------------------------------------------------------------------------
    My testimony will highlight the provisions of the law that are 
intended to promote work, and others which may have also created 
incentives for caseload reduction without regard to employment 
outcomes; describe common elements to state responses to the law; the 
effects of initial state choices; how states have further responded in 
light of these initial effects, and how these experiences should inform 
our thinking about reauthorization and possible modifications to the 
statutory framework that is intended to promote and support employment.

Increasing Employment and Caseload Reduction Have Been Two Key TANF 
        Goals
    One of the central purposes of the 1996 welfare law was to promote 
employment among poor parents. In addition, for many, another central 
purpose of the law was to reduce the number of families receiving cash 
assistance. It is important to keep in mind that these dual goals of 
increased employment and caseload reduction are distinct and success in 
achieving one goal is not always matched by comparable success in the 
other. Indeed, these goals are sometimes in tension, for example when a 
state provides a more generous earnings disregard that has the effect 
of increasing employment but also increasing the caseload. With the 
exception of limited funding available through the High Performance 
Bonus, increasing family income beyond the level necessary to leave 
welfare is not an explicit purpose of the law, (although states have 
been free to make investments to achieve such a goal as noted above.)
    Many key provisions emphasize one or the other, or both of these 
goals:
          <bullet> The block grant funding structure allows states 
        substantial flexibility in the use of both federal and state 
        maintenance of effort funds, including the direct use of funds 
        on a broad range of employment-related services and work 
        supports and the ability to transfer a significant portion of 
        TANF funds to the Child Care and Development Block Grant.
          <bullet> States were given broad discretion in structuring 
        program rules allowing provisions to create significant 
        financial incentives for employment through earned income 
        disregards, as well as time limits and sanctions for 
        noncooperation with work activities.
          <bullet> The law establishes ``participation rates'' for 
        families receiving TANF assistance, and provides that states 
        will risk fiscal penalties for failure to meet the required 
        rates. To count toward the rates, an individual must be 
        involved in one of a listed set of work-related activities for 
        a specified number of hours each week. States are given broad 
        authority to count recipients who are employed or participating 
        in a range of subsidized employment and paid and unpaid work 
        experience toward the new federal participation rates. However, 
        education and training activities only count toward the rates 
        to a very limited extent, and generally cannot count for more 
        than twelve months for individuals not working at least twenty 
        hours a week.
          <bullet> A ``caseload reduction credit'' specifies that a 
        state's participation rate requirement can be reduced if a 
        state's caseload declines for reasons other than changes in 
        eligibility rules; this creates a strong additional incentive 
        for caseload reduction.
          <bullet> The block grant funding structure also places a 
        premium on caseload reduction, because a state's federal 
        funding stays constant whether caseload goes up or down. 
        Caseload decline has been seen as necessary to manage within 
        the framework, and the ability to keep and redirect savings 
        from caseload decline to a broad and flexible range of programs 
        and services creates a strong incentive to reduce caseloads.

Initial State Implementation Patterns
    Initial TANF implementation in most states solidified a set of Work 
First policies that states had begun to implement during the early 
1990's. These work first policies have emphasized rapid labor force 
attachment for as many recipients as possible, relying principally upon 
job search and job readiness activities for most applicants and new 
recipients, limiting exemptions from participation, and increasing 
penalties on those found to have refused to cooperate with work 
requirements without ``good cause.'' \2\ A handful of states adopted 
policies providing for universal or near-universal participation 
coupled with broad flexibility about the nature of activities in which 
an individual might be required to participate. More commonly, however, 
state policies narrowed the range of allowable activities to restrict 
access to education and training to achieve a focus on rapid job entry, 
and in response to the narrowly defined set of federally countable 
activities.\3\
---------------------------------------------------------------------------
    \2\ State Policy Documentation Project, 2000, www.spdp.org.
    \3\ For a more complete discussion of initial state implementation 
decisions on these issues, see, ``Improving Employment Outcomes Under 
TANF,'' Strawn, Greenberg, and Savner.
---------------------------------------------------------------------------
    States have generally succeeded in meeting the ``all families'' 
participation rate, and evidence suggests that many adults are 
participating in employment-related activities that do not count toward 
federal participation rates.
          <bullet> In FY 99 over 38% of adults in single parent 
        families were engaged in the narrowly-defined set of federally 
        countable activities. This exceeded the federally required rate 
        of 35% for the year.\4\ Insofar as the caseload reduction 
        credit has resulted in the reduction of effective participation 
        rates in almost every state, and the elimination of any 
        effective all family participation rate in a number of states, 
        the actual participation rate achieved is all the more 
        striking.
---------------------------------------------------------------------------
    \4\ Third Annual Report to Congress on TANF, US HHS, August 2000, 
Table 3:1.
---------------------------------------------------------------------------
          <bullet> Data reported from the Urban Institute's 1999 
        National Survey of America's Families indicates that about two-
        thirds of all adults receiving assistance were engaged in work-
        related activities, including federally countable and non-
        countable activities.\5\
---------------------------------------------------------------------------
    \5\ ``Do Families on Welfare in the Post-TANF Era Differ from their 
Pre-TANF Counterparts?'' Zedlewski and Alderson (Urban Institute-
Assessing the New Federalism, February 2001.)
---------------------------------------------------------------------------
    The picture that emerges here is that some states may have 
substantially exceeded the effective participation rates than are 
applicable after taking into account the caseload reduction credit. In 
addition, they appear to be engaging substantial numbers of 
participants in activities that do not meet the narrow federal 
definition of ``countable'' activities. States' ability to accomplish 
these results have been due in part to the additional resources 
generated by caseload declines, and in part directly due to the 
caseload reduction credit.

Employment And Earnings Among Current And Former Recipients
    As reported more fully by my colleague Mark Greenberg in testimony 
before the Subcommittee on March 15, 2001, since 1996 there has been a 
significant increase in employment among single female-headed families, 
and among current and former TANF/AFDC recipients. There is broad 
agreement that TANF has played an important but not exclusive role in 
generating these employment increases.
    Studies have consistently found that most families leaving welfare 
have found work \6\ and that labor force participation has increased 
among female-headed families. In addition, an increasing share of TANF 
adults are employed while receiving assistance--28% in FY 99, as 
compared with 8% in FY 94.
---------------------------------------------------------------------------
    \6\ ``Families Who Left Welfare: Who Are They and How Are They 
Doing?'' Loprest, (Urban Institute, 1999).
---------------------------------------------------------------------------
    Most employed ``leavers'' are in jobs with low earnings and limited 
or no access to employment benefits. In the Urban Institute's 
nationally representative study, median wages for working TANF leavers 
in 1997 were $6.61 per hour. Moreover, employed leavers are unlikely to 
receive employer-provided health care coverage or paid sick or vacation 
leave; in the Urban Institute study, 23% of employed leavers were 
receiving employer-provided health care coverage.\7\ Studies from 
individual states have reached similar findings.
---------------------------------------------------------------------------
    \7\ Id.
---------------------------------------------------------------------------
    Prior research had found that employment loss was a significant 
problem for welfare parents entering employment, and that the limited 
earnings growth for those entering employment was principally 
associated with working more hours or weeks in a year rather than with 
growth in wages.\8\ State leavers studies provide little information 
concerning employment retention and advancement; the studies with some 
longitudinal data typically suggest some earnings growth over time, but 
that median annual earnings for adults who have left assistance are 
probably in the range of $8,000-$12,000.
---------------------------------------------------------------------------
    \8\ ``Steady Work and Better Jobs,'' Strawn and Martinson, (MDRC, 
2000).
---------------------------------------------------------------------------
    These data about the employment patterns of recipients and leavers 
suggest that strategies should be sought during reauthorization to 
improve the employment outcomes for current and former recipients.
Limited Information Available From Leavers Studies Or Other Sources 
        About Impacts Among Various Racial And Ethnic Groups
    Examination of studies designed to track the income and employment 
status of families who left the cash assistance caseload during the 
late 1990s suggests differences among various racial and ethnic 
subgroups. One national study of former welfare recipients shows that 
whites are more likely to have left welfare compared to Hispanics and 
non-white/non-Hispanics, and that Hispanics are less likely to have 
left than whites or non-white/non-Hispanics. Generally, those who have 
left have more education, and are less likely to face other employment 
barriers, such as limited work experience, health limitations, etc.
    A study of families exiting welfare in Wisconsin in 1995-1996 
reported that 61 percent of the white families receiving assistance 
left the caseload, compared to 36 percent of the African-American 
families. In an Arizona study of families exiting welfare in the last 
quarter of 1996, researchers found that while African-Americans made up 
34 percent of open cases, they were only 8.5 percent of all families 
that left the caseload during that quarter. The picture for Hispanic 
respondents is much less clear-cut, with studies from some states 
showing them leaving the caseload in disproportionately large numbers, 
while studies from other states reveal opposite results.
    Studies in Arizona, Georgia, and Cuyahoga County, Ohio, show that 
shortly after leaving welfare, the percentages of African-Americans who 
are employed exceed the percentages of whites who are employed, and 
results from Arizona, Cuyahoga County and Wisconsin reveal that 
African-Americans have somewhat higher quarterly earnings than whites. 
However, studies in those same areas also showed that a much higher 
percentage of African-Americans returned to welfare within one year of 
leaving, compared to whites who left. The data for Hispanics vary 
considerably on all of these measures from one state study to 
another.\9\
---------------------------------------------------------------------------
    \9\ See generally, `` `Leavers' and Diversion Studies: Preliminary 
Analysis of Racial Differences in Caseload Trends and Leaver 
Outcomes,'' Elizabeth Lower-Basch (HHS, December 2000); ``Welfare 
Reform and Racial and Ethnic Minorities: The Questions to Ask,'' 
Savner, Reprinted from Poverty and Race, Poverty and Race Research 
Action Council, Volume 9, Number 4, page 3 (July/August 2000) available 
at http://www.prrac.org/newslet.htm.
---------------------------------------------------------------------------
    These studies suggest a pattern in which African-American 
recipients are less likely to leave welfare than whites, are more 
likely to be employed shortly after leaving and at somewhat higher 
wages, but are also more likely to return to welfare within the first 
year after exiting. Many questions and possible explanations for these 
findings present themselves. Why are African-Americans leaving more 
slowly than whites? If whites leave in greater proportions but are 
employed less, what other sources of income are they relying on to get 
off welfare and stay off longer? And what are the prospective policy 
implications of these data? These questions should lead to a much 
broader research agenda to further explore these issues.
Individuals with Significant Barriers to Employment Represent Ongoing 
        Challenge
    For those who are not working, both current and former recipients, 
evidence continues to show that many have significant barriers to 
employment including health problems among recipients, health problems 
among their children that interfere with work, very limited skills, and 
domestic violence.
    According to the 1999 National Survey of America's Families, over 
one-third of all adults on assistance had health related problems that 
interfere with work, 5 percent had a child receiving SSI, 27 percent 
had not worked in the preceding three years, and 44 percent had 
education less than high school. Among recipients with no identified 
barriers to employment, 56 percent were employed, while among those 
with two or more identified barriers, only 20 percent were employed.
    State flexibility to both count a broader set of activities in 
determining their participation rates, and the flexibility to recognize 
personal circumstances which should excuse participation beyond the 
limited exemptions provided for under federal law would help states 
focus resources on those most in need of services and those most able 
to benefit from participation.
Differential Treatment of Racial and Ethnic Minorities
    While we have much information about people who leave and why they 
leave, we have relatively little information from leavers studies about 
the kinds of services people received prior to leaving and the 
connections between those services and activities and their post-
program outcomes. Data from several states raise troubling implications 
of differential treatment of recipients within local welfare systems 
based on racial or ethnic origin. An analysis by the Chicago Reporter 
of Illinois data concerning why welfare cases were closed between July 
1997 and June 1999 revealed significant differences appear in the 
reasons for case closings between whites and minorities. A total of 
340,958 cases closed in this period, of which 102,423 were whites and 
238,535 were minorities. Fifty-four percent of minority cases, but only 
39 percent of white cases, closed because the recipient failed to 
comply with program rules. Though earned income made 40 percent of 
white families ineligible for support, earned income made only 27 
percent of minority families ineligible.
    Similar data are reported in a study of recipients in rural Florida 
who left welfare between October 1996 and December 1998, carried out by 
the Florida Inter-University Welfare Reform Collaborative. The study 
sample of 115 former recipients responded to questions about why they 
left welfare as follows: 53 percent of whites, as compared to 32 
percent of African-Americans, found a job; 8 percent of whites and 22 
percent of African-Americans were disqualified for non-compliance with 
program rules; 6 percent of whites and 17 percent of African-Americans 
voluntarily closed their cases. These two studies raise important and 
troubling questions about whether African-Americans and Hispanics are 
being treated differently than whites.
    Finally, a study undertaken in two rural counties in northern 
Virginia focused on the interactions between welfare caseworkers and 
recipients.\10\ In this study, 39 recipients (22 African-American and 
17 white) were interviewed in early 1996 about their interactions with 
welfare department caseworkers: how frequently caseworkers notified 
them about job openings, the extent to which caseworkers emphasized 
further education, caseworker assistance in locating child care, 
caseworker assistance with transportation, and whether respondents 
believed that African-American and white clients were treated fairly by 
caseworkers.
---------------------------------------------------------------------------
    \10\ ``All Things Not Being Equal: Differences in Caseworker 
Support Toward Black and White Welfare Clients,'' Susan Gooden, 
(Harvard Journal of African American Public Policy, Volume IV 1998.)
---------------------------------------------------------------------------
    Except with regard to help with child care, respondents' views on 
these issues varied significantly by race. Fifty-nine percent of 
whites, but only 36 percent of African-Americans, indicated that their 
caseworkers were often or sometimes helpful in providing information 
about potential jobs. Forty-one percent of whites indicated that 
caseworkers encouraged them to go to school, particularly if they had 
not received a high school diploma. None of the African-Americans 
indicated that a caseworker had encouraged them to go to school. One 
white respondent stated: ``They encouraged me to get my GED. I've been 
in school since October, working on the GED. I hope to graduate in the 
spring. My worker kept telling me `You're smarter than you think.' She 
really convinced me that I could do it.'' An African-American 
respondent stated: ``They talk to you any kind of way. They say: `Go 
get a job.' I told them that I only had two parts left on my GED and I 
wanted to finish, they said: `That's not what this program is about.' 
''
    About two-thirds of all respondents in this Virginia study 
indicated they had transportation barriers, and all respondents 
indicated that the welfare agency provided vouchers to pay for gasoline 
to those who needed them. However, 47 percent of whites indicated that 
caseworkers indicated they would provide additional forms of 
transportation assistance, while none of the African-Americans reported 
receiving such offers of help. For example, one white respondent 
indicated: ``I own my car but I need a brake job. I contacted DSS 
[Department of Social Services] about my car. She told me she will try 
to come up with some money to get it fixed.'' An African-American 
respondent stated: ``DSS gives me money for gas. I have a car and a 
job, but it needs about $300 worth of work, so I can't use it. I asked 
DSS if they had any funds for car repairs, but she said I should try to 
use gas vouchers to take a cab or ride with a friend until I save up 
enough money to get my car fixed.'' Finally, nearly half (45 percent) 
of African-Americans--as well as 18 percent of whites--indicated that 
African-American clients were not treated fairly by DSS.
    While this study looked at a very small sample of recipients, it 
highlights the importance of a range of discretionary actions by 
caseworkers concerning the availability of services that may 
significantly affect the well-being of families receiving assistance 
and the ability of adults in those families to prepare for and succeed 
in employment. It also shows the potential for differential treatment 
based on race or ethnicity in the interactions between recipients and 
caseworkers.
State Responses to Initial Employment Results
    Evidence of changing state policies and administration in response 
to the initial employment results achieved during the first few years 
of TANF implementation is still limited, but a set of emerging 
directions appears to be taking shape.
            Postemployment Retention Services
    States have responded to the low wages and unstable employment of 
many current and former recipients by expanding an array of services 
intended to increase job retention, promote rapid reemployment after a 
job loss, or both. As of October 1999, about two-thirds of the states 
were providing case management for at least some recipients who became 
employed or left cash assistance, and a similar number were providing 
supportive services such as transportation aid, purchase of work 
clothing or tools, and payment of work-related fees. Half a dozen 
states were providing short-term cash payments to help cover work 
expenses, several offered cash bonuses for keeping or finding jobs or 
leaving TANF, and several provided cash payments to cover 
emergencies.\11\ Many of these postemployment benefits and services are 
new and little information about utilization exists.
---------------------------------------------------------------------------
    \11\ State Policy Documentation Project, (2000), www.spdp.org.
---------------------------------------------------------------------------
            Postemployment Job Advancement Services
    As of October 1999, about a third of states (16) had policies to 
provide post-TANF services aimed at job advancement. These include 
contracting directly for education, training, employment, and career 
counseling services; tuition assistance; and individual training 
accounts.\12\ A small but growing number of states--about half a 
dozen--are creating broader initiatives that are designed to serve 
working, low-income families generally. In some cases, education and 
training are provided at the worksite, with services customized to 
employer needs. As with postemployment retention services, it is 
unclear how many families are actually involved in these initiatives, 
but numbers appear quite small.
---------------------------------------------------------------------------
    \12\ Id.
---------------------------------------------------------------------------
            Changes In Strategies For The Unemployed
    Beyond creating Postemployment services, a third state response to 
the problems of low wages and job loss has been to change strategies 
for unemployed parents to place greater emphasis on helping them access 
better jobs. Some states are creating incentives for localities to 
match parents with higher paying jobs as opposed to any job. In 1999 
and 2000, a limited number of states expanded access to postsecondary 
education or training for TANF recipients. These actions included 
changing work requirements to allow participation in postsecondary 
education or training to meet all or most of a parents work requirement 
beyond the twelve months that could count toward federal participation 
rates; using TANF funds to create additional work-study positions; 
creating separate state student aid programs for low-income parents 
funded with state maintenance of effort dollars; and stopping the 
federal or state time limit clock for recipients who are full-time 
students.\13\ While these state actions may suggest an emerging trend, 
the overall picture remains one of substantial limitations on access to 
education and training for TANF recipients in most states.
---------------------------------------------------------------------------
    \13\ See State Policy Documentation Project, 2000 (www.spdp.org) 
for a full list of state TANF policies toward postsecondary, and 
Wamhoff and Strawn, forthcoming 2001, for summary of recent 
developments.)
---------------------------------------------------------------------------
Work Programs under TANF
    As in other areas, states have broad authority to structure work 
programs including providing wage subsidies to employers who hire 
recipients, creating transitional jobs that offer temporary employment 
and skill development activity to enhance participants' employability 
and help them move into unsubsidized employment, and programs in which 
participants perform work in exchange for their welfare benefits known 
variously as work experience, community service, or workfare.
            Workfare--Limited State Interest and Questionable Results
    Many observers predicted that states would make wide spread use of 
workfare (work experience, community service, etc.) because they are 
fully countable toward TANF work participation requirements. However, 
with the exception of a few states and New York City, there has been 
relatively little use made of these programs. While it is difficult to 
say with great certainty why more use has not been made of these 
program options, there are a number of factors which may have 
contributed to state and local decisions not to implement such programs 
on a large scale.
    <bullet> There is no evidence that work experience programs are 
effective in boosting employment and earnings for participants. 
Research conducted during the 1980's on several work experience 
programs demonstrated that in every site but one there were no positive 
employment and earnings impacts that resulted from participation in the 
programs.\14\
---------------------------------------------------------------------------
    \14\ ``Unpaid Work Experience for Welfare Recipients: Findings and 
Lessons from MDRC Research,'' Brock, Butler, and Long (MDRC 1993).
---------------------------------------------------------------------------
    <bullet> As discussed above, states' responses to the 1996 law have 
been predominantly focused on efforts to help participants gain access 
to unsubsidized employment, not on simply engaging people in activities 
while they are receiving benefits.
    <bullet> One of the explicit purposes of many workfare programs has 
been to discourage families from receiving assistance. ``One major 
objective of this approach--call it ``pure'' workfare--has been to 
reduce welfare dependency by reducing the real benefits of welfare; and 
this has been accomplished by assigning a work requirement to the 
receipt of welfare benefits. Thus the work requirement was expected 
both to deter individuals from enrolling in AFDC, as well as to 
encourage earlier exits than would otherwise occur.'' \15\
---------------------------------------------------------------------------
    \15\ Lessons for Welfare Reform: An Analysis of the AFDC Caseload 
and Past Welfare-to-Work Programs, Dave O'Neill and June O'Neill (W.E. 
Upjohn Institute, 1997) pp. 76-77.
---------------------------------------------------------------------------
    <bullet> Large scale programs can be costly and are difficult to 
administer effectively. MDRC data showed annualized cost per filled 
slot ranging from $700 to $8,200.\16\
---------------------------------------------------------------------------
    \16\ ``Unpaid Work Experience for Welfare Recipients: Findings and 
Lessons from MDRC Research,'' Brock, Butler, and Long (MDRC 1993).
---------------------------------------------------------------------------
    <bullet> Large-scale programs raise critical concerns about the 
potential displacement of regular employees in the organizations where 
participants are placed.\17\
---------------------------------------------------------------------------
    \17\ Litigation in New York City, Saunders v. City of New York, 
includes information for example that during The number of City Parks 
workers declined from 1,251 in December 1993 (the month before the 
Guiliani Administration took office) to 802 in November 1998, while the 
number of workfare workers increased from 836 in October 1994 to over 
6,000 in September of 1998.
---------------------------------------------------------------------------
    Programs that involve the provision of services that are of value 
to an employer require careful monitoring and oversight to assure that 
regular employees are not displaced, and to assure that participants' 
rights under laws to protect employees generally are fully protected.
            Transitional Jobs Programs--A Promising Model
    For the past several years CLASP has provided technical assistance 
to a number of state and local TANF agencies and officials to help them 
design and implement programs that provide time-limited employment in 
combination with skill development activities and other support 
services for TANF recipients who have been unsuccessful in finding 
unsubsidized jobs after participation in job search and other programs. 
Many of these programs are funded by a combination of TANF and Welfare-
to-Work block grant funds, and they are fully countable toward TANF 
work participation requirements. The potential advantages offered by 
such programs over work experience/workfare programs is that provide 
work wages rather than mandating work for welfare in exchange for 
benefits. This makes it more likely that participants, supervisors, and 
prospective future employers will attach more importance to these work 
relationships, and that they will generate much greater skill 
development than in workfare type programs.
    Currently two states, Washington and Vermont, and over 20 cities 
and other local jurisdictions are operating such programs, typically on 
small scale.\18\ Washington state, the largest program, currently 
enrolls about 1,500 to 2,000 participants in transitional jobs at any 
point in time. Some of these programs have shown extremely promising 
results in terms of employment outcomes. For example, a study in 
Washington State revealed that two-thirds of participants were employed 
after leaving the program, and that there were high levels of 
satisfaction with the program by participants, site supervisors and 
program managers.\19\ There is little information yet about job 
retention or post-program advancement. Nonetheless, this new set of 
transitional jobs programs offers an attractive model, particularly for 
jurisdictions that are turning their attention to those clients who 
have significant barriers to employment, and may also offer an 
effective model for clients for whom a combination of work experience 
and skill development may lead to substantially higher paying starting 
jobs than might otherwise be available.\20\ Federal support for 
research and evaluation, as well as technical assistance for innovative 
program models such as these should be included as part of 
reauthorization.
---------------------------------------------------------------------------
    \18\ See an overview and survey of TANF and Welfare-to-Work funded 
Transitional Employment programs from Richer and Savner, CLASP, 
forthcoming, Spring 2001.
    \19\ ``Community Jobs: Outcomes Assessment and Program 
Evaluation,'' Case, Burchfield and Sommers, (Economic Opportunity 
Institute, 2000).
    \20\ See also, ``Transitional Jobs: A Bridge Into the Workforce for 
Hard-to-Employ Welfare Recipients,'' Anne Kim, (Progressive Policy 
Institute, March 2001).
---------------------------------------------------------------------------

Recommendations for TANF Reauthorization
    The following recommendations share a common theme that goes beyond 
the goals of employment entries and caseload reduction to poverty 
reduction and the need for each state to assist low-income families to 
achieve an adequate and stable source of income. These recommendations 
suggest ways to achieve these goals that combine state flexibility, a 
clear statement of these expanded purposes, and a meaningful system of 
accountability that assures good faith state efforts to achieve agreed 
upon goals and meaningful protections for the fair treatment for those 
who receive or who seek to receive assistance and/or services from 
state and local agencies.
    First: The purposes of TANF should be revised to include an express 
goal of reducing family poverty and promoting family economic well-
being, and to make explicit that the goal of promoting work includes 
supporting employment retention and workforce advancement for needy 
families. The purposes of TANF affect whether particular expenditures 
are possible and have an important signaling effect in communicating 
Congressional expectations. Modifying the purposes would provide a 
powerful statement that the next stage of TANF implementation envisions 
higher goals than caseload reduction.
    Second: States should be required to describe in their state plans 
how TANF and other resources will be used and coordinated in efforts to 
promote employment retention and advancement and enhance family 
economic well-being. This would reinforce the signaling effects, and 
perhaps help foster coordination. While the federal government should 
not mandate a single strategy, states should be expected to expressly 
articulate the strategies that they intend to use.
    Third: Measures of state performance in TANF should place a strong 
emphasis on poverty reduction, higher wages, sustained employment and 
earnings growth. The law currently provides for $200 million per year 
for high performance bonuses, and HHS has allocated those funds based 
on state outcomes including employment entries, retention, and earnings 
gains. In the context of the overall block grant structure, the 
existing high performance bonus involves a small amount of money, and 
generates relatively little attention.
    Changes should be considered that explicitly address the extent to 
which low-income families develop income in excess of the federal 
poverty level. In addition, rather than framing these performance 
bonuses as an interstate competition, consideration should be given to 
a system that more explicitly targets continuous improvement for each 
state. This could be achieved by measuring each state's performance 
against its own performance in prior years, and in comparison to 
benchmarks set for each state by agreement between state and federal 
officials. State performance in relation to these benchmarks might 
generate both penalties for extremely weak performance, and bonus for 
very strong performance. The performance measurement system established 
under the Workforce Investment Act provides a potential model to be 
considered in the context of TANF reauthorization.
    There are a set of difficult issues to consider in how goals would 
be set, how performance would be measured, and how adjustments would be 
made for economic conditions and unforeseen circumstances; at the same 
time, it is fundamental that in a context of broad flexibility in use 
of resources, the federal focus should be on measuring and seeking 
accountability for key outcomes. In any case, performance standards 
should measure outcomes for families receiving TANF assistance and for 
a broader group of low-income families. Many of the ways states now use 
TANF resources involve efforts to build supports outside the welfare 
system so that families need not seek TANF assistance. A declining 
share of block grant funds are actually expended on TANF assistance 
recipients, and measuring state performance should consider labor 
market participation and poverty status of all low-income families, not 
just those in the cash assistance system.
    Fourth: In the long run, a shift to outcome-based measures rather 
than participation rates would be desirable, in the interim, if 
participation rates are continued:
          <bullet> the definition of countable activities should be 
        broadened by removing restrictions on education and training 
        and by including other activities agreed upon by participants 
        and state and local agencies as being consistent with 
        individual employment plans,
          <bullet> states should have increased flexibility to 
        recognize that there may be periods of time and circumstances 
        when caregiving for family members may make participation in 
        employment related activities inappropriate, and
          <bullet> participation rate reductions should be based on 
        states' success in placing individuals into stable employment 
        rather than their success in reducing the caseload.
    In a context of a smaller caseload including many individuals with 
significant employment barriers, the restrictive listing of countable 
activities works against states' ability to structure services and 
individualized plans for individuals with multiple barriers and severe 
basic skills deficits. Because of the caseload reduction credit, many 
states now have very low effective participation rates. The first 
impulse for some may be to want to raise rates, but simply raising 
rates without considering what counts and without addressing the 
perverse incentives flowing from the caseload reduction credit would 
only exacerbate the risks that states would not develop effective 
service strategies for families with multiple barriers. The 
recommendations noted above will further the goal of providing 
meaningful and effective employment services to the broadest number of 
individuals.
    Fifth: The federal agencies should vigorously monitor state and 
local performance regarding implementation of civil rights and 
employment rights protections afforded under current law, and should 
assistant participants with vigorous enforcement when appropriate. 
Several studies have identified troubling and apparently discriminatory 
treatment of racial and ethnic minorities. More broadly, there appear 
to be differential results for various racial and ethnic groups and 
little information as to why these are occurring. A two-fold strategy 
of further monitoring and research to more clearly understand what is 
happening is essential to insure that all program participants are 
treated fairly and equitably. In addition, as the reality of 
discriminatory treatment has arisen, vigorous enforcement of civil 
rights and employment rights laws becomes an increasingly important 
element of federal oversight and this federal role should be 
highlighted and reinforced during the reauthorization process.

                                <F-dash>


    Chairman Herger. Our third witness on the panel is Vee 
Burke, specialist in income maintenance at the Congressional 
Research Service. Ms. Burke.

   STATEMENT OF VEE BURKE, SPECIALIST IN INCOME MAINTENANCE, 
      CONGRESSIONAL RESEARCH SERVICE, LIBRARY OF CONGRESS

    Ms. Burke. Good afternoon, chairman Herger and Members of 
the Subcommittee. My job today is to briefly review Federal 
policies and programs that help support needy families with 
children. I am to focus on work provisions. Federal cash 
welfare has a long history. It stretches back to the Great 
Depression. But work rules are much more recent. They didn't 
enter the program for 36 years. Over the years many policy 
changes have occurred. To whom should aid be given? This is one 
of the questions that Father Sirico raised. On what terms?
    The most significant change over the years concerning 
welfare and work has come in perceptions about work. Who can 
work? Who should work? How can work effort be increased? Do 
jobs bring self-sufficiency? Chart 1 of my testimony summarizes 
the history of work provisions in the program of Aid to 
Families With Dependent Children. This chart, which is on page 
3, also shows work provisions in the successor program we have 
today, Temporary Assistance for Needy Families. It shows the 
progression from no-work requirement in the 1935 law to no-work 
exemption for adult recipients in the 1996 law.
    In 1935, when AFDC was started, benefits were allowed only 
for the child, and no-work obligation was imposed on the child. 
It was not until 1971 that Congress explicitly required welfare 
mothers, AFDC mothers, to register for work and training. This 
action was significant. It signaled that welfare mothers were 
no longer seen as outside the labor market. Now they were seen 
as people who should work. And it recognized the dramatic move 
of nonwelfare mothers into jobs.
    It also reflected frustration with the way welfare rolls 
were growing and with their character. By this time most 
children in the program were no longer paternal orphans. They 
had two living parents, but the father did not live at home. 
The 1971 work registration requirement exempted mothers with a 
child under 6. Congress lowered the child's threshold age to 3 
when it set up a more rigorous program called JOBS in 1988. 
Finally, in creating TANF in 1996, Congress exempted no adult 
recipient from work, but permitted States to exempt the parents 
of a child under 1.
    Along with TANF, many programs offer help to low-income 
parents who work or are able to work. We can classify them in 
two groups loosely, with regard to work rules and work 
supports. In the first group, which is shown in table 1 on page 
4, are TANF, Food Stamps and public housing as well as others. 
These are programs that generally require work or training or 
study in order to receive benefits. The table shows their work 
requirements, their rewards and their penalties. In the second 
group, which includes the earned income tax credit and the 
child care and development block grant, are programs that do 
not usually require work, but that generally help only people 
who do work or train or study. These programs provide work 
supports. Table 3 on page 9 shows State-by-State potential, not 
actual, but potential income that can be received by a single 
parent with two children who works 40 hours weekly all year 
long at the minimum wage, State by State. The income is shown 
from net wages (net of payroll taxes), TANF, EITC and Food 
Stamps. The table shows that the combination of earnings and 
the EITC slightly exceeds the poverty threshold for a three-
person family in all States. Addition of Food Stamps and in 
some States, TANF, raises the income somewhat. However, these 
families are still near poor and they might be eligible for 
support services.
    A word of caution, please don't consider these tables to 
show things that everyone gets. A given family does not receive 
all the potential benefits shown. For example, only a minority 
of eligible families actually receive housing subsidies.
    To sum up, welfare and welfare policy, it can be said that 
the current trend is to treat most parents as potential 
workers. They can and should work, and their work efforts 
deserve support. They are required to work and increasingly 
they are rewarded if they do so. But at the same time, many 
evaluations have found that even mandatory Welfare to Work 
programs that succeed in moving people to jobs do not raise 
their overall income. Instead they change the composition of 
income, increasing the share from earnings.
    Chairman Herger. Thank you very much, Ms. Burke.
    [The prepared statement of Ms. Burke follows:]

Statement of Vee Burke, Specialist in Income Maintenance, Congressional 
                 Research Service, Library of Congress

    My task today is to briefly review federal policies and programs 
that support needy families with children, with a focus on work 
provisions. Federal cash welfare has a long history, stretching back to 
the Great Depression. But work rules are much more recent. Over the 
years many policy changes have occurred. To whom should aid be given? 
Why? The most significant change has come in perceptions about work. 
Who can and should work? How can work effort be increased? Do jobs 
bring self-sufficiency?
    History. Chart 1 summarizes the history of work provisions in the 
program of Aid to Families with Dependent Children (AFDC) and its 1996 
successor, Temporary Assistance for Needy Families (TANF). It shows the 
progression from no work requirement in 1935 to no work exemption in 
1996.
    As the chart shows, it was not until 1971 that Congress explicitly 
required AFDC mothers to register for work and training. This action 
signaled that welfare mothers were no longer seen as outside the labor 
market, and it recognized the dramatic move of non-welfare mothers into 
jobs. It also reflected frustration with the size and character of AFDC 
rolls. By this time most children in the program had two living 
parents, but the father did not live at home.
    The 1971 work registration requirement exempted mothers with a 
child under age 6. Congress lowered the child's threshold to age 3 (and 
permitted states to reduce it to age 1) in 1988, when it set up a more 
rigorous work and training program called Job Opportunities and Basic 
Skills training (JOBS). Finally, in creating TANF in 1996, Congress 
exempted no adult from work, but permitted states to exempt the parent 
of a child under one.
    The Welfare ``System'' for Families. Along with TANF, many programs 
offer help to low-income parents who work or are able to work. Major 
programs can be classified in two groups with regard to work rules and 
work supports.
    In the first group, which includes TANF, food stamps, and public 
housing, are programs that generally require work, training, or study 
in order to receive benefits. Table 1 shows their work requirements, 
rewards and penalties.
    In the second group, which includes the Earned Income Tax Credit 
and the Child Care and Development Block Grant (CCDBG), are programs 
that do not usually require work, but that generally help only those 
who do work, train, or study. Table 2 shows what supports they provide.
    Table 3 shows, state-by-state, potential income (wages, TANF, EITC, 
and food stamps) of a single parent with two children who works 40 
hours weekly at the minimum wage for 1 year. As the table shows, the 
combination of earnings (net of social security payroll taxes) and food 
stamps slightly exceeds the 1999 poverty threshold for a three-person 
family in all states. Addition of EITC raises their income 
significantly. However, these families generally would remain ``near-
poor,'' and might be eligible for support services, including services 
funded by state TANF programs.
    A word of caution. It should not be assumed that a given family 
receives all the potential benefits shown in Tables 1, 2, and 3. For 
example, only a minority of eligible families actually receive housing 
subsidies.
    To sum up welfare/work policy, it can be said that the current 
trend is to treat most parents as potential workers and to support 
their work efforts. They are required to work and, increasingly, 
rewarded if they do. At the same time, many evaluations have found that 
even mandatory welfare-to-work programs that succeed in moving 
recipients to jobs often do not raise their overall income. Instead, 
they change the composition of income, increasing the share from 
earnings.

                 Chart 1. WORK AND AFDC/TANF: 1935-1996

    <bullet> 1935--Original AFDC purpose--encourage at-home care of 
needy children with only one able-bodied parent. No work requirement. 
No payment for mother. Program called Aid to Dependent Children (ADC)
    <bullet> 1950--Payments allowed for mother.
    <bullet> 196l--State AFDC programs allowed to aid children with 
unemployed father.
    <bullet> 1962--State AFDC programs allowed to require recipients to 
work (community work and training programs) in exchange for grant.
    <bullet> 1967--Work Incentive Program (WIN). Work rewards added. 
States required to refer ``appropriate'' recipients for employment and 
training.
    <bullet> 1971--WIN amended. Mothers with no child under 6 required 
to participate.
    <bullet> 1988--Family Support Act. Mothers with no child under 3 
required to participate in new education, work, and training program, 
the Job Opportunities and Basic Skills Training (JOBS) program. States 
permitted to require work of mothers when youngest child reached first 
birthday.
    <bullet> 1996--Repeal of AFDC and JOBS. Establishment of TANF. 
States required to achieve specific and rising work participation rates 
in programs of their own design. Fiscal penalties for failure. No work 
exemptions (but states allowed to exempt mothers with child under age 
one).

              TABLE 1.--WORK PROVISIONS OF MAJOR INCOME-TESTED PROGRAMS FOR FAMILIES WITH CHILDREN
----------------------------------------------------------------------------------------------------------------
                                                                                               Interaction with
             Program               Work requirement      Work reward/        Work sanction    work provisions of
                                                            support                             other programs
----------------------------------------------------------------------------------------------------------------
TANF............................  States must         States set policy.  States must reduce  Food stamp
                                   require a parent/   In calculating      or end benefits     benefits can be
                                   caretaker who       benefits (and in    for work refusal    merged with TANF
                                   receives TANF to    determining         without good        benefits in
                                   engage in work      initial             cause. For first    programs of
                                   (as defined by      eligibility) most   work refusal, 19    ``work
                                   the state) after    states disregard    states end all      supplementation''
                                   a maximum of 24     a portion of        benefits until      (jobs subsidized
                                   months of ongoing   earnings (one       compliance or for   with welfare
                                   cash aid. States    state ignores all   a minimum period,   benefits) and in
                                   must achieve a      earnings below      ranging from 1 to   workfare programs
                                   certain work        the federal         3 months. States    (in which
                                   participation       poverty             have options to     recipients work
                                   rate by adult       guideline.). As a   reinforce TANF      in exchange for
                                   recipients. To be   result of state     sanction through    benefits).
                                   counted as a work   variations in       food stamp and
                                   participant in      benefits and        Medicaid
                                   determining the     treatment of        penalties. See
                                   state's official    earnings,           below. (Note: If
                                   work                eligibility         a state does not
                                   participation       cutoffs for a       sanction work
                                   rate, the           single-parent       refusal by a TANF
                                   recipient must      family with two     adult, it itself
                                   engage in 1 of 12   children after 4    is subject to a
                                   listed activities   months on a job     loss in TANF
                                   for an average of   range from $193     funding.).
                                   at least 30 hours   in gross earnings
                                   weekly--fewer if    (Alabama) to
                                   caring for child    $1,986 (Alaska).
                                   under 6, more if    These cutoff
                                   in a two-parent     limits (known as
                                   family. (Note:      breakeven levels)
                                   The required work   exceed $1,000
                                   rate--45% for       monthly in 16
                                   families with an    jurisdictions,
                                   adult recipient     but are below
                                   in FY2001--is       $700 in 18
                                   lowered for         jurisdictions.
                                   caseload            Most state TANF
                                   reductions from     programs offer
                                   FY1995 levels not   transitional
                                   caused by changed   child care to
                                   eligibility         families who take
                                   rules.).            a job. For
                                                       transitional
                                                       Medicaid and food
                                                       stamp rules, see
                                                       below. Other TANF-
                                                       funded
                                                       transitional
                                                       services include
                                                       transportation
                                                       and housing
                                                       subsidies, job
                                                       retention and
                                                       skill enhancement
                                                       services, and
                                                       case management.
                                                       Families may be
                                                       eligible for
                                                       these services
                                                       until income
                                                       reaches 150% to
                                                       250% of the
                                                       poverty level.
Food stamps.....................  a. If an            Federal law         a. Persons who are  See TANF above.
                                   individual          requires            disqualified from
                                   receives TANF,      disregard of 20%    TANF because of a
                                   that program's      of gross earnings   work violation
                                   work rules apply.   in calculating      also are
                                   b. If an            benefits (but       ineligible for
                                   individual is not   typically not in    food stamps. Food
                                   on TANF, food       deciding            stamp benefits
                                   stamp work rules    eligibility). For   may not be
                                   apply. In           a three-person      increased because
                                   general,            family with         of a TANF cash
                                   unemployed adults   earned income at    penalty. Further,
                                   able to work who    the maximum         the state may cut
                                   are not caring      income cutoff,      the family's food
                                   for a disabled      the 20% disregard   stamp benefit by
                                   dependent or a      equals at least     up to 25%. (Note:
                                   child under age 6   an extra $90        13 states take
                                   must fulfill        monthly. When       this option.) b.
                                   state-established   calculating         Persons failing
                                   employment          benefits, money     to comply with
                                   requirements,       spent on            food stamp work
                                   which can include   dependent care      rules are
                                   working in          related to work     ineligible for
                                   exchange for the    or training is      food stamps (for
                                   benefit             disregarded; this   1 to 6+ months,
                                   (workfare),         disregard           or permanently,
                                   training, job       typically does      depending on
                                   search,             not affect          whether there
                                   education, or       eligibility.        have been
                                   other activities.   Waivers and         previous
                                   However, states     recently issued     violations). And
                                   may exempt any      (but not yet        states may
                                   category of         implemented)        disqualify a
                                   persons.            regulations allow   household (for up
                                                       states to           to 180 days) if
                                                       ``freeze''          the household
                                                       benefits for        head does not
                                                       those with          comply. Food
                                                       earnings            stamp eligibility
                                                       (including those    is barred for
                                                       leaving TANF) for   persons who
                                                       3-6 months.         voluntarily quit
                                                       Within limits,      a job or who
                                                       states must         substantially
                                                       provide support     reduce work
                                                       for participants    effort without
                                                       in employment/      good cause.
                                                       training programs
                                                       (e.g.,
                                                       transportation,
                                                       child care).
                                                       However,
                                                       virtually no
                                                       federal dollars
                                                       for this support
                                                       may be used for
                                                       TANF recipients,
                                                       and no more than
                                                       20% may be used
                                                       for other
                                                       families with
                                                       children. Federal
                                                       law bars other
                                                       need-tested
                                                       programs from
                                                       counting food
                                                       stamps as income.
Medicaid........................  No work             If a family loses   States may end
                                   requirement.        TANF eligibility    Medicaid for
                                                       because of          adults who refuse
                                                       earnings (or        TANF work
                                                       hours of work),     requirements (but
                                                       state must          must continue
                                                       continue Medicaid   Medicaid for the
                                                       for 12 months.      children).
                                                       During second 6
                                                       months, a premium
                                                       may be charged,
                                                       services may be
                                                       limited, and an
                                                       alternate
                                                       delivery system
                                                       may be used.
                                                       (Also, federal
                                                       law allows states
                                                       to impose nominal
                                                       cost-sharing
                                                       charges on some
                                                       recipients and
                                                       services.).
Section 8 low-income housing      No work             No provision......  No provision......
 assistance.                       requirement.
Low-rent public housing.........  Residents must      If family chooses   Local housing
                                   participate in an   an income-based     authority may
                                   economic self       rent and its        refuse to renew
                                   sufficiency         income rises        lease for failure
                                   program or          because of          to comply with
                                   contribute 8        employment, the     the work
                                   hours monthly of    increased           requirement.
                                   community service   earnings are not
                                   unless they are     to be used to
                                   engaged in          determine its
                                   education or a      rental payment
                                   work-related        for 1 year; after
                                   activity or are     1 year, the
                                   at least 62 years   rental increase
                                   old.                is phased in over
                                                       a 2-year period.
Pell grants.....................  None. Grantees      TANF, food stamps,    ................  Undergraduate
                                   must maintain       and any other                           study does not
                                   satisfactory        federal benefit                         count as a
                                   progress in their   program must                            federal work
                                   undergraduate       disregard Pell                          activity under
                                   study.              grants when                             TANF. Student
                                                       determining a                           parents generally
                                                       student's                               are exempt from
                                                       eligibility or                          food stamp work
                                                       amount of aid.                          rules.
Federal Work-Study (FWS) program  Students must work  Earnings under the    ................  Undergraduate
                                   part-time.          program are                             study does not
                                                       limited to the                          count as a
                                                       student's need.                         federal work
                                                       TANF, food                              activity under
                                                       stamps, and any                         TANF. Student
                                                       other federal                           parents generally
                                                       benefit program                         are exempt from
                                                       must disregard                          food stamp work
                                                       FWS wages when                          requirements
                                                       determining a
                                                       student's
                                                       eligibility or
                                                       amount of aid.
Supplemental Security Income      No work             A portion of        SSI benefits are
 (SSI) (disabled caretaker/        requirement, but    earnings ($85       suspended until
 parent).                          persons must        monthly plus one-   compliance.
                                   participate in      half of the rest)
                                   rehabilitation      is disregarded in
                                   services if they    calculating
                                   appear likely to    benefits. Special
                                   benefit.            SSI cash benefits
                                                       are paid to those
                                                       with earnings
                                                       above the normal
                                                       income cutoff
                                                       level ($740
                                                       monthly in
                                                       counted
                                                       earnings). Some
                                                       groups who lose
                                                       SSI because of
                                                       earnings continue
                                                       to be eligible
                                                       for Medicaid
                                                       coverage. Persons
                                                       with Plans for
                                                       Achieving Self
                                                       Support (PASS)
                                                       can set aside
                                                       earned/unearned
                                                       income for a work
                                                       goal without
                                                       having it affect
                                                       their eligibility.
----------------------------------------------------------------------------------------------------------------


                 TABLE 2.--WORK SUPPORTS IN SOME OTHER MAJOR PROGRAMS FOR FAMILIES WITH CHILDREN
----------------------------------------------------------------------------------------------------------------
                                                                                               Interaction with
             Program               Required activity     Work support        Income test?       other benefits
----------------------------------------------------------------------------------------------------------------
Earned Income Tax Credit<SUP>1</SUP>.......  To qualify must     Credit equals 34%   Yes...............  By law, EITC
                                   have earnings.      of earnings up to                       payments must be
                                                       $7,140 in                               disregarded as
                                                       earnings for one                        income and (for 2
                                                       child (maximum                          months) as an
                                                       credit, $2,428);                        asset by
                                                       and 40% of                              Supplemental
                                                       earnings up to                          Security Income
                                                       $10,020 in                              (SSI), food
                                                       earnings for more                       stamps, Medicaid,
                                                       than one child                          and low-income
                                                       (maximum credit,                        housing programs.
                                                       $4,008). Credits                        States decide
                                                       begin to phase                          treatment of EITC
                                                       out at income                           under TANF. Forty-
                                                       above $13,090.                          seven states have
                                                       They end at                             adopted the above
                                                       $28,281 (one                            rules for TANF.
                                                       child) and                              One state
                                                       $32,121 (more                           disregards EITC
                                                       than 1 child).                          altogether. Food
                                                       Credit is                               stamp disregards
                                                       refundable-amount                       EITC as income
                                                       that exceeds                            and, for 1 year,
                                                       income tax                              as an asset. EITC
                                                       liability is paid                       is not granted
                                                       as a check from                         for participation
                                                       the U.S. Treasury.                      by TANF
                                                                                               recipients in
                                                                                               work experience
                                                                                               or community
                                                                                               service projects.
Child Care and Development Block  To qualify, parent  Subsidized child    Yes...............
 Grant.                            must work or        care. Federal law
                                   engage in school    requires parental
                                   or training (or     cost-sharing,
                                   child must be in    with amount of
                                   need of             copayment based
                                   protective          on income and
                                   services).          family size.
                                                       However, state
                                                       may waive
                                                       copayment for
                                                       families below a
                                                       state-defined
                                                       ``poverty'' level.
Nutrition programs for children   Most children in    Federally           Yes--Most often     Where eligibility
 in day care or after-school       these programs      subsidized meals    benefits take the   is individually
 programs.                         have working        and snacks,         form of free        determined,
                                   parents.            including free or   meals and snacks    receipt of TANF
                                                       reduced-price       for children in     or food stamps
                                                       meals and snacks    low-income school   may automatically
                                                       for needy           areas.              qualify the child
                                                       children.                               for free meals/
                                                                                               snacks.
Adult training, Workforce         To qualify for      Training services   Yes, families with
 Investment Act (WIA).             training            include             income above
                                   services, parent    occupational        ``self
                                   must be             skills training,    sufficiency''
                                   unemployed or       on-the-job          levels
                                   employed, but       training,           established by
                                   need training       entrepreneurial     states are
                                   services that       training, skill     ineligible.
                                   lead to ``self      upgrading, job      Locality must
                                   sufficiency''       readiness           give priority to
                                   defined as at       training, and       recipients of
                                   least the Lower     adult education     TANF, SSI,
                                   Living Standard     and literacy        General
                                   Income Level        activities in       Assistance,
                                   (which ranges       conjunction with    refugee cash
                                   from $24,510 to     other training.     assistance and
                                   $29,390 yearly      ``Followup''        other low-income
                                   for a family of     services must be    persons for
                                   four in the 48      offered for at      intensive
                                   contiguous          least 12 months     services when
                                   states).            to persons placed   funds are limited.
                                                       in unsubsidized
                                                       jobs. Localities
                                                       may offer
                                                       supportive
                                                       services (such as
                                                       transportation,
                                                       dependent care,
                                                       housing) to
                                                       persons unable to
                                                       obtain them
                                                       through other
                                                       programs.
Social Services Block Grant.....  None..............  States decide what  State option.
                                                       groups to serve,    However, any TANF
                                                       and how. In FY      funds transferred
                                                       1998, 9.5% of       to SSBG may be
                                                       funds were used     used only for
                                                       for child day       children and
                                                       care.               families whose
                                                                           income is below
                                                                           200% of federal
                                                                           poverty guideline.
State-Childrens' Health           None..............  Subsidized health   Yes, eligibility    S-CHIP is not
 Insurance Program (S-CHIP).                           insurance for       limits are          available to
                                                       children.           established by      families eligible
                                                                           states within       for Medicaid
                                                                           federal
                                                                           guidelines.
----------------------------------------------------------------------------------------------------------------
<SUP>1</SUP> Fifteen jurisdictions supplement the federal EITC with state earned income tax credits (generally calculated
  as a percentage of the federal EITC). Ten states have refundable credits (Colorado, the District of Columbia,
  Kansas, Maryland, Massachusetts, Minnesota, New Jersey, New York, Vermont, and Wisconsin); five have non-
  refundable credits (Illinois, Iowa, Maine, Oregon, and Rhode Island). Guam and the Virgin Islands have
  territorial tax systems that mirror the Internal Revenue Code, including EITC (however, revenues foregone and
  refunds paid because of their EITC affect their own territorial treasuries, not the U.S. Treasury).


 TABLE 3.--EARNINGS AND SELECTED MAJOR BENEFITS FOR A SINGLE PARENT WITH TWO CHILDREN, WORKING 40 HOURS WEEKLY AT MINIMUM WAGE FOR ONE YEAR (AS OF JULY
                                                                          2000)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                    As a percent of the 1999 poverty
---------------------------------------------------------------------------------------------------------------                 threshold
                                                                                                               -----------------------------------------
                             State                                Net <SUP>1</SUP>   EITC \2\   TANF      Food      Total     Net                     Food
                                                                earnings                    stamps \3\          earnings   EITC    TANF   stamps   Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama.......................................................     9893      3888      492      1773     16046     73.7     29.0     3.7    13.2   119.5
Alaska........................................................    10853      3888     6831         0     21572     80.9     29.0    50.9     0.0   160.7
Arizona.......................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Arkansas......................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
California....................................................    11045      3888     2882       756     18571     82.3     29.0    21.5     5.6   138.4
Colorado......................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Connecticut \4\...............................................    11813      3867     7632      2208     25520     88.0     28.8    56.9    16.4   190.1
Delaware......................................................    10853      3888      588      1504     16833     80.9     29.0     4.4    11.2   125.4
Dist. of Col..................................................    11813      3867        0      1428     17108     88.0     28.8     0.0    10.6   127.5
Florida.......................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Georgia.......................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Hawaii--Exempt................................................    10085      3888     4489      2784     21246     75.1     29.0    33.4    20.7   158.3
Hawaii--Non-Exempt............................................    10085      3888     2785      3300     20058     75.1     29.0    20.7    24.6   149.4
Idaho.........................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Illinois......................................................     9893      3888      953      1644     16378     73.7     29.0     7.1    12.2   122.0
Indiana.......................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Iowa..........................................................     9893      3888      827      1680     16288     73.7     29.0     6.2    12.5   121.3
Kansas........................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Kentucky......................................................     9893      3888      524      1764     16069     73.7     29.0     3.9    13.1   119.7
Louisiana.....................................................     9893      3888     1440      1488     16709     73.7     29.0    10.7    11.1   124.5
Maine.........................................................     9893      3888     2444      1188     17413     73.7     29.0    18.2     8.9   129.7
Maryland......................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Massachusetts--Exempt.........................................    11525      3888     2124       864     18401     85.9     29.0    15.8     6.4   137.1
Massachusetts--Non-Exempt.....................................    11525      3888     1944       912     18269     85.9     29.0    14.5     6.8   136.1
Michigan--Washtenaw County....................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Michigan--Wayne County........................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Minnesota.....................................................     9893      3888      691      3084     17555     73.7     29.0     5.1    23.0   130.8
Mississippi...................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Missouri......................................................     9893      3888     1013      1620     16414     73.7     29.0     7.5    12.1   122.3
Montana.......................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Nebraska......................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Nevada........................................................     9893      3888     1044      1608     16433     73.7     29.0     7.8    12.0   122.4
New Hampshire.................................................     9893      3888     1844      1368     16993     73.7     29.0    13.7    10.2   126.6
New Jersey....................................................     9893      3888      424      1793     15998     73.7     29.0     3.2    13.4   119.2
New Mexico....................................................     9893      3888      253      1848     15882     73.7     29.0     1.9    13.8   118.3
New York--New York City.......................................     9893      3888     1813      1380     16974     73.7     29.0    13.5    10.3   126.5
New York--Suffolk County......................................     9893      3888     3325       924     18030     73.7     29.0    24.8     6.9   134.3
North Carolina................................................     9893      3888      816      1677     16274     73.7     29.0     6.1    12.5   121.2
North Dakota..................................................     9893      3888     1200      1566     16547     73.7     29.0     8.9    11.7   123.3
Ohio..........................................................     9893      3888      620      1740     16141     73.7     29.0     4.6    13.0   120.2
Oklahoma......................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Oregon........................................................    12486      3713        0      1248     17447     93.0     27.7     0.0     9.3   130.0
Pennsylvania..................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Rhode Island..................................................    10853      3888     1792      1140     17673     80.9     29.0    13.4     8.5   131.7
South Carolina................................................     9893      3888      185      1868     15834     73.7     29.0     1.4    13.9   118.0
South Dakota..................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Tennessee.....................................................     9893      3888      676      1728     16185     73.7     29.0     5.0    12.9   120.6
Texas.........................................................     9893      3888      495      1772     16047     73.7     29.0     3.7    13.2   119.6
Utah..........................................................     9893      3888      656      1728     16165     73.7     29.0     4.9    12.9   120.4
Vermont.......................................................    11045      3888      494      1480     16907     82.3     29.0     3.7    11.0   126.0
Virginia......................................................     9893      3888     4668       528     18977     73.7     29.0    34.8     3.9   141.4
Washington....................................................    12486      3713        0      1248     17447     93.0     27.7     0.0     9.3   130.0
West Virginia.................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Wisconsin--Community Service..................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3   117.0
Wisconsin--W2 Transition \5\..................................      n/a       n/a      n/a       n/a       n/a      n/a      n/a     n/a     n/a     n/a
Wyoming.......................................................     9893      3888        0      1920     15701     73.7     29.0     0.0    14.3  117.0
--------------------------------------------------------------------------------------------------------------------------------------------------------
 ASource: Table first appeared in CRS Report RL30579, Welfare Reform: Financial Eligibility Rules and Cash Assistance Amounts under TANF and was
  prepared by the Congressional Research Service (CRS) based on a survey of the states.
 ANote: Puerto Rico is omitted from this table. It is not covered by the federal income tax and has no EITC. A full-time minimum wage worker in Puerto
  Rico would be ineligible for TANF.
\1\ Earnings net of social security payroll taxes.
\2\ EITC amounts are based on tax year 2000 credit levels. Colorado, the District of Columbia, Kansas, Maryland, Massachusetts, Minnesota, New Jersey,
  New York, Vermont and Wisconsin have their own refundable earned income tax credits (generally calculated as a percentage of the federal EITC) but
  they are not shown in this table. Five states have nonrefundable credits (Illinois, Iowa, Maine, Oregon and Rhode Island).
\3\ Food stamp benefits are calculated using the standard deduction and the 20% earnings deduction, but not the excess shelter deduction.
\4\ Connecticut disregards all earnings below the poverty threshold in calculating both TANF and food stamp benefits.
\5\ Persons with jobs are not eligible for the Wisconsin program of transitional aid.

                                <F-dash>


    Chairman Herger. And just a question before Congressman 
Levin left, he mentioned his concern about the minimum wage and 
whether or not those who were going back to work were receiving 
enough. And it is interesting, just looking at your table 
number 3, I would like to ask you, I believe that indicates 
that if the recipients were receiving food stamps and has a 
full-time job, even if it was at minimum wage, and receiving 
the different supports that they could, that even at a minimum 
wage, they would be above the poverty level; is that correct?
    Ms. Burke. In most States they would be--it would take net 
earnings, that is, the earnings minus payroll taxes and the 
earned income tax credit to bring them above the poverty 
threshold for that family. In most places they still would be 
eligible for food stamps, and thus would get an even higher 
income. The net earnings would supply a varying amount because 
of State wage policy, but in the States where only the Federal 
minimum wage rate applies, you would generally have 74 percent 
of the poverty threshold from your earnings, net earnings. And 
the EITC would provide 29 percent of the poverty threshold. 
Together that would get you over the threshold. Now that is not 
to say that everyone works 40 hours a week.
    Chairman Herger. Right. But if they did work 40 hours a 
week, they would be above the poverty level.
    Ms. Burke. I do have a table showing that if you had a 20-
hour-a-week job, there would be 13 States in which the 
combination of net earnings, EITC, TANF, and food stamps, all 
of those things together, would bring you above the poverty 
thresholds.
    Chairman Herger. How many States is that again?
    Ms. Burke. Thirteen.
    Chairman Herger. So 13 working only 20 hours a week.
    Ms. Burke. Working 20 hours a week. Now the exact number is 
hard to know, but studies indicate a range of how many hours 
people work. A study by the Urban Institute found that about 69 
percent of welfare ``leavers'' worked more than 35 hours a 
week. 25 percent worked between 20 and 35 hours, so the 20-
hour-a-week situation perhaps doesn't occur much. But we have 
no way of really knowing for sure.
    Chairman Herger. So it would appear that minimum wage 
alone, if we only counted minimum wage, would not put them over 
the poverty line. But when we do consider the earned income tax 
credit, food stamps, and other programs that would be available 
to them, recipients in virtually every State, would be above 
the poverty line if they were working full time. You mentioned 
13 only working 20 hours.
    Ms. Burke. All that would be required to bring them above 
poverty, would be the earnings from a full-time job and the 
earned income tax credit. And they could go a little further by 
benefit of food stamps. But poverty is not very luxurious. For 
a three-person family, it amounted to $13,290 in 1999. It would 
be scraping by at best. So the addition of food stamps, and in 
some States, TANF would help a little bit.
    Chairman Herger. Thank you very much Ms. Burke. Mr. Cardin.
    Mr. Cardin. Thank you, Mr. Chairman. Just to follow up on 
this chart just a little bit longer, because I think it is very 
helpful. This, of course, assumes that the individual is 
getting the food stamps, and we know there is a large number of 
people who left welfare who are not receiving their food 
stamps. It also assumes, and in some cases, some States that do 
disregard and provide TANF assistance, unless they do that 
under solely State funds, that would keep the 5-year clock 
running. So there is not a complete solution under current law 
to get people above the poverty level. And it is something we 
need to take a look at.
    Lastly as you pointed out, a 40 hours a week, 52 weeks a 
year, there is significant number that are not working that 
amount.
    But I think it is very helpful, Chairman, the figures that 
are shown here.
    Ms. Burke. If you would care to have also the table showing 
the 20 hour week, we could add that to the record.
    Mr. Cardin. That would be fine, if you would make that 
available to the Committee.
    [The following was subsequently received:]

       TABLE A.--EARNINGS AND SELECTED MAJOR BENEFITS FOR A SINGLE PARENT WITH TWO CHILDREN, WORKING 20 HOURS WEEKLY AT MINIMUM WAGE FOR ONE YEAR
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                    As a percent of the 1999 poverty
                                                                                                                                threshold
                           State                            Net earnings  EITC \2\   TANF      Food      Total -----------------------------------------
                                                                 \1\                        stamps \3\             Net                     Food
                                                                                                                earnings   EITC    TANF   stamps   Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama...................................................       4946        2142      492      3066     10647     36.8     16.0     3.7    22.8    79.3
Alaska....................................................       5426        2350    10096      1020     18893     40.4     17.5    75.2     7.6   140.8
Arizona...................................................       4946        2142     1171      2856     11115     36.8     16.0     8.7    21.3    82.8
Arkansas..................................................       4946        2142     1224      2844     11157     36.8     16.0     9.1    21.2    83.1
California................................................       5523        2392     5872      1296     15083     41.1     17.8    43.7     9.7   112.4
Colorado..................................................       4946        2142     1332      2816     11236     36.8     16.0     9.9    21.0    83.7
Connecticut \4\...........................................       5907        2558     7632      2208     18305     44.0     19.1    56.9    16.4   136.4
Delaware..................................................       5426        2350     3230      2120     13127     40.4     17.5    24.1    15.8    97.8
District of Columbia......................................       5907        2558     1950      2376     12791     44.0     19.1    14.5    17.7    95.3
Florida...................................................       4946        2142     2158      2568     11815     36.8     16.0    16.1    19.1    88.0
Georgia...................................................       4946        2142     1607      2728     11424     36.8     16.0    12.0    20.3    85.1
Hawaii--Exempt............................................       5042        2184     7284      3252     17763     37.6     16.3    54.3    24.2   132.3
Hawaii--Non-Exempt........................................       5042        2184     5580      3768     16575     37.6     16.3    41.6    28.1   123.5
Idaho.....................................................       4946        2142     1370      2796     11255     36.8     16.0    10.2    20.8    83.8
Illinois..................................................       4946        2142     2739      2388     12215     36.8     16.0    20.4    17.8    91.0
Indiana...................................................       4946        2142      282      3128     10498     36.8     16.0     2.1    23.3    78.2
Iowa......................................................       4946        2142     2970      2316     12374     36.8     16.0    22.1    17.3    92.2
Kansas....................................................       4946        2142     2582      2436     12107     36.8     16.0    19.2    18.1    90.2
Kentucky..................................................       4946        2142     1861      2656     11606     36.8     16.0    13.9    19.8    86.5
Louisiana.................................................       4946        2142     1440      2784     11313     36.8     16.0    10.7    20.7    84.3
Maine.....................................................       4946        2142     5122      1680     13891     36.8     16.0    38.2    12.5   103.5
Maryland..................................................       4946        2142     1523      2760     11371     36.8     16.0    11.3    20.6    84.7
Massachusetts--Exempt.....................................       5763        2496     5244      1428     14931     42.9     18.6    39.1    10.6   111.2
Massachusetts--Non-Exempt.................................       5763        2496     5064      1476     14799     42.9     18.6    37.7    11.0   110.2
Michigan--Washtenaw County................................       4946        2142     3503      2160     12752     36.8     16.0    26.1    16.1    95.0
Michigan--Wayne County....................................       4946        2142     3143      2268     12500     36.8     16.0    23.4    16.9    93.1
Minnesota.................................................       4946        2142     4011      3084     14184     36.8     16.0    29.9    23.0   105.7
Mississippi...............................................       4946        2142        0      3216     10305     36.8     16.0     0.0    24.0    76.8
Missouri..................................................       4946        2142     2799      2376     12263     36.8     16.0    20.9    17.7    91.4
Montana...................................................       4946        2142     3507      2160     12756     36.8     16.0    26.1    16.1    95.0
Nebraska..................................................       4946        2142     2135      2568     11792     36.8     16.0    15.9    19.1    87.8
Nevada....................................................       4946        2142     2168      2559     11815     36.8     16.0    16.1    19.1    88.0
New Hampshire.............................................       4946        2142     4522      1860     13471     36.8     16.0    33.7    13.9   100.4
New Jersey................................................       4946        2142     2633      2417     12139     36.8     16.0    19.6    18.0    90.4
New Mexico................................................       4946        2142     3511      2160     12759     36.8     16.0    26.2    16.1    95.1
New York--New York City...................................       4946        2142     4652      1812     13553     36.8     16.0    34.7    13.5   101.0
New York--Suffolk County..................................       4946        2142     6164      1356     14609     36.8     16.0    45.9    10.1   108.8
North Carolina............................................       4946        2142     1808      2673     11570     36.8     16.0    13.5    19.9    86.2
North Dakota..............................................       4946        2142     3615      2128     12832     36.8     16.0    26.9    15.9    95.6
Ohio......................................................       4946        2142     3298      2220     12607     36.8     16.0    24.6    16.5    93.9
Oklahoma..................................................       4946        2142     1546      2748     11383     36.8     16.0    11.5    20.5    84.8
Oregon....................................................       6243        2704     2140      2232     13319     46.5     20.1    15.9    16.6    99.2
Pennsylvania..............................................       4946        2142     2374      2496     11959     36.8     16.0    17.7    18.6    89.1
Rhode Island..............................................       5426        2350     4730      1668     14175     40.4     17.5    35.2    12.4   105.6
South Carolina............................................       4946        2142     1153      2864     11105     36.8     16.0     8.6    21.3    82.7
South Dakota..............................................       4946        2142     1739      2688     11516     36.8     16.0    13.0    20.0    85.8
Tennessee.................................................       4946        2142     2220      2544     11853     36.8     16.0    16.5    19.0    88.3
Texas.....................................................       4946        2142      673      3012     10774     36.8     16.0     5.0    22.4    80.3
Utah......................................................       4946        2142     3334      2208     12631     36.8     16.0    24.8    16.4    94.1
Vermont...................................................       5523        2392     4460      1720     14095     41.1     17.8    33.2    12.8   105.0
Virginia..................................................       4946        2142     4668      1812     13569     36.8     16.0    34.8    13.5   101.1
Washington................................................       6243        2704     3172      1920     14039     46.5     20.1    23.6    14.3   104.6
West Virginia.............................................       4946        2142     2094      2580     11762     36.8     16.0    15.6    19.2    87.6
Wisconsin--Community Service..............................       4946        2142     2760      2388     12237     36.8     16.0    20.6    17.8    91.2
Wisconsin--W2 Transition \4\..............................        n/a         n/a      n/a       n/a       n/a      n/a      n/a     n/a     n/a     n/a
Wyoming...................................................       4946        2142     1124      2868     11081     36.8     16.0     8.4    21.4    82.6
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: Table first appeared in CRS Report RL30579, Welfare Reform: Financial Eligibility Rules and Cash Assistance Amounts under TANF and was prepared
  by the Congressional Research Service (CRS) based on a survey of the states.
 
\1\ Earnings net of Social Security payroll taxes.
\2\ Colorado, Iowa, Kansas, Maryland, Massachusetts, Minnesota, New York, Oregon and Vermont have their own earned income tax credits (generally
  calculated as a percentage of the Federal EITC) but they are not shown in this table. Guam and the Virgin Islands have territorial tax systems that
  mirror the Internal Revenue Code, including EITC. However, revenues foregone and refunds paid under their EITCs affect their own territorial
  treasuries, not the U.S. Treasury.
\3\ Connecticut disregards all earnings below the poverty threshold in calculating both TANF and food stamp benefits.
\4\ Persons with jobs are not eligible for the Wisconsin program of transitional aid.

                                <F-dash>


    Mr. Savner just a couple things. Following up on your 
comments about the New York City experience, let me just add 
one other factor here. I think we will have to get the specific 
numbers, but it is my understanding that very few of the people 
that participate in the New York Workfare end up with a 
permanent job within the New York government. There are very 
few that find a permanent placement there. Would you think that 
the skills that they are participating in would be the most 
conducive to the work in more permanent surrounding?
    I am just curious as to why there hasn't been a greater 
success in the numbers given to us about 2000 permanent 
placements. I don't know over what period that was. But there 
has been roughly 250,000 people participating in the program. 
So I want to underscore the point that you said we want to give 
the States flexibility. That is one of the options available to 
the States, but it may not be the best model.
    Mr. Savner. One of the things that is implicit in the 
question you asked, is the whole issue of displacement. I think 
one of the things that has been alleged, and I can't confirm 
whether it is true or not, but there is data that suggests from 
the period 1993 to 1998, there was a significant drop in the 
number of permanent city employees who worked for the Park 
Department, and at the same time, a dramatic increase in the 
number of Workfare workers who were working in the parks. So it 
may well be that part of what is going on, is the ability to 
cut back on the work force because they had, WEP workers to do 
that work which would explain why they are not moving into 
permanent jobs. The number of permanent jobs have, in fact, 
decreased.
    I think that is something we need to be very cautious 
about. First, we want to make sure people are moving into 
permanent jobs, and second, one of the big risks of large scale 
work experience programs is that they displace regular 
employees. Displacement destroys the jobs of regular paid 
workers by creating workfare placements for people on welfare. 
I think that is a bad tradeoff. I think it is bad for the 
families because they are poor as a result of the difference in 
those jobs, and what it means is that essentially that the 
Federal Government, through TANF, is financing the New York 
City Parks Department. It is not clear to me that that is what 
we want to do. I think what we wanted to do is help people move 
into unsubsidized jobs.
    Mr. Cardin. It also, I think, moves into a moral issue of 
compensation for services performed if it is being used to cut 
the cost. There is one thing about providing a work experience 
to a person we want to do that. We want to get people 
permanently placed, but there is another thing as to--with the 
motivations, as to what these programs are about.
    I wanted to ask you about what is your finding in the 
States about post employment services? One of the areas that it 
looks like we really need to expand is we get people to work, 
they have enough skills at least to get in the door, but if 
they are going to be able to maintain a position with the 
company, if they are going to be able to grow with the company, 
they need help with their employer. What are we finding among 
the States as to the best examples of most employment 
opportunities?
    Mr. Savner. First, there is a significant interest among 
the States in trying to address the issue of job loss after 
people leave welfare. There are about 35 States currently that 
are making investments and trying to provide services to people 
after they leave welfare and become employed to help them keep 
those jobs or to be reemployed quickly.
    While States are trying a number of strategies, it is not 
clear yet what will be most effective. Some of the lessons that 
we have learned so far are that case management may be 
effective if it is intensive, if case managers start with the 
client before they get a job and are able to stay with them and 
visit with them frequently, they can help guide them through 
some of the problems that new workers face.
    Another issue that we need to focus on is that one of the 
reasons why there is job loss is the lack of skills. In 
addition, there are some jobs that recipients are getting in 
which there is high turnover for all workers, not just former 
recipients.
    One of the best programs that we know of that has addressed 
the retention issue is the Portland program. And the way they 
addressed it was by trying to find better jobs for people in 
the first place. So I think we need to be smarter about the 
kinds of jobs that people get. And again, it wasn't all based 
on training, it was just being smarter about the jobs and being 
more selective and taking a month or two rather than a week to 
help someone find a good job, not just any job. They were able 
to find better jobs that lasted longer and paid more.
    So I think there are a number of strategies to work on to 
promote retention. But there is no one single thing yet that we 
can say that is the key to job retention.
    Mr. Cardin. I'm going to ask you, not necessarily on the 
spot right now, but if you can get back to us, as to what we 
can do with TANF reauthorization to encourage States to be 
aggressive in this area without jeopardizing the flexibility 
that we want the States to have. I want the States to be able 
to tailor their own programs, but we certainly want to 
encourage them to get the skills to the people coming off the 
welfare that they need. So if you have some suggestions in that 
area, I would certainly appreciate it.
    Chairman Herger. Thank you. I want to thank each of our 
witnesses that have appeared before us this afternoon. And I 
just might make a comment, Ms. Burke, not to date you, but I 
understand that you have been involved on working in this area 
since the early 1970s, and much of the work that you----
    Ms. Burke. Not quite back in the depression, though.
    Chairman Herger. No, the 1970s. And much of the work that 
you did was instrumental in writing this law, the 1996 law. And 
I want to thank you and the great work that the Congressional 
Research Service does provide.
    And just as Congressman Cardin requested a question, I 
would like to also mention before we close that we may be 
submitting questions for some additional answers that we would 
appreciate if you could provide in writing. And we would 
appreciate that you respond to those additional questions.
    And, again, I thank each of you very much.
    And without objection, I adjourn this hearing. Thank you 
very much.
    [Whereupon, at 4:57 p.m., the hearing was adjourned.]
    [Questions submitted from Chairman Herger to Mr. Savner, 
and his responses follow:]
                     Center for Law & Social Policy
                                       Washington, DC 20036
                                                     April 19, 2001
Rep. Wally Herger
Chairman, Subcommittee on Human Resources
House Ways and Means Committee
B-317, Rayburn House Office Building
Washington, DC 20515
    Dear Rep. Herger:
    Thank you again for inviting me to testify at the April 3 
Subcommittee hearing. I am writing to respond to the additional 
questions provided to me after the hearing. Please do not hesitate to 
contact me if there is additional information you would like me to 
provide on any of these issues.
    <bullet> How many States require welfare recipients to work or 
participate in job preparation activities immediately or within the 
first few months of receiving assistance? In states that do not stress 
work early on, have there been any differences in the percentage of 
TANF recipients working while on assistance compared with states with 
more rigorous work requirements?
    As a matter of policy, virtually every state requires adults to 
participate in job preparation activities of some sort unless the 
family is exempt. In most states, the initially required activity for 
most adults is job search. If an adult is unsuccessful in job search 
there is wide variation among states concerning the next required 
activity. Few states require participation in work experience or 
community service of all or most recipients who are unsuccessful in job 
search. Only Wisconsin, Virginia, Massachusetts, Alabama, Wyoming, 
Michigan, Hawaii and Texas have rules that appear to impose work 
experience or community service requirements on all or most recipients 
in single-parent families if job search is unsuccessful.\1\
---------------------------------------------------------------------------
    \1\ However, if one reviews the data in Table 1, attached, the 
actual percentages of participants reported as being engaged in those 
activities in those states does not always appear to be as high as one 
might expect.
---------------------------------------------------------------------------
    Table 1 shows the percentage of all adult recipients in each state 
in unsubsidized employment in FY 1999, ranked from the highest 
percentage to the lowest. The third column reflects the percentage of 
all adults reported by the state to be involved in work experience or 
community service. There does not appear to be a correlation between 
states that engage adults in work experience and community service and 
states with a higher share of adults receiving assistance engaged in 
unsubsidized employment.\2\ The variation in the extent to which 
recipients are engaged in unsubsidized employment is most likely due to 
the earnings disregards available in the state, the states benefit 
level, and the extent to which the use of earnings disregard to 
supplement employment are marketed to recipients.
---------------------------------------------------------------------------
    \2\ A number of states allow broad discretion to counties in 
determining the range of activities to which recipients will be 
assigned and it is difficult to ascertain county activity from these 
statewide data.
---------------------------------------------------------------------------
    <bullet> An article in the April 3, 2001 Washington Post, describes 
a District of Columbia subsidized employment program for welfare 
recipients nearing their time limit on assistance. According to the 
article ``The city is targeting people who have received cash 
assistance for the longest periods and have been unable to find work on 
their own.'' The goals of this program seem at odds with your statement 
(pages 10-11) that ``research conducted during the 1980's on several 
work experience programs demonstrated that in every site but one there 
were no positive employment and earnings impacts that resulted from 
participation in the programs.'' Is there reason to believe that some 
of the past work on this topic may be dated, especially in the post-
reform world? How many states offer subsidized employment or workfare 
programs?
    The statement you quote from my testimony references research that 
was limited to a set of programs that focused on Community Work 
Experience programs operated during the 1980's (prior to passage of the 
Family Support Act). These programs all involved performing community 
service activities in exchange for the family's welfare grant. My 
testimony did suggest that a new set of programs that involved wage 
subsidies to employers or intermediary organizations and offered wage-
paying jobs to recipients held out more promise, in my view, for 
improving the skills and employability of recipients. It is this latter 
sort of program that is being established in the District of Columbia. 
As indicated in my written testimony, these programs not only pay wages 
and create more realistic expectations consistent with those 
experienced in a regular job, but they also make available various 
supports and provide access to skill development activities to 
supplement the work experience and help boost employability. CLASP has 
been actively engaged in helping develop these programs throughout the 
country during the past several years.
    Research on such programs in the past has been extremely 
encouraging. For example, the National Supported Work Demonstration 
made available temporary, subsidized jobs in supportive settings, to 
several groups of adults and youth with significant barriers to 
employment, including AFDC recipients. Subsidized jobs in nonprofit 
agencies lasted 12-18 months. Participants received intensive 
supervision, and there were gradual increases in workplace expectations 
over time. The program yielded very strong results for AFDC recipients. 
After three years, AFDC participants earned an average of $1,076 (or 23 
percent) more than control group members, and the increased earnings 
effects held up over a long period.\3\
---------------------------------------------------------------------------
    \3\ Summary and Findings of the National Supported Work 
Demonstration, (MDRC, 1980).
---------------------------------------------------------------------------
    <bullet> Your testimony indicates that education and training 
activities are counted as participation only to a very limited extent. 
Since many States have no work requirement for the first 18 to 24 
months, would you agree those individuals generally have at least this 
amount of time for education and training activities?
    As noted in my answer to question 1, I think there are actually few 
states that do not require participation in work-related activities of 
some sort immediately, and typically this activity is job search and or 
job readiness. To the extent that states do not require broad 
participation in work experience or community service programs, that 
does not necessarily mean that they encourage or even allow 
participation in education or training activities. One of the principal 
effects of the limitations on counting participation in education and 
training activities toward the Federal participation requirements has 
been to signal state and local administrators and staff that these are 
disfavored activities and generally to be discouraged. According to 
data reported to HHS for FY 1999, only 2.7% of all families receiving 
assistance included an adult engaged in education or training.
    <bullet> What do we know about the effect of strong work 
requirements on reducing caseloads?
    There are several possible definitions of ``strong work 
requirements.'' Table 2 compares caseload reduction between January 
1999 and June 2000, and the extent to which adults are engaged in 
either work experience or community service, and the extent to which 
adults are engaged in any Federally countable activity during FY 1999. 
There does not appear to be a strong relationship between caseload 
decline and either of these two sets of data. It seems likely that a 
broader set of conditions may influence caseload decline including 
general program administration, local economic conditions, etc.
    <bullet> What is the effect of caseload reduction on the funds 
available to help remaining welfare recipients--who often have special 
challenges--go to work? Did States under the former system focus on the 
most needy and design special program to help them go to work?
    The combination of declining caseloads and the block grant 
structure has made funds available to states that would not have been 
available had there been no change in Federal law. States have used the 
funds made available by these two factors for a range of activities, 
some of which have involved providing a range of supports and services 
to families that do not receive cash assistance, for example child care 
for low wage workers, and states have also shown greater interest than 
in the past in working with individuals who have significant barriers 
to employment to help resolve those barriers. However it is difficult 
to ascertain from available Federal data how much is actually being 
spent on services for the group you reference, or the extent of efforts 
to link people with relevant services funded outside of TANF. The 
availability of Welfare-to-Work block grant funds through the 
Department of Labor has also made a contribution on this issue.
    Under the JOBS program many of the adults with significant barriers 
would have been exempt from participation in work activities. However, 
beginning in 1992 states began to receive waivers of various AFDC 
requirements, and many states sought and received waivers to broaden 
the participation requirements under JOBS and began to work with adults 
to address some of the barriers that prevent employment.
    Along with the increased interest in this area we also are seeing 
evidence that many of the people you reference are losing access to 
assistance because of sanctions. A number of studies have found that 
sanctioned families are less likely to have graduated high school, less 
likely to have recent work history, more likely to report health or 
mental health problems. Families terminated due to sanction 
consistently display poorer outcomes than families terminated for other 
reasons. They are less likely to be employed after leaving assistance, 
and if employed, likely to have lower earnings than other leavers.\4\
---------------------------------------------------------------------------
    \4\ A number of these studies are summarized in Goldberg and 
Schott, A Compliance-Oriented Approach to Sanctions in State and County 
TANF Programs (Center on Budget and Policy Priorities, October 2000), 
available at http://www.cbpp.org/10-1-00sliip.pdf.
---------------------------------------------------------------------------
    In sum, the picture that emerges about the impact of the 1996 
changes on families with significant barriers appears to be ambiguous 
up to this point, and, in most states, it remains to be seen how time 
limits will affect this group.
    Thank you again for inviting me to participate in these 
proceedings.
            Sincerely yours,
                                               Steve Savner

  TABLE 1.--PERCENTAGE OF ADULT RECIPIENTS IN UNSUBSIDIZED EMPLOYMENT,
                 WORK EXPERIENCE, AND COMMUNITY SERVICE
                              [FY 1999 \1\]
------------------------------------------------------------------------
                                                              Percentage
                                                              of Adults
                                                Percentage     in Work
                                     Total     of Adults in   Experience
                                   Number of   Unsubsidized       or
                                   Adults FY    Employment    Community
                                      1999     FY 1999  (In   Service FY
                                                 percent)     1999  (In
                                                               percent)
------------------------------------------------------------------------
Iowa............................       19,237          55.1          0.6
Illinois........................      101,821          42.7          5.1
California......................      539,259          40.7            1
Connecticut.....................       26,532          40.5          0.6
Arizona.........................       22,677          39.4          5.7
Michigan........................       69,284          36.5          0.1
Indiana.........................       33,633          36.2          0.3
Alaska..........................        8,636          34.8          5.6
Minnesota.......................       37,959          34.7          0.3
Washington......................       59,660          33.5         11.1
Kansas..........................        9,142          31.6          9.7
Wisconsin.......................        8,473          28.9         74.8
Nebraska........................       10,126          28.7          0.6
Maine...........................       15,229          28.3          6.2
Idaho...........................          610          28.2          8.5
New Mexico......................       26,160          28.2          1.6
Hawaii..........................       14,616            28          7.1
Ohio............................       77,463            27         22.3
Delaware........................        4,076          26.5          0.1
Dist. of Col....................       12,147          26.2          5.9
Pennsylvania....................       96,173          26.2          0.8
Vermont.........................        6,632          26.1          1.4
Virginia........................       31,145          26.1          1.8
South Carolina..................       10,183          25.9          1.2
Rhode Island....................       16,473          25.4          0.8
Kentucky........................       28,716          24.9          8.8
Florida.........................       45,196          23.4          5.3
Mississippi.....................        8,412            23          6.8
Louisiana.......................       28,436          22.7            5
Colorado........................       10,357          22.5          7.9
Utah............................       10,384          22.2            0
Oklahoma........................       14,199          21.1          2.9
Tennessee.......................       40,812          20.6          0.7
Alabama.........................       10,024          19.8          2.9
Massachusetts...................       40,115          19.8          1.7
New York........................      260,641            17         12.2
New Hampshire...................        6,678            16          0.8
South Dakota....................        1,693            16         32.2
Wyoming.........................          408          15.9           23
New Jersey......................       45,762          15.8         16.1
Montana.........................        5,168          14.6         45.4
North Dakota....................        3,265          13.7          8.4
North Carolina..................       29,549          13.2          1.2
Nevada..........................        9,462          12.9          2.5
Missouri........................       34,958            10          3.7
Arkansas........................        7,156           9.8          3.6
Georgia.........................       36,920           9.8          5.4
Maryland........................       22,008           8.2          2.1
Oregon..........................       14,450           7.6          2.8
West Virginia...................       14,348           6.5           13
Texas...........................       82,729           4.7         0.9
------------------------------------------------------------------------
\1\ ``TANF Program--Third Annual Report to Congress,'' (HHS, August
  2000), Table 3:3.C.


    TABLE 2.--COMPARISON OF CASELOAD DECLINE TO ENGAGEMENT IN VARIOUS
                          COUNTABLE ACTIVITIES
                              [In Percent]
------------------------------------------------------------------------
                                                 Percentage
                                     Caseload    of Adults    Percentage
                                   Change From    in Work     of Adults
                                     January-    Experience     in Any
                                     1999 to         or       Countable
                                    June-2000    Community   Activity FY
                                       \1\       Service FY    1999 \3\
                                                  1999 \2\
------------------------------------------------------------------------
Oklahoma.........................          -67            3           48
Louisiana........................          -39            5           33
Wyoming..........................          -36           23           52
Illinois.........................          -34            5           57
Florida..........................          -30            5           36
North Carolina...................          -29            1           20
Colorado.........................          -28            8           43
Michigan.........................          -27            0           47
Massachusetts....................          -26            2           31
Maine............................          -24            6           47
Connecticut......................          -23            1           48
California.......................          -23            1           51
Georgia..........................          -22            5           21
New Jersey.......................          -22           16           41
Ohio.............................          -21           22           60
Pennsylvania.....................          -20            1           33
Virginia.........................          -20            2           34
Maryland.........................          -20            2           25
Utah.............................          -19            0           45
Nevada...........................          -19            3           32
Montana..........................          -19           45           91
South Dakota.....................          -18           32           58
South Carolina...................          -18            1           48
Virgin Islands...................          -18            3           33
Mississippi......................          -17            7           34
New York.........................          -16           12           32
Puerto Rico......................          -16            1           19
Washington.......................          -15           11           60
Nebraska.........................          -15            1           62
Wisconsin........................          -15           75           87
Kentucky.........................          -14            9           39
Alaska...........................          -14            6           50
Missouri.........................          -13            4           29
Vermont..........................          -13            1           44
New Mexico.......................          -12            2           31
Rhode Island.....................          -10            1           38
Iowa.............................          -10            1           61
Delaware.........................           -9            0           29
Alabama..........................           -9            3           32
Minnesota........................           -9            0           53
Hawaii...........................           -8            7           36
West Virginia....................           -7           13           27
North Dakota.....................           -7            8           27
Arizona..........................           -6            6           46
New Hampshire....................           -6            1           29
Idaho............................           -6            9           85
Kansas...........................           -5            0           59
Tennessee........................           -4            1           47
Indiana..........................           -1            0           40
Arkansas.........................            0            4           30
Oregon...........................            1            3           53
Texas............................            7            1           12
Dist. of Col.....................           15            6          35
------------------------------------------------------------------------
\1\ HHS, http://www.acf.dhhs.gov/news/stats/case-fam.htm
\2\ ``TANF Program--Third Annual Report to Congress,'' (HHS, August
  2000), Table 3:3.C.
\3\ Id.

                                <F-dash>


    [Submissions for the record follow:]
        Statement of Community Voices Heard, New York, New York
    Community Voices Heard (CVH) is a membership organization of over 
3,500 low-income people, mostly women on welfare, working together to 
improve the lives of our members' families and all poor people in New 
York City. We are directed, run and being built by low-income people on 
welfare. We use public education, public-policy research, community 
organizing, leadership development, political education and direct 
action issue organizing, to build our membership and to organize around 
issues that are defined by our membership. While we focus on welfare 
reform, we broadly define ``welfare activism'' to be multi-issue, and 
thus must include issues such as education, training, jobs, housing, 
economic development and other community issues.

Referenced Reports:
    1) COUNT OUR WORK REPORT The Work Experience Program (WEP): New 
York City's Public Sector Sweatshop Economy
    By Laura Wernick, John Krinsky, Paul Getsos, Community Voices Heard
    2) WELFARE TO WORK: IS IT WORKING? The Failure of Current Welfare-
To-Work Strategies; To Move The Hardest To Employ Into Jobs
    A CASE FOR PUBLIC JOB CREATION
    By Andrew Stettner, Georgetown University Graduate Public Policy 
Institute, Community Voices Heard
I. Introduction
    This report makes the case that tens of thousands of workfare 
workers are working in New York City agencies, performing vital 
functions for the city, for no pay. Yet while they play an important 
role in running New York City, they are not getting paid for an honest 
day's work. Instead, they are forced to work off below poverty-level 
benefits in jobs that once provided families with a real living wage 
and enough income to survive in New York City. Previously, paid workers 
were allowed to unionize, were protected by employee rights, and were 
able to access benefits such as vacation time, unemployment insurance 
and social security. Today, workfare workers are displacing these paid 
union workers, they are denied the right to organize, and they are 
denied basic worker benefits. Worst of all, they are consigned to 
participate in a government-run, sweatshop type program that keeps them 
mired in poverty and that by its structure, cuts off their only source 
of income when they begin to fight for economic justice and equal pay. 
While the city enjoys untold prosperity, economic growth, improved city 
services, and renewed parks and street-life, it is at a price: tens of 
thousands of people are forced to work as no-wage workers in New York 
City's public sector and non-profit labor force.
    These workers are only being compensated for their important work 
through meager welfare benefits, which are significantly below the 
poverty level, and they are not allowed to organize. They face punitive 
loss of their only source of income if they question and try to change 
their working conditions. We believe that the conditions workfare 
workers face in New York City are akin to a ``publicly funded'' 
sweatshop, which all New Yorkers ultimately benefit from through their 
use of city services, from city parks to administrative offices. 
Finally, for many workfare workers, especially those with limited 
education and employment experience, lack of English proficiency, older 
workers, and people of color, especially immigrants, workfare is the 
only way that they can be guaranteed any means of support. With no 
other option available, they are forced to work in this second tier 
economy.

Background
    In the summer of 1999, Community Voices Heard (CVH), an 
organization of people on welfare and in workfare, initiated a research 
project to determine what workfare workers were doing at their Work 
Experience Program (WEP) assignments in New York City. Our members 
increasingly reported being forced to do more detailed work and 
performing significant work responsibilities at their work-sites. CVH 
commissioned the study to prove that WEP workers were not just carrying 
out make-work assignments, but rather were responsible for providing 
critical services to the city.
    Currently there are approximately 40,000 people in New York City's 
workfare program. Workfare workers work in city agencies, private not-
for-profit agencies, and, in certain instances in private-for-profit 
entities such as South Street Seaport and Fulton Fish Market. Workfare 
workers are not paid a wage for the work they perform. Instead, they 
are seen as compensating the city for their public assistance grants. 
Accordingly, they are not eligible for collective bargaining or 
unemployment insurance, and receive neither social security payments 
for the work they do nor Earned Income Tax Credits. Many workfare 
workers are also engaged in 35 hour simulated work weeks, that combine 
workfare jobs with mandatory programs such as job searching, which 
requires workfare workers and public assistance recipients to engage in 
useless activities looking for work, such as calling up stores and 
businesses identified through the phone book.
Purpose of the Report
    The Count Our Work Report demonstrates that workfare is displacing 
paid union entry level employees with a second tier of unpaid workfare 
workers who are doing a substantial portion, if not the entire 
workload, of former entry-level employees working in New York City's 
public agencies. This report proves that workfare is in fact a public 
employment program in which workers are performing critical services 
for the citizens of the city for no pay, and that it keeps people 
trapped in poverty while displacing a full-time union workforce. This 
report also proves that WEP is an illegal and illegitimate program that 
threatens the economic livelihood of current and future employees by 
violating state labor law because it displaces city workers and 
provides incentives for further displacement.
II. Overall Findings
    A. Workfare workers are performing jobs that are critical to 
keeping New York City agencies operating, vital services rendered and 
New York City clean and maintained. Workfare workers are doing critical 
work for the city, ranging from keeping parks clean and safe, doing 
light repair work and doing entry-level receptionist duties. While the 
vast majority of workfare workers are performing entry-level jobs, many 
are also doing more complex jobs with higher degrees of responsibility, 
including supervising and training other workfare workers, opening and 
closing city buildings and parks, and assisting the general public with 
community problems.
    <bullet> Workfare workers do valuable work for their fellow New 
Yorkers. We have found that they perform almost every one of the tasks 
in three categories of entry-level City worker job descriptions (City 
Parks Workers, Custodial Assistant, and Clerical Aide). We have also 
found that workfare workers in the Metropolitan Transit Authority are 
also responsible for station cleaning and garbage removal and that 
workfare workers in social service agencies are also providing critical 
community services such as day care, childcare, and nursing assistance.
    <bullet> Workfare workers are performing basic services that keep 
New York City clean and efficiently operating. The survey has found 
that contrary to popular perception, WEP workers in the Parks 
Department only report raking or sweeping as 27% of the tasks they 
perform. In fact, at least 37% of an average workfare workers' job in 
the Parks Department involves more responsible tasks such as laying sod 
and hedge trimming, minor repairs and safety checks of equipment. In 
the Department of Citywide Administrative Services, workfare workers 
are doing a wide range of jobs including cleaning bathrooms and 
replacing supplies; scrubbing, waxing and polishing floors; vacuuming 
rugs and carpets; and even operating elevators. Clerical workers are 
answering phones, typing and serving as receptionists. They are also 
processing forms and information requests.
    <bullet> In many cases, workfare workers are doing jobs that have 
more responsibility than entry-level jobs. Workfare workers surveyed 
for this project report doing such tasks as supervising other workfare 
workers, operating light equipment, and managing case records. In the 
Clerical and Office Aide Category, 13% report supervising other WEPS. 
In the Department of Citywide Agencies, 8% report supervising workfare 
workers, and in the Parks Department, 7% report this activity. In 
addition, many workfare workers are taking care of children and the 
elderly in non-profit agencies.
    <bullet> Both the survey data and individual case studies show that 
workfare workers are also engaged in other critical jobs, including 
opening and closing parks and recreation centers, assisting directors 
of jobs centers and Medicaid offices, and performing critical public 
safety duties. Many workfare workers in the Parks Department report 
doing safety checks of park and recreation centers that are used by the 
public and are responsible for opening and closing park gazebos, 
bathrooms and offices. Other workfare workers report being responsible 
for recording complaints about unsafe trees and community problems, and 
are working as social service case aides, assisting people with their 
domestic violence problems.
    B. New York City is violating New York State Social Service Law by 
using welfare recipients in jobs formerly done by regular workers. New 
York State Social Service Law protects unionized municipal workers 
against being displaced by workfare workers. The law covers both full 
and partial displacement. We have found that at least partial, and very 
likely full, displacement is happening in city agencies.
    <bullet> At least 86% of all survey respondents in all categories 
report doing the same work as municipal employees at their WEP sites.
    <bullet> Workfare workers are performing 35 of the 36 tasks in the 
descriptions of three union job titles that we surveyed. (City Parks 
Workers, Custodial Assistant, and Clerical Aide).
    <bullet> In some cases workfare workers are doing work that is not 
a listed activity on entry-level jobs descriptions, meaning they are 
doing work that was previously done by union employees and/or are doing 
tasks that other workers are supposed to be doing.
    <bullet> Even if one assumes a worker does every job in his or her 
job description (which most workers do not), the average individual 
workfare worker is doing 36.7 % of the work done by similarly situated 
union workers.
    C. Workfare creates a source of cheap labor for the City of New 
York and threatens the city labor force because of the huge financial 
incentive to the city to expand workfare as an inexpensive way to get 
the city's entry-level positions filled. Because the welfare grants 
that workfare workers get in exchange for their labor are mostly 
subsidized with state and federal dollars, there is a great incentive 
for the city to expand the program and to replace unionized city 
workers with workfare workers. In addition, even when federal and state 
aid is included, the average annual salary for workfare workers is well 
below the poverty line.
    <bullet> The cost to the City for an hour of a workfare worker's 
wage is only $1.80 an hour. This figure is based on the average number 
of hours worked per week and the city's share of the welfare benefit 
check.
    <bullet> Based on a 40 hour workweek, 50 weeks a year, the annual 
cost to the city of a workfare worker's pay is only $3,600 a year, 
compared to an annual salary of between $18,000-$22,000 a year for an 
entry-level union worker in a similar position.
    D. Workfare workers are working at below poverty-level wages while 
the New York City public sector has developed into a two tier system of 
workers: union workers who work for benefits above the poverty level 
and workfare workers performing the same functions for below poverty 
level wages and doing so under constant threat of losing their only 
source of income.
    <bullet> On the average, a single adult who is working 22 hours a 
week is making
    at the most $5,724 a year in benefits including food stamps.
    <bullet> A Temporary Assistance for Needy Families (TANF) parent 
with two children (the average parent on welfare), who works and/or is 
forced into other work-related activities for 35 hours a week is at the 
most receiving $10,344 a year in benefits.
    <bullet> These figures mean that workfare workers are working for 
pay that puts them at 63-77% of the poverty level and should be 
classified as the ``working poor''.
    <bullet> In all three categories of union labor, salaries are kept 
above the poverty level, while in no case is the welfare benefit for 
workfare workers at that level, in spite of the fact that the two do 
substantially the same work. A City Parks worker makes an annual salary 
of $22,011 a year and a Safety Net recipient in workfare makes $5,478 a 
year (working just over half time). A Custodial Assistant working for 
$20,353 a year and a Family Assistance recipient with one child working 
at the same job makes $8,220 a year (full time).
    E. Workfare workers are not trainees, but rather are workers 
performing tasks that are done, or were formally done, by union 
employees. While it is clear that many of the jobs done by WEP workers 
require generally low skill levels, it is wrong to assume that workfare 
workers are ``trainees''.
    <bullet> Less than a quarter of workfare worker respondents to the 
survey, 24.76%, reported getting any regular training on the job.
    <bullet> Only 17.19% of workfare workers reported getting any 
health and safety training
    <bullet> Among the group who reported getting regular training, 
84.28% of those workfare workers could not be specific about its 
content.
    F. Workfare workers want to work and a majority wants to get paid 
for the work they do. The clear majority of survey respondents, when 
asked how they would want to change workfare, responded that they would 
prefer to be paid for the work they do (73.36%).
    IV. Findings by Sector
    A. Department of Parks and Recreation (DPR): DPR workers are 
working in all of the department's facilities in New York City, from 
Central Park to local neighborhood parks. While, a vast majority of WEP 
Workers in DPR are doing work that much of the public equates with 
workfare [i.e., sweeping pathways, raking leaves, and emptying garbage 
cans (all part of the union job description for entry-level parks 
employees)], a significant number of workfare workers report doing 
other major parks maintenance tasks. This includes almost 24.8% who 
report mowing or edging lawns, 13.9% who do safety checks of equipment, 
12.1% who lay sod and trim hedges, and 11.5% who do minor repairs.
    B. Janitorial and Maintenance WEP Workers: Most WEP workers 
performing janitorial and maintenance work are placed in the Department 
of Citywide Administrative Services (DCAS). DCAS workers are 
responsible for maintaining and cleaning city properties and office 
buildings including administrative offices, court buildings and public 
buildings such as City Hall. Approximately 80% of these workers are 
cleaning office buildings by sweeping and mopping floors, emptying and 
removing garbage and cleaning bathrooms. Approximately half of these 
workers are cleaning mirrors and glass and replacing bathroom supplies, 
and approximately 30% are washing walls, waxing and polishing floors, 
dusting and cleaning blinds, polishing furniture and fixtures, sweeping 
and washing sidewalks. Approximately 10% of these workers are operating 
elevators and replacing bulbs and fixtures.
    C. Clerical and Office WEP Workers: WEP workers are working in a 
variety of city offices including the Office of Employment Services, 
neighborhood Jobs Centers, Department of Housing and Preservation and 
in borough buildings and schools. Clerical WEP workers are doing the 
tasks of a basic entry-level office aide. A majority of work that 
people report doing includes filing records (83.8%), answering phones 
(62.9%), and keeping records (56.2%). Almost 50% of workers report 
doing receptionist duties, and approximately 25% are giving directions, 
answering questions and inquiries, preparing mailings, and typing and 
processing forms.
    D. Transit WEP Workers: Transit WEP Workers report doing the 
highest level of work that corresponds to permanent workers in a city 
agency. Over 90.5% of the workfare workers we surveyed reported doing 
the same work as permanent employees. Over 80% of the reported tasks of 
transit workfare workers include cleaning and polishing surfaces, 
emptying garbage cans and sweeping stairs and street areas. Seventy-
five percent (75%) are dusting handrails and turnstiles.
    E. Social Service Agencies/Not-for-Profits: Respondents worked 
primarily in daycare and senior care facilities, though one did 
domestic violence crisis intervention, and another did clerical work at 
a CUNY College. The WEP workers in nonprofits and schools worked longer 
hours than WEP workers in any of the other categories. Ten of nineteen 
respondents in these jobs worked at least 70 hours every two weeks 
(full time), six worked at least 48 hours, and two worked 35 hours 
every two weeks. These figures suggest that the vast majority of WEP 
workers in these positions are mothers with children in the TANF 
program. Duties included reading to children, putting them down to 
sleep, and serving lunches and snacks, twelve respondents were 
teachers' aides in public schools. Eleven of these--as well as two 
others, one who worked as a cafeteria aide, and the other who did not 
specify her job--worked full time. A majority of the respondents had 
worked in their public school placements for a year or more.
IV. Recommendations of the COUNT OUR WORK REPORT
    A. The Work Experience Program (WEP), should be dismantled in both 
the public and private sector, as it currently exists. In its place, 
the following programs should immediately be implemented:
    <bullet> All welfare recipients should be assessed, evaluated and 
placed in programs that provide training, skills development and real 
opportunity for permanent, living-wage employment. Examples of programs 
include the Transitional Jobs Program, BEGIN College Option, and 
education and training programs, such as GED, English as a Second 
Language, as well as other qualified training programs.
    <bullet> The Mayor and Human Resource Administration should 
implement the New York City Transitional Jobs Program, passed in April 
2000 by the City Council, immediately.
    <bullet> Workfare workers should be removed from and no longer 
placed in public sector agencies where they currently displace union 
workers, depress wages and eliminate entry-level jobs. New funding 
should be secured by the city to replace lost entry-level positions in 
city agencies to the 1990 levels.
    <bullet> Workfare workers with at least one-year of experience in 
an agency should be asked to submit their names for employment and be 
prioritized for hiring.
    <bullet> Workfare workers should be removed from and no longer 
placed in private not-for-profit agencies where they eliminate current 
and entry-level jobs.
    <bullet> Compulsory ``work activities'' should include programs 
such as English as a Second Language (ESL), GED courses, secondary 
education, on-the-job with pay training, programs and other programs 
that build real skills, education and experience.
    B. The Transitional Jobs Program, which creates public sector and 
not-for-profit living-wage jobs for people on welfare, should be 
implemented, fully funded and expanded to accommodate public assistance 
recipients currently engaged in work activities: This program, which 
already exists in New York City law, but is not being implemented by 
the Mayor, should be implemented immediately. It should be funded 
through TANF surplus funds, welfare-to-work dollars and general budget 
surplus dollars. The program, which protects existing employees through 
strong anti-displacement measures, should be expanded to cover all 
welfare recipients who are forced into work participation activities in 
both the public and not-for-profit sector.
    C. The Mayor and City Council of New York City, the New York State 
Legislature and the New York State Department of Labor (DOL) should 
implement the following mechanisms to ensure complete and total 
compliance with New York State Social Services law and to ensure that 
partial and complete displacement of city workers by workfare workers 
not take place in city agencies:
    <bullet> New York City and the New York State Department of Labor 
should make public the number of WEP workers placed at each city agency 
in an annual report, and track how many are removed each year, with the 
goal that this number reach zero within three years.
    <bullet> The New York State Legislature and New York City Council 
must enact legislation that ensures that workfare workers working in 
public sector and private not-for-profit agencies are entitled to the 
comparable wage for the position that they are doing.
    <bullet> New York City and the New York State Department of Labor 
should implement a grievance procedure through which both WEP workers 
and city workers can report partial and total displacement taking place 
in public sector industries so that these illegal activities can be 
investigated and halted.
    <bullet> New York City and the New York State Department of Labor 
should implement a public education and rights training for both 
regularly employed and workfare workers to ensure that workers know 
their rights regarding displacement.
    <bullet> The NYS Department of Labor should impose monetary 
penalties on any New York City agency that continues to engage in 
practices that create partial and complete displacement of union 
workers by workfare workers.
    A full copy of the COUNT OUR WORK REPORT may be downloaded from the 
CVH Website at: http://www.cvhaction.org/ or call CVH at 212-860-6001.

                         COMMUNITY VOICES HEARD

                    WELFARE TO WORK: IS IT WORKING?

 The Failure of Current Welfare-To-Work Strategies To Move The Hardest 
                          To Employ Into Jobs

                     A CASE FOR PUBLIC JOB CREATION

    Description: In May of 1997, Community Voices Heard, a membership 
organization of people on welfare, developed a proactive program 
proposal--the Community Voices Heard Community Jobs Program--as our 
response to work requirements set forth by federal and state welfare 
reform. CVH's proposal, developed by our members and based on similar 
program proposals in Pennsylvania, Vermont and Milwaukee, became the 
model for New York City and New York State legislation. This 
legislation seeks to create temporary wage-paying jobs for people on 
welfare, combined with comprehensive education and training programs. 
This two-pronged approach provides the work experience and skills 
necessary to compete in the labor market.
    CVH developed the ``jobs survey'' to make a case for why a publicly 
funded temporary jobs program is needed to move people into work. In 
the summer of 1998, CVH surveyed 483 people on welfare at workfare 
worksites, welfare centers and social service agencies in Northern 
Manhattan and across the city. The survey includes questions about the 
Work Experience Program (WEP), job training, barriers to employment, 
and past work experience. In December 1998, we interviewed 72 of the 
original participants to measure the impact of welfare-to-work programs 
on their lives.
    New York City has just begun to spend its $88 million welfare-to-
work block grant from the U.S. Department of Labor on 21,000 current 
welfare participants who have been exempted from workfare in the past. 
The city is planning to put over 60% of these individuals into the 
city's Work Experience Program. This report concludes that expanding 
the Work Experience Program will adversely affect people currently on 
welfare.
    Contrary to common misconceptions that welfare participants do not 
make an effort to improve their economic situation, the report finds 
that people on welfare want to work, are actively looking for work with 
little help from the government, but have yet to find jobs. Our report 
shows how the Work Experience Program is failing to move people 
currently on welfare into jobs and is failing to develop marketable 
skills and education. In addition, WEP participants have little or no 
chance at getting a permanent city job--we have found that the city has 
used WEP to eliminate well-paid union jobs that were once available to 
low-skilled workers. We find that most people on welfare have multiple 
obstacles to employment, such as a lack of education, lack of recent 
work experience and large families. Expanding a workfare program that 
provides poor quality work experience and little education and training 
will not help participants overcome barriers to employment nor help 
them find permanent work.

                                FINDINGS

I. WORKFARE FAILS TO ADEQUATELY SERVE PEOPLE CURRENTLY ON WELFARE
Workfare Is Not Helping People Move Into Jobs or Increase Their Skills 
        and Experience:
    <bullet> Most workfare participants (60%) report that workfare is 
not helping them get a job and is not helping them to build their work 
experience and skills.
    <bullet> From a six-month follow-up survey, we found that only 6% 
of workfare participants from our original survey had found jobs.
    <bullet> While less than 10% got jobs, 23% of people in WEP had 
their benefits reduced or cut off (sanctioned). This confirms that WEP 
is most effective as a tool for punishing people and removing them from 
the welfare rolls, and is not effective at helping them move into 
employment.
    <bullet> The longer participants are in the Work Experience 
Program, the worse off they are. Even after six months in the program, 
67% of workfare participants think they will not get a regular job in a 
city agency. There is no advancement in WEP.
    <bullet> The Survey results support the idea that WEP workers are 
displacing union workers. 89% of WEP workers report doing the same work 
as regular city workers. WEP workers--not union workers--are filling 
union positions eliminated under the Giuliani administration.
    <bullet> Workfare Workers are less likely to receive job placement 
assistance than other welfare participants are. Only 50% of workfare 
participants get help looking for jobs from welfare caseworkers, job 
placement programs or the employment service, while people on welfare 
not in the work experience program are 20% more likely to receive such 
job placement assistance.
II. PEOPLE ON WELFARE WANT TO WORK AND ARE LOOKING FOR WORK WITHOUT 
        HELP FROM THE CITY
    <bullet> People currently on welfare want to work and are actively 
looking for work. 90% of unemployed survey respondents said they want 
to work, and 70% reported looking for work. Their failure to find work 
cannot be blamed on a lack of effort.
    <bullet> The City is not helping people on welfare look for work. 
While the city is now pushing welfare participants into the labor 
market, only half of welfare recipients looking for work are getting 
any help from the city. People on welfare are more likely to look for 
work on their own (75% use newspapers, their friends or temporary 
placement agencies) than they are to get job search assistance through 
welfare caseworkers, the employment service, or other job placement 
programs (50%).
III. PEOPLE ON WELFARE MUST OVERCOME ECONOMIC AND PERSONAL OBSTACLES IN 
        ORDER TO MOVE FROM WELFARE TO WORK
    People currently on welfare face multiple obstacles to employment. 
In September, the Human Resources Administration (1998) released a 
study describing a small number of individuals who have gotten off of 
welfare and successfully transitioned to work. The HRA study showed 
that the city has only been able to move the most educated and job-
ready individuals into work. Our survey finds that those still on 
welfare are much more disadvantaged.
    <bullet> Only 42% of the welfare participants in the CVH survey 
have a high school degree or its equivalent, compared to 72% of those 
in the HRA study.
    <bullet> Most current welfare participants in the CVH survey have 
three or more major obstacles to employment: 71% have been on welfare 
for two years or more; 66% have not worked in the last two years; and 
60% have more than two children.
    <bullet> Welfare recipients state that their lack of experience and 
skills is the most challenging and significant obstacle to employment. 
They are more likely to identify these problems as important than 
inadequate access to childcare, language barriers or health problems.
IV. WELFARE PARTICIPANTS FACE A LABOR MARKET WHERE THERE ARE MANY MORE 
        JOB SEEKERS THAN THERE ARE AVAILABLE JOBS
    Welfare participants being forced off of welfare will have a hard 
time finding work, especially in poor communities. Despite claims of 
economic recovery and an expanding jobs market, welfare recipients are 
struggling--and will continue to struggle--to find entry-level jobs to 
support themselves and their families.
    <bullet> Despite the national recovery, New York City's 
unemployment rate remains 50% above the national average. In 
particular, there is a shortage of jobs available for low-skill 
workers. A recent survey conducted by the U.S. Conference of Mayors 
found that New York City has the largest welfare-related job shortage 
of 125 cities in the country. Our analysis shows that there will be 
approximately six workers for every new job created over the five-year 
time limit imposed by federal welfare reform.
    <bullet> Welfare recipients face a labor market that provides very 
low wages and little job security to low-skill workers. Of the welfare 
participants we surveyed that had previous work experience, most have 
worked in jobs that do not pay a salary large enough to support a 
family. In past jobs, welfare recipients only earned an average of 
$5.85 per hour--$772 per month. This amount is less than the federal 
poverty level of $1066 per month for a family of three. The most common 
reason for losing a job was being laid off.
    <bullet> Community Voices Heard found that 71%, or more than two-
thirds of the unemployed welfare participants surveyed, stated that 
there is a shortage of jobs in their communities. The experiences of 
welfare participants looking for jobs confirm labor market data for New 
York City--there is a shortage of entry-level, low-skill jobs available 
for people moving off of welfare. Many people surveyed reported going 
on numerous interviews and not getting hired.

              Recommendation: Enact Community Job Creation

WHAT IS COMMUNITY JOB CREATION AND HOW IS IT DIFFERENT FROM WORKFARE?
    Community Voices Heard developed its job creation program as a 
policy alternative to workfare. Job creation programs use public funds 
to create jobs for people who are unable to find work in the private 
sector. In job creation programs, workers complete necessary public 
works in the public and private nonprofit sectors. The most well known 
historical examples are the Work Progress Administration of the 1930s 
and the Comprehensive Employment and Training Act Public Service 
Employment Program of the 1970s. Both programs hired hundreds of 
thousands of workers in times of economic downturns and made lasting 
improvements to communities, while providing the dignity of work to 
unemployed individuals.
    Welfare reform has spawned a rebirth of job creation programs. 
Philadelphia is launching a program to hire 3,000 welfare participants 
with cash wages over the next two years and Detroit, San Francisco, 
Vermont, Washington State and Baltimore are also starting programs. 
Newer programs use community service employment as a temporary on-the-
job training experience that help individuals develop the skills and 
experience they need to find unsubsidized jobs.
    While both workfare and community jobs programs provide work for 
welfare participants, there are fundamental differences between the two 
approaches:
    1. Workfare participants receive their regular welfare benefits in 
exchange for work, while community jobs workers receive cash wages like 
regular workers. As a result, community jobs workers qualify for the 
federal and state Earned Income Tax Credit, up to $3,000 dollars a 
year.
    2. Like a regular job, community jobs workers would choose where 
they want to work. Unlike workfare, community jobs participants are 
matched to jobs that they believe will help them reach their long-term 
career goals. Unlike workfare, community jobs programs allow workers to 
get skills training to increase their employability.
    3. Workfare participants are not granted the full rights or treated 
with the full measure of respect accorded to regular workers. WEP 
workers are relegated to a lower tier of workers that don't have the 
right to join a union, file grievances or get worker's compensation.
    4. As bona fide workers, people in a community job develop on-the-
job experience and occupational skills that help them compete in the 
private labor market. Research supports the fact that community jobs 
programs are more effective than workfare. The Manpower Research 
Demonstration Corporation found that unpaid work experience programs 
were not effective at moving people into unsubsidized employment (MDRC, 
1993). In contrast, an evaluation of the AFDC Home Care Demonstration 
found that subsidized jobs in home care increased the earnings of 
welfare participants by as much as $2,600 per year, as compared to a 
matched comparison group (Center for Budget and Policy Priorities, 
1997). In general, research shows that programs that combine work 
experience with education and training are the most effective at 
providing lasting employment and earnings gains.
    There are legislative efforts underway in the City Council (Bill 
354 with 30 sponsors) and the State Legislature which would commit New 
York City to launching a community jobs program. These programs would 
employ 10,000 people over 5 years; provide valuable work in the public 
and non-profit sector; pay a decent wage of $7.50 an hour; assure 
health and child care benefits; assure one day of education and 
training per week; and protect permanent employees from displacement by 
mandating that community jobs workers be engaged in new work projects 
and by ensuring that community jobs workers have the same rights and 
responsibilities as regular workers.
WHY IS A COMMUNITY SERVICE JOBS PROGRAM NECESSARY?
          CVH and over 100 organizations throughout the city and state 
        are supporting community job creation because there are not 
        enough jobs being created to accommodate welfare participants 
        moving off of welfare; welfare participants do not have the 
        skills and experience to compete for those jobs; and current 
        welfare-to-work programs do not address the special needs of 
        hard-to-employ welfare recipients. The evidence from our survey 
        supports all three of these contentions.

    <bullet> There are not enough low-skill job opportunities available 
for all of the new job seekers pushed into the labor market by welfare 
reform. According to the Independent Budget Office, New York City hopes 
to move over 200,000 welfare participants off of the welfare rolls.\1\ 
In addition, there are over 100,000 low-skilled unemployed individuals 
in New York City.\2\ Our analysis of New York State Department of Labor 
data indicates that there will only be 98,400 new low-skill jobs 
available for these new job seekers over the next five years.\3\ These 
numbers add up to a shortage of at least 200,000 jobs.
---------------------------------------------------------------------------
    \1\ The Independent Budget Offices estimate that 100,000 Family 
Assistance participants will move off the rolls. When we add 156,000 
Safety Net participants (childless adults) whom the city is also trying 
to move into work, the total is over 200,000.
    \2\ This is the total number of unemployed individuals multiplied 
by the average skill level of the unemployed from the 1990 census.
    \3\ This projects industry employment growth in major industries in 
New York City over the next five years. To determine the skill level of 
jobs, we used the National Occupational Information Crosswalk to 
identify the number of low-skill jobs in each industry. From those 
ratios, we project low-skill job growth.
---------------------------------------------------------------------------
    <bullet> Welfare participants face a multitude of difficult 
obstacles to employment. As we demonstrated above, a vast majority of 
people on welfare want to work (90%), are looking for work (75%), but 
are not finding jobs. Their struggle to find work is directly related 
to the number and nature of the obstacles they face. A majority of 
welfare participants face three or more of the following barriers to 
work: low levels of education, large families, little work experience 
and long-term histories on welfare. Now that the most advantaged 
welfare recipients have moved into work, New York City needs new 
strategies to address the barriers faced by hard-to-employ individuals. 
Welfare recipients assert that a lack of training and skills is the 
most important barrier to employment: a community job can teach both 
specific vocational skills taught on the job or in the classroom and 
basic ``soft'' work skills such as the ability to work effectively with 
customers and co-workers.
    <bullet> Workfare is not working: Most workfare participants do not 
think WEP will either help them get a job or increase their level of 
skills or education. As New York City seeks to move these hard-to-
employ individuals into work, it will need strategies other than WEP to 
make welfare participants more employable. After reading two paragraphs 
describing both New York City's current workfare program and the job 
creation legislation in the City Council, a vast majority of 
respondents to the CVH survey (95%) preferred the job creation 
legislation.
    Community Jobs can address the disadvantages of welfare 
participants and help them find private sector employment by:
    <bullet> EXPANDING THE NUMBER OF AVAILABLE JOBS. 40% of the welfare 
participants we interviewed have not worked in the last two years and 
20% have never worked. A community job would allow people on welfare 
who are unable to find jobs in the regular labor market get recent work 
experience.
    <bullet> PREPARING PEOPLE ON WELFARE FOR UNSUBSIDIZED JOBS: With 
recent experience, welfare participants would have a much better chance 
of convincing employers that they can be productive workers. Such a 
program could also address the large skill deficits that we identified 
in the survey--58% of welfare participants do not have high school 
degrees and they believe that their lack of training is the main reason 
they have not found jobs. By combining work with on-the-job and 
classroom skills training, a community jobs program could make welfare 
participants more competitive in the labor market.
    Both city council bill 354, ``The Transitional Employment 
Program,'' and draft state legislation, ``The Empire State Jobs 
Program,'' present viable alternatives to workfare for welfare 
participants that face multiple barriers to employment. Such a two-
pronged program would provide marketable work experience and allow 
people on welfare to pursue education and training opportunities. 
Together, work experience and skills development will greatly increase 
the probability of finding work.
    A full copy of the WELFARE TO WORK: IS IT WORKING? report may be 
downloaded from the CVH Website at: http://www.cvhaction.org/ or call 
CVH at 212-860-6001.

                                <F-dash>


  Statement of Maurice Emsellem, National Employment Law Project, New 
                             York, New York
    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to submit written testimony for today's hearing focusing on 
state practices related to the work requirements of the Temporary 
Assistance to Needy Families (TANF) program. My name is Maurice 
Emsellem, and I am the Public Policy Director of the National 
Employment Law Project (NELP), a non-profit research and advocacy 
organization specializing in workforce development programs. NELP works 
in collaboration with state policy makers and advocates in support of 
initiatives designed to expand the employment opportunities of low-
income families, especially those families who are now reaching the 
federal five-year time limit on TANF.
    We are writing today in response to recent proposals advocated by 
Mr. Jason Turner, New York City's Commissioner of Social Services, and 
others, urging Congress to significantly expand the work requirements 
of the TANF law. Mr. Turner, who will be testifying before the 
Subcommittee today, has called for new mandates on the states to place 
a larger proportion of the welfare recipients in work, while 
specifically advocating for federal policies that would shift larger 
numbers of welfare recipients into unpaid work experience programs, or 
``workfare.'' In support of this agenda to create large-scale workfare 
programs around the country, Commissioner Turner, in his most recent 
writings, maintains that New York City's workfare program offers 
``guidance as to what might be expected as a result of a more extensive 
national program . . .'' (p. 13).\1\
---------------------------------------------------------------------------
    \1\ Co-authored with Thomas Main, Commissioner Turner's paper 
referred to in this testimony is entitled, ``Work Experience Under 
Welfare Reform''. It was presented at ``The New World of Welfare: An 
Agenda for Reauthorization and Beyond'' conference on January 31, 2001, 
sponsored by the Gerald R. Ford School of Public Policy of the 
University of Michigan (available on-line at http://www.spp.umich/edu/
Conferences/turner-main.pdf).
---------------------------------------------------------------------------
    In our testimony, we respond directly to several key 
representations made by Commissioner Turner in his paper entitled, 
``Work Experience Under Welfare Reform.'' Accordingly, we question the 
conclusion that New York City's workfare program should provide 
guidance for Congressional action designed to expand the work 
requirements of the TANF law. To the contrary, the New York City 
program illustrates the severe limitations and inequities of unpaid 
work experience when operated on a large scale, as proposed by 
Commissioner Turner. Once you have reviewed all the available 
information, we are confident that the Subcommittee will agree with the 
majority of the states that have opted not to implement workfare 
programs. The states have instead developed more promising initiatives, 
such as transitional wage-based employment programs, that are being 
replicated around the country and can be promoted as Congress 
reauthorizes the federal welfare law.
    <bullet> Commissioner Turner significantly downplays the 
displacement of New York City workers caused by the 30,000-person 
workfare program.
    Commissioner Turner: According to Commissioner Turner, ``There is 
no empirical evidence of displacement of public employees by work 
experience participants in work experience programs studied, but this 
can be an issue of concern.'' [Emphasis in original] (p. 20). While 
noting that ``lawsuits alleging displacement of regular employees have 
been filed since 1997,'' the Commissioner also states that ``none has 
resulted in a serious disruption of the program.'' (p. 21).
    Response: In fact, there has been widespread displacement in New 
York City, documented in five separate lawsuits filed since 1998 by 
AFSCME District Council 37 (DC37), the City's largest public sector 
union. For example, in 1999, DC37 filed a lawsuit challenging 
displacement in the City's Parks Department, the agency with the 
largest concentration of workfare workers. The number of City Parks 
workers declined from 1,251 in December 1993 (the month before the 
present Administration took office) to 802 in November 1998, while the 
number of workfare workers increased from 836 in October 1994 to over 
6,000 in September of 1998.\2\ The evidence of displacement was also 
documented by a community-based organization that surveyed over 600 
workfare workers and found that 86% were doing the same work as city 
employees at their worksites.\3\
---------------------------------------------------------------------------
    \2\ The City lost its motion to dismiss the two Parks Department 
cases, and has appealed the judge's decision. The City also lost its 
motion to dismiss lawsuits challenging displacement in entry-level 
clerical and custodial positions in City agencies. According to the 
custodial workers' lawsuit, while there are hundreds of workfare 
workers cleaning the City's welfare offices, the number of custodial 
assistants in these offices has dropped from 136 to 24, representing an 
85% staff reduction. In another City agency, the number of custodians 
dropped from 389 six years ago to just 115 today. A fifth lawsuit that 
is still pending at the trial level challenges displacement in the 
City's public hospitals, where over 600 union workers were scheduled to 
be laid off before the lawsuit was filed. Immediately after the lawsuit 
was filed, all of the workfare workers (over 1,000) were transferred 
from their assignments with the City hospitals.
    \3\ The report, entitled ``The Work Experience Program (WEP): New 
York City's Public Sector Sweatshop Economy,'' was authored by 
Community Vocies Heard (www.cvhaction.org). The report also found that 
workfare workers are performing 35 of 36 tasks in the three union job 
titles surveyed (City Parks workers, custodial assistant, and clerical 
aide), including large numbers of workfare workers who are performing 
the equivalent of supervisory and skilled work.
---------------------------------------------------------------------------
    <bullet> Commissioner Turner misrepresents the position of the New 
York City unions by suggesting that a mutual agreement exists between 
the municipal unions and the City with regard to displacement and the 
workfare program.
    Commissioner Turner: In support of his argument that workfare 
programs can be implemented on a large scale nationally with the 
support of the unions and without displacing other workers, 
Commissioner Turner characterizes the position of the New York City 
unions with regard to the program as follows: ``The mayor and the 
unions came to an agreement, the substance of which has remained in 
effect ever since.'' (p. 21).
    Response: This statement significantly misrepresents the position 
of the New York City unions with regard to the workfare program. In 
fact, due to the vast expansion of the workfare program since 1995 and 
the new displacement protections enacted as part of the 1997 state 
welfare law,\4\ the public sector unions took the City to court to halt 
the displacement caused by the workfare program. In the litigation, the 
City claims that certain documents discussed with the union before the 
1997 change in the state welfare law now bind the union to accept the 
current levels of workfare. According to court papers, however, the 
union unequivocally disputes the City's claim.\5\ Furthermore, 
testifying before the City Council in April 1999, Lee Saunders, 
Administration of DC37, criticized the workfare program for creating a 
subclass of workers, failing to lead to permanent, full-time, 
unsubsidized employment, and causing the elimination of thousands of 
City jobs.\6\ Thus, it is entirely inaccurate to imply that there is 
any mutual agreement between the City and the unions related to 
displacement and the workfare program.
---------------------------------------------------------------------------
    \4\ The 1997 welfare law significantly expanded the state's 
workfare displacement protections. While retaining a number of other 
displacement provisions, the new law prohibited workfare assignments 
where ``a substantial portion of the work [is] ordinarily and actually 
performed by regular employees.'' For the first time, the state law 
also precluded the loss of a bargaining unit position resulting from a 
workfare assignment where the welfare recipient is ``performing, in 
part or in whole, the work normally performed by the employee is such 
position.'' Social Services Law, Section 336-c(e). Also reflecting the 
vast departure from the prior state law, the 1997 amendments eliminated 
the requirement that workfare workers be compensated at the 
``comparable'' wage (i.e., the ``rate of pay for persons employed in 
the same or similar occupations''), while maintaining the requirement 
that workfare workers not be compelled to work hours more than the 
value of their grant divided by the minimum wage.
    \5\ Lee Saunders, Administrator of District Council 37, AFSCME, 
AFL-CIO v. City of New York, Supreme Court of the State of New York, 
County of New York, Index Nos. 102129/1999, 103750/1999, Decision and 
Order denying the City's motion to dismiss, dated March 31, 2000.
    \6\ Testimony of Lee Saunders, Administrator, District Council 37, 
AFSMCE, AFL-CIO, Regarding Int. 354 before the New York City Council 
Committee on General Welfare (April 22, 1999).
---------------------------------------------------------------------------
    <bullet> While Commissioner Turner emphasizes the improvements in 
City services resulting from the workfare program, the presentation 
fails to take into account the negative impact of the program on the 
City's workforce.
    Commissioner Turner: As another selling point for the program, 
Commissioner Turner advances the argument that workfare workers improve 
City services. Thus, he states: ``There can be significant benefits to 
participating agencies which offset some of the costs and provide real 
improvements in the services delivered by government and non-profits.'' 
[Emphasis in original] (p. 17). Again, by way of example, the 
Commissioner refers to the New York City's Parks Department, stating, 
``Largely as a result of additional labor available beginning in 1995, 
which peaked at more than three thousand full-time worker equivalents, 
the acceptable cleanliness rating of the city's parks climbed to 95 
percent.'' (p. 17).
    Response: While it's true that City services have improved as a 
result of the work performed by the more than 250,000 workfare 
participants who have participated in the program since 1995, the 
Commissioner fails to note that that these services were once provided 
by City workers. As described above, the union has filed a lawsuit 
challenging displacement in the Parks Department, where the number of 
regular workers has dropped dramatically since 1995. Thus, City 
services have improved at the expense of regular Parks workers, who are 
paid an entry-level wage of $22,011 versus the $1,400 in annual 
administrative costs to the City per workfare worker. As Judge Richard 
Braun stated in denying the City's motion to dismiss a displacement 
lawsuit, ``Defendants certainly have benefited significantly from their 
reliance on WEP, under which they have received free labor.'' \7\
---------------------------------------------------------------------------
    \7\ See the trial court's Opinion and Order (dated January 19, 
2000), entered by Justice Richard F. Braun in Lee Saunders, 
Administrator of District Council 37, AFSMCE, AFL-CIO v. City of New 
York, Supreme Court of the State of New York, County of New York, Index 
No. 107675/99. Recently, the City proposed creating an additional 
1,000, six-month, paid positions in the Parks Department, using TANF-
subsidized workers. ``City Plans Park Jobs to Follow Welfare,'' Newsday 
 (February 28, 2001). Notably, the state's displacement laws regulating 
TANF subsidized jobs is more strict that the laws that apply to unpaid 
workfare programs. For example, the law expressly requires these 
subsidized TANF workers to be deemed employees for the purposes of the 
state's collective bargaining laws. It also requires parity in benefits 
and notice must be provided to the union with an opportunity for the 
union to comment on the proposed placements. Social Services Law 
Section 336-f.
---------------------------------------------------------------------------
    <bullet> Commissioner Turner's statements notwithstanding, 
employment law protections have played a critical role in New York City 
and elsewhere to restrict flagrant exploitation of workfare workers and 
to value the work of welfare recipients.
    Commissioner Turner: The Commissioner argues at length that basic 
workplace protections, including Title VII of the Civil Rights Act of 
1964, the Americans with Disabilities Act, Occupational Safety and 
Health laws, and the Fair Labor Standards Act, are ``out of place in 
the context of state run work experience programs under TANF.'' (p. 
24).
    Response: The Commissioner's argument, that employment laws should 
not apply to workfare workers, is incompatible with the workplace 
exploitation suffered by many workfare workers and with the public 
policy goal of promoting the value of work on the part of welfare 
recipients.
    Like many other low-wage workers, workfare workers are in need of 
vigilant enforcement of the nation's employment laws, as evidenced by 
the repeated violations of basic employment rights that have been 
documented in New York City. For example, the Commissioner fails in his 
writings to mention that the Equal Employment Opportunity Commission 
(EEOC) found reasonable cause to pursue sexual harassment charges 
against the City's workfare program as well as a systemic claim of 
disability discrimination.\8\ In addition, a New York appeals court has 
found that workfare workers are ``public employees'' within the meaning 
of the state's health and safety laws.\9\ And with regard to the 
minimum wage specifically, the Commissioner's concerns are belied by 
the fact that New York City has operated a large-scale workfare program 
that is subject to the minimum and overtime laws and the state's 
welfare law limiting the hours of work that can be performed by 
workfare workers.
---------------------------------------------------------------------------
    \8\ According to NOW Legal Defense and Education Fund, since 1998, 
at least 10 sexual harassment complaints have been filed against the 
City with the Equal Employment Opportunity Commission (EEOC), including 
a charge against the welfare department itself where a workfare worker 
was pressured to have sex by her supervisor. In 1999, the EEOC found 
``reasonable cause'' to pursue certain charges. ``City Must Shield 
Workforce on Harassment,'' New York Times (October 1, 1999). The EEOC 
District Director also concluded that methadone users were being 
discriminated against in the operation the program, in violation of the 
ADA. ``Workfare Victory for a Recovering Addict Holds Promise for 
Others,'' New York Times (September 10, 2000).
    \9\ Capers v. Giuliani, 1998 WL 596625 (N.Y. App. Div. 1998) 
(holding that workfare workers are covered by the state's public 
employee health and safety law, while also reversing the trial court's 
decision that had authorized 6,000 workfare workers to sue as a class 
to enforce the state's public sector health and safety laws).
---------------------------------------------------------------------------
    Finally, as documented by many studies, it's clear that welfare 
recipients have played by the rules of the 1996 welfare law, leaving 
welfare when they are able and entering the workforce in record 
numbers. Consistent with the stated public policy to reward work, their 
efforts should be valued and respected accordingly. Thus, as Peter 
Cove, the founder of America Works, stated in 1997, federal policies 
enforcing the workplace rights of welfare recipients ``tells them that 
they're being valued, and that's terribly important.'' \10\
---------------------------------------------------------------------------
    \10\ ``White House Calls for Minimum Wage in Workfare Plan,'' New 
York Times (May 16, 1997).
---------------------------------------------------------------------------
    <bullet> In anticipation of the federal time limit on TANF, the New 
York City Council and other state and local policy makers have adopted 
other more promising welfare-to-work initiatives, such as transitional 
wage-based employment, not more large-scale workfare programs.
    At the same time that Commissioner Turner is proclaiming New York 
City's workfare program a success and a model for Congress to expand 
the work requirements of the TANF law, New York City enacted 
legislation requiring the City to create a more promising alternative 
to the workfare program, called the Transitional Jobs Program (TJP). In 
contrast to the City's workfare program, the TJP would provide 
subsidized wage-paying jobs with training for those low-income families 
in New York who are having the most difficult time finding employment. 
The City Council recognized that an alternative to workfare is required 
as more than one-third of the New York City TANF caseload (59,000 
families) is expected to reach the federal time limit, a much larger 
proportion than any other county in the State.\11\
---------------------------------------------------------------------------
    \11\ ``State's Poorest Facing Loss of U.S. Aid: 5-Year Limit 
Nearing for 71,400 Families,'' New York Times (February 10, 2001).
---------------------------------------------------------------------------
    A recent national evaluation of the federal Welfare-to-Work program 
conducted by Mathematic Policy Research found that similar transitional 
jobs programs now exist in twenty of the twenty-two cities and state 
studied. In addition, reports from Washington and other states that 
have these programs are showing promising results. In contrast, a New 
York Times editorial endorsing the Transitional Jobs Program had this 
to say about the merits of New York City's workfare program:
    The mayor has created the largest workfare program in the country, 
putting tens of thousands of welfare recipients to work cleaning the 
parks and doing other unskilled work for the city in exchange for 
welfare checks. But the program does relatively little to help 
recipients train for and find permanent jobs. No one knows for sure how 
former welfare recipients are doing because the city irresponsibly 
refuses to monitor their progress.... Experience over the past 20 years 
provides little support for the mayor's optimism about workfare.\12\
---------------------------------------------------------------------------
    \12\ Editorial, ``Finding Jobs for Welfare Clients,'' New York 
Times (March 23, 2000).
---------------------------------------------------------------------------
    Despite the City Council legislation creating the TJP--enacted 
after an override of a Mayoral veto--the present Administration has 
ignored the implementation deadline imposed by the law. As stated in a 
recent letter to the Mayor from the Speaker of the New York City 
Council, the deadline for implementing the TJP passed on January 1, 
2001. According to the Speaker, ``Since that date has come and gone 
with no implementation, and since I am aware of no plan for 
implementation at a later date, I will assume that you have chosen not 
to implement the TJP. I strongly urge you to reconsider.'' \13\ To 
date, there has been no response to the Speaker's letter and to similar 
letters sent over the past several months by other members of the City 
Council.
---------------------------------------------------------------------------
    \13\ Letter from Peter Vallone, Speaker of the New York City 
Council, to the Honorable Rudolph W. Giuliani, dated February 16, 2001.
---------------------------------------------------------------------------
    It is difficult to explain the opposition to implementing this 
relatively modest pilot program (creating 2,500 subsidized jobs a year 
over the next three years compared with the 30,000 welfare recipients 
now on workfare). Politics may be an issue, although the idea of 
creating paycheck jobs rather than workfare jobs has crossed party 
lines in the many states and cities that have adopted similar model 
programs. For example, instead of workfare, Pennsylvania's Republican 
Governor, Tom Ridge, has launched a major initiative to create 16,000 
publicly-funded wage paying jobs. More likely, as advocated in the 
Commissioner's work experience paper, it's really about the 
Administration's uncompromising allegiance to the workfare program.
    We urge the Subcommittee to look at the whole story of the workfare 
program in New York City, and to support public policies that provide 
increased flexibility and resources to adopt model initiatives in the 
states, not less flexibility as proposed by Commissioner Turner. For 
the reasons described above, workfare has not worked in New York City. 
Thus, when reauthorizing the TANF law, Congress should take appropriate 
action to address the program's inequities and promote other, more 
promising, welfare-to-work programs. Mr. Chairman and Members of the 
Subcommittee, thank you again for this opportunity to testify.

                                <F-dash>


                          Statement of NETWORK

    NETWORK, a national Catholic social justice lobby, has been 
involved in the welfare reform debate for many years. As an 
organization made up of more than 11,000 groups and individuals, many 
of them faith-based social service providers, NETWORK expressed early 
concern that provisions of welfare law were demeaning and unjust, and 
in need of reform. NETWORK is on record as opposing The Personal 
Responsibility and Work Opportunity Reconciliation Act of 1996, 
however, since we believed that it was more focused on reducing welfare 
rolls than eliminating poverty and the suffering it causes. We also 
expressed grave concern about the demonstrable harm done to people 
living in poverty when government assistance programs lose entitlement 
status.
    In 1996, NETWORK initiated a multi-year, nationwide study to 
monitor implementation of welfare reform legislation in order to 
evaluate both its effectiveness and its limitations. Working in 
partnership with four member organizations (The Institute of the 
Sisters of Mercy of the Americas, the Federation of the Sisters of St. 
Joseph, Pax Christi USA and the Daughters of Charity United States 
Provinces), we utilized the resources of affiliated social service 
agencies to personally interview almost 4,000 people receiving services 
at soup kitchens, homeless shelters and other facilities.
    Extensive statistical information was collected and analyzed by 
Professor Douglas Porpora of Drexel University. Preliminary data were 
published in NETWORK's 1999 report entitled Poverty amid Plenty: The 
Unfinished Business of Welfare Reform, which also included anecdotal 
information collected during the study. NETWORK will publish a follow-
up report in the summer of 2001, based on newly collected data. This 
report will be disseminated to Congress, the media, and the general 
public. It will also serve to inform NETWORK's Economic Equity 
Campaign, a nationwide effort to mobilize citizens to become involved 
in the welfare reform reauthorization debate and to educate public 
officials about the needs of people who are still living in poverty.
    Welfare reform supporters are quick to say that welfare reform is a 
success because national welfare caseloads are down by more than half. 
NETWORK acknowledges that welfare rolls are down, but the NETWORK study 
paints a troubling picture of what happens to many people who continue 
to suffer the effects of poverty.
    Since this hearing is addressing issues around current work 
requirements, we would like to focus our remarks on some of our 
findings concerning working families and individuals.
    As indicated in NETWORK's 1999 report, many people leaving the 
welfare rolls are not moving into jobs that provide economic security. 
Unstable work histories, along with low-wage and part-time jobs with 
inadequate benefits, are forcing many people to turn to faith-based and 
community facilities to help meet their most basic needs.
    Particularly striking, our findings showed that employed people who 
turn to social service facilities are just as likely as people without 
jobs to report that their children suffer from inadequate food, 
inadequate health care and unmet dental needs. Specifically, 22% of 
employed parents reported that their children had less access to food 
in the previous six months than formerly, compared with 25% of jobless 
parents. Fourteen percent of both employed and unemployed parents 
reported that their children lacked adequate health care, while 24% of 
employed parents indicated that their children's dental needs were not 
being addressed, compared with 25% of those who were unemployed.
    Among the adults, fully 41% of those with jobs had experienced 
hunger during the previous six months.
    We also found that Latinos were disproportionately suffering under 
welfare reform, especially in light of other immigration-related 
legislation passed in 1996. This finding is particularly troublesome 
when we note that the population of Hispanic women in need of aid has 
been growing since 1996.
    NETWORK has just completed a new survey of people receiving 
services at approximately 100 soup kitchens and other facilities across 
the nation. Although our results aren't yet fully tabulated, we are 
conscious of increasing numbers of working families, some with incomes 
above the official poverty line, who are showing up in soup kitchens 
and food pantries to feed themselves.
    There is clearly a disconnect between those who believe that 
welfare reform is working and people we have met who are forced to turn 
to soup kitchens to help feed their children. One of the important 
aspects of our study is that a substantial percentage of the people we 
have surveyed lack both stable addresses and working phones. They are, 
as Senator Paul Wellstone has called them, the ``disappeared,'' people 
who fall between the cracks and are not counted in most official 
surveys or studies.
    Until and unless our nation has connected with the ``disappeared'' 
and provided the services they need to move themselves out of poverty, 
we should not consider diverting TANF funds to other purposes. This is 
especially true at a time when an economic slowdown may make it harder 
for people to find and keep jobs and when many people left on the 
welfare rolls need additional resources because of multiple, serious 
barriers to employment.
    Obstacles to employment such as inadequate child care, job training 
and transportation, unstable or unaffordable housing, language 
barriers, and poor health care and nutrition also need to be more fully 
addressed. Time limits must be extended for working people who do not 
earn enough to support themselves without TANF benefits. More 
exceptions to the five-year limit are necessary for people unable to 
move from welfare to work. Justice also demands that we increase the 
minimum wage until it is a living wage.
    There has been much talk in recent weeks about turning more to 
faith-based social services to help people in poverty. In keeping with 
Catholic Social Teaching, NETWORK believes that the role of government 
is to promote the common good and to provide for basic human needs when 
they are unmet. This is done both by ensuring assistance to people who 
are poor and by creating social and economic structures through which 
the basic needs of all are addressed. Although faith-based and other 
community organizations can play a partnering role in meeting the needs 
of people struggling in poverty, they are not a substitute for the 
central role of government.
    Our government can and must do more to enable people to move 
successfully from welfare to work and to support themselves and their 
families in a dignified way when employed. NETWORK asks that Congress 
authorize and fully fund programs to achieve these goals.

                                <F-dash>


          Statement of Deborah Noble, Willimantic, Connecticut

    My name is Deborah Noble and I am from Willimantic, Connecticut. I 
am very concerned about the April 5th, 2001 hearing which will be 
convened by the Subcommittee on Human Resources. The meeting is 
regarding work requirements in the Temporary Assistance for Needy 
Families (TANF) cash welfare programs, as well as other means-tested 
benefit programs. I ask that you please read this letter and submit it 
for consideration by the Subcommittee on Human Resources and for 
inclusion in the public record.
    I am one of many individuals who has been able to move successfully 
back into the workforce after being on welfare. I was able to 
accomplish this only after attending a community college. During my 
second semester there I was fortunate to have been employed in a work 
study position as well. Since attending college my family and I have 
become self-sufficient and are completely free from any sort of public 
assistance.
    I can not emphasize enough the need for education before forcing 
TANF recipients into the workforce or workfare programs. In addition to 
that, I would ask that the work that one does as a parent be given the 
respect and consideration it is due.
    In conclusion, by being able to attend a community college I 
learned more than mere academics. I discovered a world of 
opportunities; opportunities which are now being denied, or at the very 
least, restricted to most individuals now receiving state and/or 
federal assistance. Education gives us the tools to build the 
foundation of a healthy and prosperous life for ourselves and our 
families. This opportunity should be granted and encouraged so that 
these individuals who so desperately need to lift themselves out of 
poverty are given the building blocks to do so.

                                <F-dash>


 Statement of NOW Legal Defense and Education Fund, New York, New York
    <bullet> Employment law protections are essential for recipients of 
Temporary Assistance to Needy Families. In particular, we would like to 
respond to the written and spoken statements made at this hearing by 
Jason Turner, Commissioner of the New York City Human Resources 
Administration (HRA). Specifically, Commissioner Turner urged Congress 
to amend TANF or other federal statutes so that ordinary work 
protections such as civil rights and health and safety laws no longer 
apply to welfare workers.\1\ This would be a tragedy for poor women 
required to cooperate with work requirements in order to receive 
subsistence benefits for their families. Federal civil rights and labor 
laws provide crucial protection for workfare participants from sexual 
harassment as well as other forms of discrimination.
---------------------------------------------------------------------------
    \1\ We are responding to the written version of Commissioner 
Turner's statements. See http://waysandmeans.house.gov/humres/107 cong/
4-3-01/4-3turn.htm.
---------------------------------------------------------------------------
    <bullet> Nontraditional job training opportunities should be 
increased and made available to women on welfare. Another concern 
raised by the ``work first'' nature of welfare reform is the need for 
welfare recipients to secure stable employment that pays a living wage. 
Although studies have shown that many welfare leavers have found work, 
most are stuck in low-paying, dead-end jobs.\2\ A proven path to 
economic stability is investment in nontraditional employment 
opportunities for women on welfare. While states already enjoy some 
flexibility to craft nontraditional employment programs, Congress 
should allow states the flexibility to have TANF programs that provide 
training for jobs that will provide a decent wage and should, in fact, 
consider incentives to the states to do so when it reauthorizes TANF.
---------------------------------------------------------------------------
    \2\ Urban Inst., ``Families Who Left Welfare: Who Are They and How 
Are They Doing?'' (1999).
---------------------------------------------------------------------------
    <bullet> Access to child care is a major barrier to full time 
employment for women who are TANF recipients. The average age of TANF 
children is about 7.7 years.\3\ At the same time, 57.3% of TANF 
recipients have children under age 6 and 42 percent of former 
recipients have children under age 6.\4\ These parents, mostly single 
mothers, simply cannot work outside their home without child care. 
Indeed, states are finding lack of child care to be the single most 
important barrier to a single mother's ability to work outside the 
home.\5\ This committee should recognize that providing appropriate 
care for their children is often the reason that recipients cannot meet 
work requirements or retain jobs.
---------------------------------------------------------------------------
    \3\ Department of Health and Human Services, Characteristics and 
Financial Circumstances of TANF Recipients, FY 1998 http://
www.acf.dhhs.gov/news/welfare/congress/tanfp7.htm.
    \4\ Pamela Loprest, Families Who Left Welfare: Who Are They and How 
Are They Doing? (Urban Institute, 1999) 6, Table 1; Committee on Ways 
and Means, U.S. House of Representatives, 2000 GREEN BOOK (October 6, 
2000) 437. This is considerably higher than the 32 percent of women in 
the low-income population generally with children under age 6. Loprest 
at 6.
    \5\ Sharon K. Long, Urban Inst., Child Care Assistance Under 
Welfare Reform: Early Responses By the States 7, 8 (1998); Loprest, n. 
20.
---------------------------------------------------------------------------
    <bullet> Welfare work programs will not succeed if the reality of 
violence in poor families is not addressed. Numerous studies have 
documented the prevalence of violence among TANF families: up to one 
half of adult TANF recipients have experienced domestic or sexual abuse 
and up to one-quarter have experienced a violent incident by an 
intimate partner in the last 12 months.\6\ Many women turn to welfare 
to provide the financial support they need to leave a violent 
relationship, or when they have lost their job because of the violence 
in their lives. The ``work first'' message in TANF can be detrimental 
to violence victims if their special needs are not taken into account. 
This committee should insure that the needs of domestic violence 
victims are addressed in TANF reauthorization.
---------------------------------------------------------------------------
    \6\ Eleanor Lyon, National Resource Center on Domestic Violence, 
Welfare, Poverty, and Abused Women: New Research and its Implications 1 
(2000); U.S. Gen. Accounting Office, Domestic Violence: Prevalence and 
Implications for Employment Among Welfare Recipients 15-16 (1999). See 
also, Equal Rights Advocates, From War on Poverty to War on Welfare: 
The Impact of Welfare Reform on the Lives of Immigrant Women 38, 40 
(1999). One reason for the high rates of domestic violence among TANF 
recipients may be that parents fleeing abusive relationships may turn 
to TANF to meet their economic needs.
---------------------------------------------------------------------------
    <bullet> Mothers' care giving is work and does have value. In 
response to those testifying about the intrinsic moral value of 
``work'' even without basic worker protections or supports, we want to 
make it clear that women caring for their children at home are 
performing socially valuable and important work. When crafting TANF 
policies, this committee should recognize the importance of the care 
provided by single mothers for their children (especially in the 
absence of affordable quality child care) and the time that care takes.

                               TESTIMONY

    Thank you for this opportunity to submit a written statement for 
this hearing on welfare reform and work programs. The NOW Legal Defense 
and Education Fund has been working for thirty years to define and 
defend women's rights. One of our major goals is to eliminate barriers 
that deny women economic opportunities. In furtherance of that goal, 
NOW Legal Defense has litigated numerous cases to secure full 
enforcement of laws prohibiting employment discrimination. NOW Legal 
Defense has appeared before the Supreme Court of the United States in 
both gender discrimination and welfare cases. In addition, we address 
welfare reform issues from the perspective of ending women's poverty. 
To this end, we have convened the Building Opportunities Beyond Welfare 
Reform Coalition (BOB Coalition), a national network of local, state, 
and national groups, including representatives of women's rights, civil 
rights, anti-poverty, anti-violence, religious and professional 
organizations.
    Our testimony focuses on the need to retain employment protections 
for TANF workers. In considering work requirements for welfare 
recipients, it is also important for this committee to understand the 
particular barriers that women with children face in obtaining and 
retaining paid work outside the home, and we have therefore addressed 
those issues as well.
    Welfare recipients in work and training programs must be covered by 
Federal civil rights and labor laws.
    In the current ``work first'' environment, one issue of paramount 
importance for welfare recipients is that of basic employment 
protections. Just like other employees, welfare recipients in work 
experience programs, welfare-to-work placements and job training 
programs should have the right to a discrimination free workplace. 
Indeed, regulations and guidelines issued by the federal Equal 
Employment Opportunity Commission (EEOC), the Department of Labor and 
the U.S. Department of Health and Human Services make clear that civil 
rights laws prohibiting racial and gender discrimination apply to 
welfare recipients in work and training placements.\7\ Contrary to 
representations made by Commissioner Turner, under current Federal law, 
civil rights statutes prohibiting harassment and differential treatment 
based on race and sex cover welfare recipients and constitute an 
important federal protection that state and local officials cannot take 
away. Congress should do nothing to lessen these critical protections. 
If Congress does act in this area, it should be to clarify that the 
Federal civil rights and labor protection statutes do apply to women in 
TANF work programs.
---------------------------------------------------------------------------
    \7\ EEOC Enforcement Guidance 915.002 (Enforcement Guidance on 
Application of EEO Laws to Contingent Workers Placed by Temporary 
Employment Agencies and Other Staffing Firms), EEOC Compl. Man. (CCH) 
(Dec. 3, 1997); Dep't of Labor, ``How Workplace Laws Apply to Welfare 
Recipients,'' (1997), available at: http://www.dol.gov/dol/asp/public/
w2w/welfare.htm; 45 C.F.R. Sec. 260.365 (1999); 64 Fed. Reg. 17,881 
(Apr. 12, 1999).
---------------------------------------------------------------------------
    Over the past few years, a number of women in New York City's Work 
Experience Program (WEP) have come forward with discrimination 
claims.\8\ Their stories illustrate the plight of many welfare 
recipients. One woman, a client of NOW Legal Defense and the Welfare 
Law Center, complained that her WEP supervisor sexually harassed her 
repeatedly during a time when she, a mother of two, was homeless and 
living in a shelter. Her supervisor made inappropriate sexual comments 
to her, hinting that he could make life easier for her and her children 
if she would reciprocate. The woman felt she had nowhere to turn and 
feared retaliation by her supervisor for not giving in to his advances. 
She ultimately left the placement after her supervisor made a direct 
sexual proposition that she spend the night with him in a motel, which 
she rejected.
---------------------------------------------------------------------------
    \8\ See Nina Bernstein, ``Federal Agency Accuses City of Illegally 
Ignoring Harassment,'' N.Y. Times Oct. 1, 1999 at PIN.
---------------------------------------------------------------------------
    Other women have similar stories. One WEP supervisor would pinch 
the ribs and buttocks of his supervisee and put his hands down her 
pants. After many complaints, the City agreed to transfer her but 
allowed her supervisor to follow her to the new placement and continue 
to harass her. Another woman complained of a WEP supervisor who would 
physically touch her in a sexual manner and would verbally abuse her 
after she rejected his advances. He also called her at home to continue 
the harassment. The supervisor went so far as to threaten the woman's 
life.
    The City's response to each of these complaints was to claim that 
the workers were not entitled to federal civil rights protections. In 
1999, the EEOC found that there was ``reasonable cause'' to believe 
that the New York City Human Resources Administration subjected the 
women to sexual harassment. The EEOC also determined through its 
investigation that the Human Resources Administration violated Title 
VII by failing to inform a class of employees who worked in the WEP 
program of their rights under Title VII and failed to provide a 
mechanism for them to complain about harassment. The U.S. Department of 
Justice is currently investigating the charges.
    Some work experience proponents talk of the moral dignity of work. 
Yet they would treat work experience participants as second-class 
citizens by denying them basic civil rights protections. In New York 
City and around the country, welfare recipients work side by side with 
other employees, performing the exact same tasks. Such recipients are 
employees in every sense of the word and clearly are covered by federal 
anti-discrimination laws such as Title VII of the Civil Rights Act of 
1964, which prohibits discrimination in employment based on race, 
color, sex and national origin, including racial and sexual 
harassment.\9\ Characterizing work experience as education does not 
eviscerate recipients' rights either. Welfare recipients in educational 
programs such as vocational education or other training programs are 
clearly covered by Title IX, the federal law that prohibits sex 
discrimination in federally funded education programs and 
activities.\10\
---------------------------------------------------------------------------
    \9\ See Sherry Leiwant & Yolanda Wu, ``Civil Rights Protections and 
Welfare Employment Programs,'' 31 Clearinghouse Rev. 454, 459-65 (Jan.-
Feb. 1998).
    \10\ See id. at 465-68.
---------------------------------------------------------------------------
    Congress has thus recognized the importance of protecting women 
from discrimination in both work and education. Leaving civil rights 
protections up to the welfare departments of individual counties and 
cities is a huge step backward for those most vulnerable. In New York 
City, despite the existence of language in a workfare manual disavowing 
discrimination, no information was given to workfare workers about what 
steps to take if they were harassed. Fortunately, the EEOC was 
available to take their complaints and investigate their claims; those 
very real complaints are a strong argument that Federal anti-
discrimination laws are necessary to insure that workfare recipients 
are not excluded from basic workplace protections.
    The women who courageously stood up for their rights in New York 
City speak for hundreds of thousands of welfare recipients around the 
country. Many who experience sexual harassment and other forms of 
discrimination suffer in silence out of fear that they will lose 
subsistence-level benefits if they speak out. Congress can and should 
remedy this situation when it reauthorizes TANF by clarifying that 
fundamental civil rights protections apply to welfare recipients in 
work and training programs.
    Nontraditional job training opportunities should be increased and 
made available to women on welfare.
    Job discrimination is a factor in placement of TANF recipients in 
jobs that pay wages that can lift a family out of poverty. Many jobs, 
in which women are poorly represented, such as jobs in the skilled 
trades, technology, law enforcement and the computer industry, to name 
just a few examples, pay good wages with benefits and provide 
opportunities for career advancement.
    The importance of nontraditional jobs for women is highlighted by 
the wage gap. In 1999, women earned only 72% of what men earned.\11\ 
Median weekly earnings for full-time wage and salary workers in 1999 
were $473 for women and $618 for men.\12\ Nationwide, working families 
lose $200 billion of income annually to the wage gap. This amounts to 
an average loss of more than $4,000 each for working women's families 
every year because of unequal pay, even after accounting for 
differences in education, age, location and the number of hours 
worked.\13\ The wage gap is even more pronounced for women of color. 
African-American women are paid 65% of the salaries averaged by white 
men, while Latinas receive a mere 52%.\14\
---------------------------------------------------------------------------
    \11\ Nat'l Comm. on Pay Equity, ``The Wage Gap: 1999.''
    \12\ U.S. Dep't of Labor, Women's Bureau, ``20 Facts on Women 
Workers,'' (Mar. 2000), available at http://www.dol.gov/dol/wb/public/
wb__pubs/20fact00.htm
    \13\ AFL-CIO fact sheets, available at: http://www.aflcio.org/
women/equalpay.htm and http://www.aflcio.org/women/exec99.htm
    \14\ Nat'l Comm. on Pay Equity, ``Advocates Take Action for Fair 
Pay,'' press release (Mar. 13, 2001).
---------------------------------------------------------------------------
    Welfare reform has further exacerbated the effects of the wage gap. 
The average disposable income of the bottom fifth of single-mother 
families increased between 1993 and 1995, but declined between 1995 and 
1997 just as welfare reform was being implemented.\15\ For welfare 
recipients who have found jobs, occupational segregation by gender 
relegates women to low-paying jobs that provide no way out of poverty. 
One study by Mathematica Policy Research, Inc., found that 62.6 percent 
of welfare recipients were employed in female-dominated service sector 
or clerical jobs, with wages averaging $6.50 an hour.\16\
---------------------------------------------------------------------------
    \15\ Center on Budget and Policy Priorities, ``The Initial Impacts 
of Welfare Reform on the Incomes of Single-Mother Families,'' 9 (Aug. 
1999).
    \16\ Rangarajan, Anu et al., ``Employment Experiences of Welfare 
Recipients Who Find Jobs: Is Targeting Possible?'' Mathematica Pol'y 
Res., Inc. (1998).
---------------------------------------------------------------------------
    Recognizing the disadvantages women face entering the work force 
solely because of their gender, Congress should be aware of the 
benefits of nontraditional employment for women. Numerous studies have 
documented the success of nontraditional job training programs in 
placing women in higher paying jobs. For example, a study by Wider 
Opportunities for Women found that women who received training for 
nontraditional jobs earned between $8 and $9 an hour.\17\ By contrast, 
in 1997 the average welfare recipient moving from welfare to work 
earned between $5.60 and $6.60 an hour.\18\ Not only do nontraditional 
jobs provide higher entry-level wages, but they also provide career 
ladders to higher wages. For instance, an operating engineer could 
start by earning $9 per hour and eventually earn $24 per hour.\19\ 
Nontraditional jobs also provide women with increased access to a full 
range of benefits, such as health, family leave, sick leave, retirement 
plans, and paid vacation. Finally, nontraditional jobs can provide 
women with tremendous job satisfaction. Women in nontraditional jobs 
may gain confidence in performing physical labor and take pride in 
learning new and technical skills.
---------------------------------------------------------------------------
    \17\ Roberta Spalter-Roth et al., ``Welfare That Works: The Working 
Lives of AFDC Recipients, A Report to the Ford Foundation'' (1995), 
cited in Inst. for Women's Policy Research, Welfare Reform Network News 
8 (Aug./Sept. 1997).
    \18\ U.S. General Accounting Office, ``Welfare Reform: States and 
Restructuring Programs to Reduce Welfare Dependence,'' 107 (June 1998).
    \19\ Wider Opportunities for Women, Women and Nontraditional Work 
(June 1998) (citing U.S. Dep't of Labor, Bureau of Labor Statistics, 
and the U.S. General Accounting Office).
---------------------------------------------------------------------------
    The good news is that job availability is growing in many 
nontraditional fields, including service sector jobs in computer and 
data processing, and blue-collar jobs such as law enforcement, 
construction, and motor vehicle operation.\20\ At the same time, recent 
reports have detailed a shortage of workers in nontraditional 
fields.\21\ Due to demographic and economic changes, the traditional 
labor supply for the building industry (men between the ages of 18 and 
24) can no longer fill the demand for such jobs. Thus, for instance, 
the Home Builder's Institute has identified women as holding 
``tremendous promise for helping alleviate the labor shortage.'' \22\ 
In short, significant job opportunities await women who gain access to 
training in nontraditional fields.
---------------------------------------------------------------------------
    \20\ U.S. Dep't of Labor, Bureau of Labor Statistics (1999) 
(projecting an average annual growth rate of 7.6% for computer and data 
processing services, and projecting that law enforcement positions will 
grow 30.8% from 1998 to 2008, that construction jobs will grow 8.4%, 
and that motor vehicle operation jobs will grow 15.6%.
    \21\ Dirk Johnson, ``Facing Shortage, Building and Labor Court 
Workers,'' N.Y. Times, Mar. 13, 1999, at A1.
    \22\ Home Builder's Inst., ``Nontraditional Labor: Other Sources of 
Workers'' and ``Nontraditional Labor: NAHB Women's Council and HBI 
Opening New Doors Guide,'' available at: http://www.hbi.org/ls/
index.htm
---------------------------------------------------------------------------
    When Congress reauthorizes TANF, it should prioritize 
nontraditional training and employment as a path towards economic self-
sufficiency. One way to do so is to eliminate the current restrictions 
on education and training. Congress should also focus states' attention 
on the benefits of nontraditional employment by requiring states to 
describe in their state plans how TANF and other resources will be used 
to promote nontraditional employment opportunities and by rewarding 
states that focus resources on such programs.
    Lack of Child Care is A Serious Barrier to Work for TANF Recipients 
And Leavers.
    Both state and federal law recognize the importance of child care 
to parents in welfare-to-work programs by providing parents with 
certain rights and options. Federal TANF law includes an exemption from 
sanctions if a parent cannot work due to lack of child care.\23\ In 
addition, TANF requires that information about the sanction prohibition 
be given to parents so they are not coerced into using unsuitable 
care.\24\ In all states, Child Care Development Block Grant (CCDBG) 
money is available for TANF recipients and those moving off of welfare 
into work. Under the CCDBG, states must insure parental choice for 
families with child care subsidies.\25\
---------------------------------------------------------------------------
    \23\ 42 U.S.C. Sec. 607(e)(2) (2000); N.Y. Soc. Serv. Law 
Sec. 342(1) (2000).
    \24\ 45 C.F.R. Sec. 261.56 (2000); 45 C.F.R. Sec. 98.33 (2000).
    \25\ 42 U.S.C. Sec. 9858C(c)(2)(A)(i); 45 C.F.R. Sec. 98.30.
---------------------------------------------------------------------------
    Despite these legal protections, however, the ``work first'' 
initiatives of some states has made the sanction protection 
ineffective. Many poor women are either sanctioned for failing to 
cooperate with work requirements when they cannot find child care for 
their children or are forced to use inadequate child care so that they 
can meet work requirements and avoid sanctions. In New York City, for 
example, a recent survey conducted by NOW Legal Defense and Education 
Fund found that 79% of respondents had not received written information 
about their child care rights, as mandated by the state and city's most 
recent policy directives; 95% of respondents were not informed by their 
caseworkers that they could not be sanctioned if they were unable to 
work due to lack of child care; 46% of respondents were threatened with 
sanctions if they were unable to work even if the reason was lack of 
child care.\26\
---------------------------------------------------------------------------
    \26\ Roslyn Powell and Mia Cahill, Nowhere to Turn: New York City's 
Failure to Inform Parents on Public Assistance About Their Child Care 
Rights (NOW Legal Defense, 1999); Still Nowhere to Turn (forthcoming 
April, 2000)
---------------------------------------------------------------------------
    Misinformation and threats of sanctions mean that parents may be 
effectively coerced into placing their children in inappropriate child 
care arrangements in order to comply with work requirements. For 
example, in New York, TANF recipients are given only 10 days to find 
child care for their children. It is not surprising with so little time 
to find care that 89% of parents on TANF in New York City use informal 
care--in contrast to only 2% of non-TANF low income families who 
receive child care from the City. This powerfully suggests that parents 
on TANF are being pressured into using unregulated, informal care--or 
no care at all--because they wrongly fear losing their benefits.
    At the same time, subsidies are getting to only a fraction of the 
families eligible for them. This is a particularly serious problem for 
women leaving welfare for work. Although testimony by Commissioner 
Turner and Commissioner Howard indicated that child care is not a 
problem, this is inconsistent with statistical and survey data as well 
as the experiences of our clients. A recent HHS study found that only 
10% of those eligible for child care subsidies receive them.\27\ There 
are long waiting lists for child care in most states. In New York City 
alone, over 38,000 children are on waiting lists for subsidized care; 
in California, nearly 200,000.\28\ Lack of child care for welfare 
leavers virtually assures they will not be able to retain employment or 
that their children will go uncared for.
---------------------------------------------------------------------------
    \27\ U.S. Dept. of Health and Human Services, Access to Child Care 
for Low Income Working Families, www.acf.dhhs.gov/programs/ccb/reports/
ccreport.htm
    \28\ Child Care, Inc., A Child Care Primer, Key Facts About Child 
Care and Early Education Services in New York City, 2000, i.
---------------------------------------------------------------------------
    Domestic Violence Is A Factor in the Lives of Many Poor Women and 
the Needs of Violence Victims Must Be Better Addressed in the TANF 
Program.
    Domestic violence is a prevalent factor in the lives of TANF 
recipients and, in turn, can pose a significant barrier when an 
individual tries to leave welfare for work. Many abusers actively 
sabotage their partners' job or job prospects by verbally abusing their 
partners before interviews, by inflicting injuries before important 
work events or by refusing child care at the last minute.\29\ They may 
stalk, harass or even assault their partners at their work placements 
or new jobs.\30\ In addition, individuals experiencing domestic 
violence may need to take time during business hours to seek legal, 
medical or other assistance. Unfortunately, unless the underlying 
violence is addressed, individuals who do succeed in leaving welfare 
may end up losing their new jobs because of the violence. Studies 
indicate that up to one-half of employees who have experienced domestic 
violence have lost a job due to that violence.\31\ For example, in a 
recent Wisconsin study of current and former welfare recipients who had 
experienced domestic violence, 30% had lost a job due to violence and 
58.7% were threatened so much that they were afraid to work or go to 
school.\32\
---------------------------------------------------------------------------
    \29\ See U.S. Gen. Acct. Office, Domestic Violence Prevalence and 
Implications For Employment Among Welfare Recipients 7 (Nov. 1998); 
Thomas Moore and Vicky Selkowe, Institute for Wisconsin's Future, 
Domestic Violence Victims in Transition from Welfare to Work: Barriers 
to Self-Sufficiency and the W-2 Response 6 (1999); Jody Raphael, Taylor 
Institute, Prisoners of Abuse: Domestic Violence and Welfare Receipt 6-
10 (1996).
    \30\ Studies indicate that between 35 and 56% of employed battered 
women surveyed were harassed at work by their abusive partner. See U.S. 
Gen. Acct. Office, Domestic Violence Prevalence and Implications For 
Employment Among Welfare Recipients 19 (Nov. 1998) (summarizing the 
results of 3 studies).
    \31\ See U.S. Gen. Acct. Office, supra note 8, at 19.
    \32\ Moore & Selkowe, supra note 7, at 5-6.
---------------------------------------------------------------------------
    In 1996, Congress recognized that the new welfare work requirements 
and time limits might unfairly penalize families attempting to leave 
violent relationships when it attached the Wellstone/Murray Amendment 
to the TANF statute. This amendment, popularly known as the Family 
Violence Option (FVO), permits States to provide temporary waivers of 
TANF program requirements.\33\ The goal of the FVO is to permit 
individuals to engage in activities other than work that will help them 
escape from violence in the long run, such as attending counseling or 
seeking legal assistance, and to give extra time to families to become 
self-sufficient so that they are not forced to rely on batterers for 
financial assistance. Specifically, a state that adopts the FVO must 
create a mechanism to screen for domestic violence; refer recipients 
who screen for domestic violence to services; and may waive any TANF 
requirement that ``would make it more difficult for individuals 
receiving assistance . . . to escape domestic violence or unfairly 
penalize such individuals . . . .'' \34\
---------------------------------------------------------------------------
    \33\ 42 U.S.C. Sec. 602 (a)(7).
    \34\ Id.
---------------------------------------------------------------------------
    Since 1996, a majority of states have adopted the FVO or have made 
some provision for domestic violence in their state policies or 
procedures.\35\ Unfortunately, implementation of the FVO continues to 
lag. A case in point is New York City. New York City's welfare 
department has persistently failed to follow state laws and procedures 
enacted to assist domestic violence victims who receive or apply for 
welfare benefits. In 1999, several organizations including NOW Legal 
Defense and Education Fund surveyed welfare recipients, domestic 
violence service providers, and domestic violence caseworkers to 
determine whether New York City was following state FVO laws and 
procedures. The survey results indicate that the New York welfare 
agency failed to meet its legal obligations to victims of violence in 
need of welfare.\36\ For example, although the law requires screening 
of every welfare applicant and recipient for domestic violence, the 
majority of those interviewed in two surveys (56 percent and 72 
percent) were never screened.\37\ Fewer than half of survey 
participants who self-identified in writing as a domestic violence 
victim--and not one of the survey participants who orally told their 
regular caseworkers--were referred to a special domestic violence 
caseworker as required by state law.\38\ According to New York City's 
own data for September 1998 to August 1999, only one-third of the 
individuals who met with a liaison obtained any type of waiver. And, 
the vast majority of those waivers (71 percent) were ``partial child 
support waivers,'' under which victims still must cooperate with child 
support enforcement but the agency will ``make every effort'' to avoid 
contact for the victim with the absent parent in court.\39\ These are 
not waivers that are likely to address the safety issues and service 
needs of domestic violence victims in the TANF program.
---------------------------------------------------------------------------
    \35\ See generally, Jody Raphael and Sheila Haennicke, Taylor 
Institute, Keeping Battered Women Safe Through the Welfare-to-Work 
Journey: How Are We Doing? A Report on the Implementation of Policies 
for Battered Women in State Temporary Assistance for Needy Families 
(TANF) Programs 4 (1999)
    \36\ Marcellene E. Hearn, NOW Legal Defense and Education Fund, et. 
al., Dangerous Indifference: New York City's Failure to Implement the 
Family Violence Option (2000).
    \37\ Id. at 9.
    \38\ Id. at 10-11. In New York, only the domestic violence liaisons 
have the authority to grant Family Violence Option waivers.
    \39\ Dangerous Indifference, supra note 27 at 12-13; Family 
Independence Administration, Policy Directive #99-44R (Jan. 10, 2000).
---------------------------------------------------------------------------
    An audit by the New York State Comptroller of the case files of 
individuals who identified as domestic violence victims confirms NOW 
Legal Defense's findings that New York City caseworkers are not 
following state laws and procedures.\40\ The Comptroller's audit sought 
to determine whether individuals were assessed for domestic violence in 
accordance with state guidelines, if safety plans were developed for 
individuals in crisis, and whether individuals receiving waivers were 
referred to services.\41\ In 50% of the New York City case files 
reviewed, there was no documentation of whether an assessment occurred 
and in 80% there was no written indication of whether the victim's 
safety had been assessed.\42\ The Comptroller's report expressed 
concern that if individuals were not properly assessed then ``victims 
of domestic violence may not be referred to services they need.'' \43\
---------------------------------------------------------------------------
    \40\ New York State, Office of the State Comptroller, Service 
Referral Process for Victims of Domestic Violence, 1999-S-4. 
[Comptroller's Audit].
    \41\ Id. at 2.
    \42\ Id. at 9,11.
    \43\ Id. at 9; Comptroller's Audit Reporter, supra, note 31, at 12-
13 (noting that individuals who received waivers were often not 
referred to any services during the waiver period).
---------------------------------------------------------------------------
    New York City's failure to properly implement the domestic violence 
protections under Federal and state law is, in part, the result of a 
``one size fits all'' approach to work programs. Domestic violence, 
like child care problems discussed above, can create true barriers to 
participation in the kind of workfare program New York runs. Congress 
should insure that stringent work participation requirements or 
draconian sanction measures do not compel states to disregard the needs 
of domestic violence victims. If anything, Congress should strengthen 
the protections currently in the law and require states to address the 
needs of violence victims in their TANF programs.
Mothers' Care Giving Is Work and Does Have Value
    The idea that a mothers' care giving work has no value is central 
to much of the testimony heard by this committee, and indeed to the 
welfare reform discussion generally. It is repeated over and over again 
that reform aims to move recipients ``from welfare to work,'' as if 
only mothers with paid employment are working. Rising employment for 
TANF recipients is said to show success in inculcating the work ethic, 
as if recipient mothers have been idling away their time in activities 
with no social value. This notion that mothers' care giving work is 
valueless is false and pernicious.\44\
---------------------------------------------------------------------------
    \44\ Fathers also give care, but even when fathers are present, 
mothers still typically perform the bulk of the care giving work. Ann 
Crittenden, The Price of Motherhood at 24-25 (2001).
---------------------------------------------------------------------------
    As indicated in the discussion of child care, mothers who receive 
public assistance and former recipients of assistance are likely to be 
single and more likely than other low income women to have small 
children.\45\ It is outrageous to claim that these women caring for 
their pre-school children have no exposure to a work ethic. Mothers 
were well acquainted with ``24-7'' eons before there were dot coms and 
e-commerce. Mothers have been obligated to work from the first instant 
of a child's life long before ``work first'' became a slogan for 
denying women the opportunity to participate in education and training 
programs.
---------------------------------------------------------------------------
    \45\ See n. 20, supra.
---------------------------------------------------------------------------
    Perhaps mothers' care giving work is ignored and dismissed because 
it is not paid, and therefore is not included in our Gross National 
(Domestic) Product. But our economic system's failure to properly 
account for unpaid care giving should not blind us to care giving's 
fundamental importance. Indeed, probably never before in human history 
has care giving been more important or essential to social and economic 
well being. Today, human capital is an even more important component of 
a nation's riches than natural capital or physical capital. The quality 
of early care is one of the most important determinants of human 
intellectual and emotional development. Care and guidance of the young 
child lays the essential groundwork for the formation of knowledge and 
skills. Where valuing of care has been done, the value has been found 
to be high. In Canada, the 1996 census for the first time measured 
unpaid caregiving work done at home. The value placed on that work--two 
thirds of which was done by women-- came to between $221 and $324 
billion.\46\ Those advocating this valuation stated that they did not 
expect actual payment, but their goal was to have this work ``counted 
and recognized when formulating public policy.'' Policy debates in the 
United States must also start counting and recognizing the valuable 
work that all mothers--including poor single mothers--perform when they 
care for their young children.
---------------------------------------------------------------------------
    \46\ Robin Harvey, ``Women Want Value Placed on Unpaid Work in the 
Home,'' TORONTO STAR (February 5, 1998) B5, available 1998 WL 17792562.
---------------------------------------------------------------------------
    Indeed the dollar cost to the nation of providing quality care for 
poor young children while their mother works outside the home is 
potentially greater than the cost of income maintenance for that mother 
to care for her own child. Child care monthly reimbursement rates under 
the CCDBG, uniformly seen as inadequate, are still higher for a single 
infant in a licensed care facility in 40 states than is the monthly 
income maintenance grant for a family of 3 under TANF in those 
states.\47\
---------------------------------------------------------------------------
    \47\ National Child Care Information Center, Child Care and 
Development Block Grant (HHS, March 1998), 63-67; compare with GREEN 
BOOK, n. 4, supra, Table 7-10, pp. 389-390.
---------------------------------------------------------------------------
    While it is important that TANF maintain a focus on providing 
pathways to good jobs for poor families, it is also important that the 
value of the work done by women caring for young children be recognized 
and valued. Particularly in the absence of affordable child care for 
very young children, Congress should ask the question whether it might 
not be better, more moral and, indeed, more economical, to allow poor 
women who wish to do so to care for their young children in their own 
homes rather than insisting that the only valuable work to be performed 
is that which is done outside the home.\48\
---------------------------------------------------------------------------
    \48\ For an excellent portrait of a welfare ``success story,'' and 
the enormous costs to both children and mothers when working outside 
the home is the paramount goal, see Katherine Boo, ``After Welfare,'' 
The New Yorker (April 9, 2000), pp. 93-107.
---------------------------------------------------------------------------
    [The attachments are being retained in the Committee files.]

                                <F-dash>


Statement of Diana Pearce and Jennifer Brooks, Wider Opportunities for 
                                Women *
---------------------------------------------------------------------------

    * Diana Pearce is an Associate Professor at the University of 
Washington in the School of Social Work in Seattle, W.A. Jennifer 
Brooks is Director of Self-Sufficiency Programs & Policy at Wider 
Opportunities for Women (WOW) in Washington, D.C. WOW is a 36-year-old 
national nonprofit organization whose mission is to help women and 
girls achieve equality of opportunity and economic independence.
---------------------------------------------------------------------------

 Measuring the Impact of Welfare's Work Requirements on Family Income 
           and Well-Being Using the Self-Sufficiency Standard

The Impact of TANF Work Requirements:
    Work requirements under Temporary Assistance for Needy Families 
(TANF), combined with the expanding economy of the late 1990s, have 
resulted in an unprecedented decrease in the number of families 
currently on welfare. There is, however, substantial debate about which 
factor--the economy or TANF work requirements--has been more important, 
but together the impact has been dramatic:
    <bullet> The majority of those leaving welfare have entered 
employment. The average number is about three in five, according to the 
Assistant Secretary for Planning and Evaluation's (ASPE) summary of 11 
state or county welfare leavers' studies,\1\ depending upon the measure 
used. (If any earnings during any month counts as ``employed,'' the 
percentage is higher; if the measure is stricter, requiring a minimum 
amount of earnings (such as $100 or $500 per quarter), and/or work in 
all or most months, the percentage is substantially lower).
---------------------------------------------------------------------------
    \1\ Initial Synthesis Report of the Findings from ASPE's 
``Leavers'' Grants, Prepared by Gregory Acs and Pamela Loprest, The 
Urban Institute, Washington, DC 20037, January 4, 2001, http://
aspe.hhs.gov/hsp/leavers99/synthesis01/.
---------------------------------------------------------------------------
    <bullet> Average wages have been low, averaging about $7 to $8 per 
hour. While the majority work full-time, a substantial number do not, 
so the average work week is about 30-35 hours. Thus, these wages and 
hours yield earnings of roughly $900-$1200 per month, which is 
approximately 75-100% of the poverty line for a family of three.
    <bullet> Steady work has not characterized most of those employed, 
so that average earnings over the year are considerably less than the 
hourly or monthly numbers suggested above.\2\
---------------------------------------------------------------------------
    \2\ According to Acs and Loprest, although ``slightly over half of 
all leavers work in any given post-exit quarter, it is not uncommon for 
leavers to cycle in and out of jobs; consequently, the share of leavers 
who ever worked over the year after exit is considerably higher and the 
share who worked in all four quarters is considerably lower.'' Initial 
Synthesis Report of the Findings from ASPE's ``Leavers'' Grants, 
Prepared by Gregory Acs and Pamela Loprest, The Urban Institute, 
Washington, DC 20037, January 4, 2001, http://aspe.hhs.gov/leavers99/
synthesis01/.
---------------------------------------------------------------------------
    <bullet> Not surprisingly, the level of material hardships found 
has been significant, affecting substantial proportions of current and 
former welfare recipients. Thirty-six percent of families have gone 
without meals, 2.5 million individuals have gone to food pantries, and 
one in 10 families have lost their housing and become homeless due to 
loss of TANF benefits.\3\
---------------------------------------------------------------------------
    \3\ Arloc Sherman, et al., Welfare to What? Early Findings on 
Family Hardship and Well-Being, (Washington, D.C.: Children's Defense 
Fund and National Coalition for the Homeless, December 1998). According 
to the report, one in three children in families who recently lost TANF 
assistance (36%) were ``eating less or skipping meals due to cost'' 
according to a 1997 survey of 70 agencies (p. 20). Out of 27,700 
clients surveyed at food banks and soup kitchens nationwide, one in 
eight had recently come off of public assistance--families and 
individuals. Second Harvests' survey represents more than 21 million 
individuals nationwide who use their food assistance program. If these 
numbers are representative, then more than 2.5 people turn to emergency 
food programs and food banks after losing public assistance (p. 20). An 
Atlanta survey found that nearly one-half (46%) of the 161 homeless 
families with children interviewed in shelters or other homeless 
facilities had lost TANF benefits in the past 12 months. In a survey of 
777 homeless families in 10 cities nationwide in 1997 and 1998, one in 
10 indicated their homelessness was due to loss of TANF benefits (p. 
20).
---------------------------------------------------------------------------
    In sum, the results of the TANF work requirements, though dramatic, 
are a mixed bag. On the one hand, more families have parents in the 
workforce, which potentially is a positive, for it decreases dependence 
on welfare and increases, at least potentially, economic independence. 
On the other hand, families with employed parents also have added work 
expenses, so that while income may increase (compared to cash 
assistance) expenses related to employment (such as child care, 
transportation, and taxes) may increase even more. Indeed, careful 
research by Edin and Lein \4\ concluded that when a straightforward 
comparison of expenses versus resources was made, welfare-reliant 
families were ``better off'' than work-reliant families.
---------------------------------------------------------------------------
    \4\ Kathryn Edin and Laura Lein, Making Ends Meet: How Single 
Mothers Survive Welfare and Low-Wage Work, (New York: Russell Sage 
Foundation Publications, 1997.
---------------------------------------------------------------------------
    Because of the substantial difference in expenses between families 
with parents in the workforce and those that are not, as well as the 
substantial differences in expenses such as housing and child care 
between different places, one cannot use a standard such as the poverty 
measure to determine the well-being of families, and ultimately, the 
impact of TANF work requirements. The poverty measure does not 
distinguish between families with adults in the workforce, and those 
with no working adults, nor does it take into account the differences 
between places in costs. Finally, the poverty standard does not take 
into account the differences in costs by age of children (especially 
child care).
    Any real look at these questions requires an adequate measure of 
how much it takes to live in a given place, which is exactly what the 
Self-Sufficiency Standard is designed to do. Unlike the federal poverty 
standard, the Self-Sufficiency Standard accounts for the costs of 
living and working as they vary by family size and composition and by 
geographic location. The Self-Sufficiency Standard can help us to 
understand the quality and severity of the gap between resources and 
needs for families across the country who are leaving welfare and 
entering the workforce. For example,
    <bullet> In Washington D.C., a single mother with one preschooler 
and one school-age child needs a monthly income of $3,993 to cover her 
costs if she receives no subsidies.
    <bullet> However, in Rapid City, South Dakota, that same family 
would need a monthly income of $2,235.
    These numbers are drawn from the Self-Sufficiency Standard for 
these states. The Self-Sufficiency Standard calculates how much money 
working adults need to earn to meet their families' basic needs without 
subsidies of any kind. The Standard defines the amount of income 
necessary to meet basic needs (including paying taxes) in the regular 
``marketplace'' without public subsidies (such as public housing, food 
stamps, Medicaid, or child care) or private or informal subsidies (such 
as free babysitting by a relative or friend, food provided by churches 
or local food banks, or shared housing). The Standard is varied by the 
age of the children, and by where one lives. (For further comparisons 
of the cost of living for various family types across a number of 
states and cities, please see the Appendix).
The Gap Between Welfare Leavers' Wages and Self-Sufficiency:
    If mothers leaving welfare earn the national average ($7 to $8 per 
hour), even in South Dakota they would have less than half the 
resources they need to cover their costs. In Washington, D.C., they 
would have only one-fourth of what they would need, at a minimum--not 
enough to even cover the rent. However, many families do not earn Self-
Sufficiency Wages, particularly if they have recently left welfare for 
the workforce or live in high cost areas.
    Without additional work supports, many families cannot afford their 
housing and food and child care--much less their other basic needs. 
They are likely to be forced to choose between needs, or accepting 
substandard or inadequate child care, insufficient food, or substandard 
housing. The gap between their earnings and the costs of their basic 
needs also affects their ability to keep a job, or progress in the 
workforce. If a single mother cannot afford childcare, her ability to 
sustain a full-time job is severely in jeopardy. Likewise, if a parent 
is forced into low wage work with little possibility for wage 
progression, he or she is not likely to be able to sustain his/her 
family for a long period of time. Thus, the problem is not about ``bad 
budgeting'' or ``bad choices'': it is about inadequacy of wages alone 
for many families.
Covering Costs and Closing the Income Gap--Raising Wages and Lowering 
        Expenses:
    There are two basic approaches to close this gap between what a 
family needs, and earnings that many are experiencing when leaving 
welfare. One approach is to raise wages. The other is to lower expenses 
through supports/subsidies--public and/or private, in cash or ``in 
kind.''
    These two approaches can and should be used, as appropriate, 
sequentially or in tandem. There is not a single solution, a one-size-
fits-all answer, for each parent and family is different. For example, 
some parents may combine work and study from the outset so that they 
can then move into jobs that pay higher wages. Alternatively, some 
parents may receive skill development through education and training, 
followed by jobs that are supplemented by supports (if necessary) until 
their wages reach the self-sufficiency level. Whatever choices are 
made, policymakers should ensure that parents are able to choose the 
path to self-sufficiency that best safeguards their family's well-being 
and allows them to balance work, education and family responsibilities. 
Below, we describe some key strategies on either side of this 
equation--raising wages and providing public supports.
Raising Wages--Building Skills, Targeting Jobs:
    In order to increase the wages received by parents leaving welfare 
for the workforce, the focus must be on the first job. It has long been 
recognized that women particularly experience substantial 
``occupational segregation'' in the labor market, with many women 
workers crowded into a few occupations, such as cashier, clerical 
worker, and food service, many of which pay low average wages. 
Recently, research has documented that for welfare leavers in 
particular, ``wage progression'' does not happen automatically. In 
fact, if one enters the work force at a job with low wages, one is not 
likely to move up.\5\ Therefore, one's first job needs to offer an 
adequate wage.\6\ Wider Opportunities for Women has, for over three 
decades, understood the value of building the skills of lower-income 
individuals and targeting resources on well-paying jobs. We support 
four approaches that increase the likelihood of achieving higher 
initial wages.
---------------------------------------------------------------------------
    \5\ Julie Strawn and Karin Martinson, Steady Work and Better Jobs: 
How to Help Low-income Parents Sustain Employment and Advance in the 
Workforce, (New York: Manpower Demonstration Research Corporation, 
2000).
    \6\ According to Strawn and Martinson, the factors predicting 
higher wages are: starting off in higher-paying jobs, changing jobs 
(but not too often), having or acquiring higher basic skills and 
postsecondary education/training, and starting off in certain 
occupations. Likewise the factors predicting steady work include: 
starting off in higher-paying jobs, working steadily initially, working 
in certain occupations (not sales), and having jobs with benefits.
---------------------------------------------------------------------------
    1. Training and Education: Research shows that neither job search 
nor basic education alone are particularly effective in moving welfare 
recipients into well-paid work. For many low-income parents moving into 
the workforce, the ability to move into jobs that pay Self-Sufficiency 
Wages will depend on access to effective skill upgrading services.\7\ 
According to Manpower Demonstration Research Corporation, entering the 
workforce with higher basic skills leads to modestly higher wages. 
However, education beyond high school is linked to substantially higher 
wages.\8\ Adults who have language difficulties, inadequate education, 
or who lack job skills or experience, cannot achieve Self-Sufficiency 
Wages without access to training and education. For some, this may mean 
ESL (English as a Second Language), Adult Basic Education (ABE) and/or 
the GED (General Education Degree). For others, this may mean two- or 
four-year degrees.
---------------------------------------------------------------------------
    \7\ Julie Strawn and Karin Martinson, Steady Work and Better Jobs: 
How to Help Low-income Parents Sustain Employment and Advance in the 
Workforce, (New York: Manpower Demonstration Research Corporation, 
2000.)
    \8\ Ibid.
---------------------------------------------------------------------------
    At the same time, it is clear that for single parents, pursuing 
post-secondary education simultaneously with meeting work requirements 
(of 20 to 30 hours per week), as well as single parenting, is 
difficult, a triple burden that is often very difficult to accomplish. 
Single parents need the opportunity to pursue post-secondary education 
to increase their access to well-paying employment. If the work 
requirements under TANF could be satisfied with post-secondary 
education, welfare recipients would be able to gain the skills that 
would help them become self-sufficient, and do so much more quickly 
than when they try to combine school and work simultaneously.
    2. Functional Context Education: Rigorous research demonstrates 
that pre-employment services that provide ``a flexible, individualized 
mix of services--primarily job search, work-focused education, life 
skills, and job training'' and that make job quality a central goal \9\ 
effectively help welfare recipients find better jobs. Wider 
Opportunities for Women has long advocated for training programs to 
utilize instructional strategies that integrate literacy skills and job 
content. This approach--called Functional Context Education (FCE)--
works well for many low-skilled individuals who have experienced 
educational failures in the past. It provides skill development 
opportunities in the context that the learner will use them--in the 
context of a job. Strong employer input and participation is key. 
Programs using FCE are able to do in months what traditional programs 
take years to do because programs teach literacy and basic skills in 
the context in which the learner will use them rather than in isolated 
segments. This shorter timeframe is especially critical considering the 
time constraints under TANF and the personal time constraints of single 
parents.\10\
---------------------------------------------------------------------------
    \9\ Ibid.
    \10\ Wider Opportunities for Women, Six Strategies for Self-
Sufficiency (Washington, D.C.: Wider Opportunities for Women, 1996). 
For examples of model Functional Context Education Programs see Center 
for Employment Training program in San Juan, California and Wider 
Opportunities for Women, Work Skills program in Washington, D.C.
---------------------------------------------------------------------------
    3. Targeting Higher-Wage Jobs: In every labor market, jobs exist 
that are in high demand by employers and pay decent wages. Starting out 
in better jobs (in terms of higher hourly wages or benefits) or in 
certain occupations (production, manufacturing, cleaning maintenance, 
etc. as opposed to sales) is linked both to job retention and to having 
higher wages later.\11\ Many of these jobs do not require substantial 
post-secondary training or education. However, identifying such jobs 
requires that an analysis be done to determine which industries, in a 
given labor market: (1) pay Self-Sufficiency Wages, (2) are 
experiencing shortages (unmet demand), (3) what barriers exist between 
these jobs and jobseekers (such as transportation/location, skill sets, 
language, etc.), and (4) what infrastructure (such as training programs 
or transportation) is required to bring jobs and jobseekers 
together.\12\ States should be required to identify higher-wage 
industrial sectors that need workers for welfare-to-work placements.
---------------------------------------------------------------------------
    \11\ Julie Strawn and Karin Martinson, Steady Work and Better Jobs: 
How to Help Low-income Parents Sustain Employment and Advance in the 
Workforce, (New York: Manpower Demonstration Research Corporation, 
2000), p. 19.
    \12\ This approach is called a ``sectoral employment 
intervention.'' For more information, see Wider Opportunities for 
Women, Six Strategies for Self-Sufficiency (Washington, D.C.: Wider 
Opportunities for Women, 1996); or the National Network of Sector 
Practitioners at http://www.nedlc.org/nnsp/.
---------------------------------------------------------------------------
    4. Increasing Access to Nontraditional Occupations: According to 
the U.S. Department of Labor, nontraditional occupations (NTOs) are 
jobs in which 25 percent or less of the workforce is female. NTOs pay 
20-30% more than jobs traditionally held by women and offer excellent 
benefits and career advancement potential.
    For many women, nontraditional jobs (such as construction, copy 
machine repair, X-ray technician, or computer-aided drafting) require 
relatively little post-secondary training, yet provide wages at Self-
Sufficiency levels. To enhance women's access to these jobs--or 
training leading to these jobs--requires addressing a range of barriers 
that prevent women from entering and remaining in nontraditional 
occupations. Giving women the opportunity to learn about different 
career options, including their wages and benefits through career 
counseling, may be sufficient to access some of these jobs, while other 
nontraditional jobs require access to training or pre-apprenticeship 
preparation classes. Retention in nontraditional occupations may 
require supports such as nontraditional-hour child care or support for 
buying tools and special equipment.\13\
---------------------------------------------------------------------------
    \13\ See Wider Opportunities for Women's http://www.work4women.org/
for more information about nontraditional employment for women.
---------------------------------------------------------------------------
Lowering Costs--Public and Private Supports/Subsidies:
    The other side of the self-sufficiency equation is reducing the 
costs and adequately meeting the needs of low-income families and 
welfare recipients through work supports/subsidies, both public and 
private. At the crucial point in their lives of entering employment, 
such subsidies can help a family achieve stability in meeting each 
basic need, without scrimping on nutrition, or living in overcrowded or 
substandard housing, or using inadequate child care. This stability can 
help a family maintain employment, which is a necessary condition for 
achieving wage adequacy and improving wages.
    Below we discuss several of these alternatives: work supports 
(federal and state), child support, and health care coverage.
    1. Work Supports (Food Stamps, Medicaid, cash assistance (TANF), 
housing and child care subsidies): Because many parents earn low wages 
after they leave welfare, they continue to be eligible for Food Stamps 
and/or Medicaid. However, the number of families receiving these 
supports is considerably lower than the number eligible.\14\ While this 
discrepancy may, in some cases, be by choice, the impact is that 
families whose resources are, by definition, scarce and inadequate 
(otherwise, they would not be eligible for these programs), are forced 
to use their limited resources to try to meet all their needs, and in 
most cases cannot do so adequately. Subsidies or vouchers such as cash 
assistance (TANF), child care, and/or transportation (tokens or 
employer subsidies) all aid families as they struggle to become 
economically independent. Yet, there are many barriers to accessing 
these programs, including high co-payment schedules (in child care), 
lack of providers (for health care), and insufficient program funds 
(such as housing).
---------------------------------------------------------------------------
    \14\ Lissa Bell and Carsen Strege-Flora, Access Denied: Federal 
Neglect Gives Rise to State Lawlessness; Families Denied Access to 
Medicaid, Food Stamps, CHIP, and Child Care, May 2000.
---------------------------------------------------------------------------
    2. Child Support: While not an option for all families, whenever 
possible child support from absent, non-custodial parents should be 
sought. Higher unemployment rates and lower wages among some groups may 
result in lesser amounts of child support. Nevertheless, whatever the 
amount, child support payments reduce the amount required for a family 
to meet its needs, while providing the support of both parents to meet 
children's needs.
    3. Health Care Coverage: Health care coverage results in better job 
retention, and decreased use of welfare. Without employer-provided or 
public health benefits, parents have to make the difficult choice 
between (1) not working and retaining eligibility for health care 
coverage (through Medicaid), and (2) employment without health care 
coverage for their families. However, families who enter the workforce 
from welfare are eligible for continued coverage by Medicaid for 
themselves and their children for one year in most states. With the 
expansions in the State Children's Health Insurance Program (SCHIP), 
many families now have the option of covering their children's health 
care needs when their employer does not offer family coverage after one 
year. Yet, many families are not receiving even this amount of support, 
either Medicaid of SCHIP.\15\
---------------------------------------------------------------------------
    \15\ According to a recent national report by the National Campaign 
for Jobs and Income Support, ``applicants for Food stamps, Medicaid, 
Children's Health Insurance Programs, and Child Care programs routinely 
face diversion tactics by welfare offices . . . applicants must wade 
through misinformation, cumbersome application processes, unlawful 
practices, and degrading interactions in the hopes of obtaining 
benefits.'' Lissa Bell and Carsen Strege-Flora, Access Denied: Federal 
Neglect Gives Rise to State Lawlessness; Families Denied Access to 
Medicaid, Food Stamps, CHIP, and Child Care, May 2000.
---------------------------------------------------------------------------
States should be rewarded for doing the ``right thing'' for welfare 
        recipients and welfare leavers:
    By rewarding states that move towards providing the means and 
supports for families to move not just off welfare, but towards self-
sufficiency, Congress would be underscoring the importance of helping 
all families becoming self-sufficient.
    <bullet> Federal lawmakers should support programs that increase 
access to better jobs by rewarding states that:
    <bullet> meet the Self-Sufficiency Standard (including both wages 
and access to employer-provided health care coverage) for increased 
numbers of welfare leavers;
    <bullet> train, place and retain welfare leavers in higher-waged 
jobs, such as nontraditional occupations for women;
    <bullet> engage in labor market analyses that identify higher-waged 
jobs/sectors, and provide career development assistance related to 
higher-wage jobs;
    <bullet> encourage post-secondary education participation through 
supports such as child care and by counting such education as 
fulfilling work requirements;
    <bullet> provide literacy programs that strengthen basic skills in 
the context of employment (FCE, see above for description);
    <bullet> increase the number of families that receive work 
supports--both cash assistance and subsidies, such as child care; and
    <bullet> ``stop the clock'' for families receiving TANF who are 
engaged in work but whose earnings are so low that they remain eligible 
for partial TANF grants (see, for example, Illinois policy).
Conclusions
    As families in state after state approach their state (and/or 
federal) lifetime limits on welfare receipt, the question of job 
retention and wage adequacy takes on increasing urgency. Thus, we urge 
Congress to consider how best to ensure that states move towards 
programs that increase initial wage levels and adequacy, with work 
supports as needed (and until need ends), thus increasing job retention 
and reducing the numbers of families returning to welfare.
    For a large number of families, the question of wage adequacy has 
taken on new urgency as the federal five-year lifetime limit 
approaches. Not all parents who leave welfare remain off welfare. For 
some parents whose wages are inadequate, a crisis (such as a health 
emergency, or inability to secure child care) may result in a return to 
welfare. (Return rates range from 18% to 33%.\16\ As parents' total 
time on welfare approaches the five-year lifetime limit, they will no 
longer have available cash assistance through TANF, and yet they will 
not be able to meet their families' needs through their wages.
---------------------------------------------------------------------------
    \16\ Gregory Acs and Pamela Loprest, Initial Synthesis Report of 
the Findings from ASPE's ``Leavers'' Grants. http://aspe.hhs.gov/hsp/
leavers99/synthesis01/January 2001. More than 15% of families leaving 
TANF returned within one year. Eight of the 11 study areas report the 
percentages of families who ever received TANF in the year after 
initially exiting. These numbers range from 18 to 35 percent. By 
quarter, the numbers fluctuate, indicating that families are constantly 
moving on and off of public assistance--cycling through the system.
---------------------------------------------------------------------------
    Only by effectively addressing the gap between the kinds of wages 
now being received and self-sufficiency--through both raising wages and 
lowering costs (through subsidies/work supports)--only then can we 
truly talk about success in welfare reform.
Appendix--The Self-Sufficiency Standard
    The Self-Sufficiency Standard has been calculated for 13 states and 
one metropolitan area: California, Connecticut, Illinois, Indiana, 
Iowa, Massachusetts, New Jersey, New York, North Carolina, 
Pennsylvania, South Dakota, Texas, Wisconsin and the Washington, D.C., 
metropolitan area. It is also in progress in Washington, Colorado, 
Montana and Kentucky. Table 1 compares the Self-Sufficiency Standard 
hourly wages for several different family types for a large city and a 
rural county in each of 13 states and one metropolitan area. Although 
in every instance, the cost of living is less in the rural county 
selected than in the large city (usually the state's largest city), 
there is quite a bit of variation. Many of these states have ``rural'' 
counties, often either tourist areas (with high seasonal housing costs) 
or high-cost ex-urban communities, that are in fact as expensive, or 
more so, than the state's large urban areas. Thus, in Massachusetts, 
the standard is higher in Cape Cod and the Islands than in Boston.
    Table 1 also shows how costs vary for different family types. It 
shows the Standard as an hourly wage and assumes that the adult(s) work 
full-time (40 hours per week). The amounts are thus what adults, 
supporting themselves or a family, must earn to meet the family's basic 
needs. Not surprisingly, it costs quite a bit more when a single adult 
becomes a single parent with a child, especially a very young child. 
The differential is such that the single parent's Self-Sufficiency 
Standard is at least 150 percent of that of a single adult in her 
geographical area and as much as 200 percent or, in a few instances, 
more. The addition of a second child under school age results in costs 
that are double to triple that of the single adult in the same 
community. Not just the number of children but the age of the children 
matters, too. The Self-Sufficiency Standard costs drop as the need for 
full-time child care lessens with older children. The last column shows 
the standard for two parents with a preschool-age child and a school-
age child. Reflecting the additional costs of food, health care, taxes, 
and transportation associated with a second adult, these numbers are 
only slightly higher than those for the single parent with two children 
of these ages. However, since there are two adults, this total reflects 
two wages, not just one, thus reducing the required wage of each and 
making it much easier to meet a family's needs with two breadwinners 
rather than just one. (The Self-Sufficiency Standard assumes that when 
there are two adults, both work equally, and both work full-time, and 
thus each incurs the costs associated with employment, such as taxes 
and transportation, and that they share such costs as child care, rent, 
food, and so forth).
    In table 2 and figure 1, for six different places we compare the 
Self-Sufficiency Standard for a single parent with a preschool-age and 
a school-age child to other benchmarks of income: (1) welfare and food 
stamps; (2) minimum wage (minus taxes); (3) the federal poverty line; 
(4) local median family income.
    As can be seen in table 2, the cash value of food stamps and cash 
assistance varies in amount from state to state, but even more as a 
percentage of the relevant Self-Sufficiency Standard. While actual 
benefits are higher in higher-income or higher-cost locales such as New 
Jersey or Washington, D.C., these benefits are low relative to the 
actual cost of living when compared to states such as Indiana. In 
Indiana a three-person household's cash benefits, though $1,500 per 
year less than in the District of Columbia, are more than one-third of 
the Self-Sufficiency Standard, while in Washington, D.C., the cash 
assistance is barely one-fifth of the standard.
    Likewise, when one examines the adequacy of the minimum wage, one 
finds large variations among jurisdictions. Although the federal 
minimum wage is $5.15 per hour, several states have higher minimums, 
and state taxes vary somewhat from state to state. (We do not include 
the value of tax credits because families at the minimum wage either do 
not qualify for them or will not receive them at this wage level.) \17\ 
We find that working full-time and year-round at the minimum wage 
provides only about 25 percent to about 40 percent of the Self-
Sufficiency Standard. Thus, even two adults working at minimum wage 
would in most states be below self-sufficiency (this does not take into 
account the additional expenses of a second adult not included in the 
standard used here).
---------------------------------------------------------------------------
    \17\ At the minimum wage (federal or state), a single parent with 
two children would not pay any federal taxes. Since both the child tax 
credit and the child care tax credit are credits against the federal 
tax, the single parent would not receive either of those. The single 
parent would, however, qualify for an earned income tax credit, at or 
near the maximum of $3,756 in 1999. However, very few receive this 
credit on a monthly basis, and if they do, they are limited by law to 
only a portion, about $116 per month in 1999. Because they are unlikely 
to receive it in the year in which they earn it, or at best only a 
partial payment, we do not include it here. See also Michael A. 
O'Connor, The Earned Income Tax Credit: Eligible Families at Risk of 
Losing Benefits, 33 Clearinghouse Rev. 433 (Nov.-Dec. 1999).

        TABLE 1.--THE SELF-SUFFICIENCY STANDARD HOURLY WAGES, SELECTED FAMILY TYPES, 14 STATES AND AREAS
                                               [In dollar amounts]
----------------------------------------------------------------------------------------------------------------
                                                                                                      Two Adults
                                                                            One Adult    One Adult   Preschooler
                                                               One Adult   Preschooler  Preschooler   Schoolage
                                                                                         Schoolage   (per adult)
----------------------------------------------------------------------------------------------------------------
California, 2000
    Los Angeles-Long Beach PMSA.............................        $8.54       $16.65       $19.35       $11.35
    Alpine County...........................................         7.02        11.38        14.45         8.72
Connecticut, 1998
    Stamford-Norwalk Region.................................         9.75        17.70        20.93        11.57
    Northeast Region........................................         6.59        12.18        15.57         8.96
Illinois, 1996
    Chicago, Cook County....................................         7.15        12.19        14.48         8.24
    Randolph County.........................................         4.62         7.49         9.80         6.41
Indiana, 1998
    Indianapolis, Marion County.............................         6.45        11.01        14.21         8.28
    Orange County...........................................         5.30         7.28         9.52         6.55
Iowa, 1994
    Davenport-Moline-Rock Island--Scott County..............         5.10         9.08        12.81         8.06
    Marion County...........................................         4.91         8.53        11.30         7.24
Massachusetts, 1997
    Boston, MA-NH PMSA, Suffolk Cty., City of Boston........         7.52        15.28        18.54        10.08
    Berkshire County--Western Massachusetts.................         6.16        11.68        13.98         8.08
New Jersey, 1999
    Northern Bergen County..................................         8.03        15.56        18.03         9.87
    Atlantic County (Cape May)..............................         7.28        13.91        16.28         9.40
New York, 2000
    Kings County (Brooklyn).................................         8.65        16.79        21.11        11.67
    Clinton County (Plattsburgh)............................         6.27        11.01        13.72         8.38
North Carolina, 1996
    Raleigh-Durham-Chapel Hill MSA..........................         6.71        11.01        13.51         7.78
    Warren County...........................................         5.05         7.55         9.32         5.96
Pennsylvania, 1998
    Philadelphia, PA-NJ PMSA, Philadelphia County...........         7.10        12.70        15.35         8.58
    Warren County...........................................         5.50         8.26        11.43         7.18
South Dakota, 2000
    Rapid City/Pennington County............................         6.06        10.26        12.70         7.78
    Spink County............................................         5.36         8.53        11.68         7.34
Texas, 1996
    Houston PMSA............................................         5.74         9.84        13.85         7.94
    Kerr County.............................................         4.96         7.84         9.61         6.20
Washington, DC, Metropolitan Area, 1998
    The District of Columbia................................         7.99        16.06        22.69        12.48
    Montgomery County, MD...................................         9.20        15.73        21.10        11.76
    Prince George's County, MD..............................         7.94        12.96        17.14         9.78
    Alexandria, VA..........................................         8.66        15.16        20.46        11.47
    Arlington County, VA....................................         9.19        16.52        22.86        12.67
Wisconsin, 2000
    Milwaukee-Waukesha PMSA, Milwaukee County...............         6.90        15.36        19.96        11.13
    Ashland County..........................................         5.49        10.60        14.38         8.40
----------------------------------------------------------------------------------------------------------------


 TABLE 2.--COMPARING THE SELF-SUFFICIENCY STANDARD FOR A SINGLE PARENT WITH A PRESCHOOL-AGE CHILD AND A SCHOOL-
                                         AGE CHILD TO INCOME BENCHMARKS
----------------------------------------------------------------------------------------------------------------
                                                                                                      The self-
                                                        Minimum                                      sufficiency
                                             Welfare      wage     Federal      Self-       Median   standard as
              City and STATE:                and food    (minus    poverty   sufficiency    family      a % of
                                              stamps     taxes)      line        wage       income      median
                                                                                                        income
----------------------------------------------------------------------------------------------------------------
Monmouth, NEW JERSEY (1999)...............     $9,108     $9,856    $13,880     $40,415     $53,800         75%
as % of the Self-Sufficiency Standard.....        23%        24%        34%        100%        133%  ...........
Muncie, INDIANA (1998)....................     $8,928     $9,578    $13,650     $24,564     $37,832         65%
as % of the Self-Sufficiency Standard.....        36%        39%        56%        100%        154%  ...........
Washington, DC (1998).....................    $10,464    $11,804    $13,650     $47,916     $65,100         74%
as % of the Self-Sufficiency Standard.....        22%        25%        28%        100%        136%  ...........
Pittsburgh, PENNSYLVANIA (1998)...........     $8,928     $9,578    $13,650     $26,388     $36,810         72%
as % of the Self-Sufficiency Standard.....        34%        36%        52%        100%        139%  ...........
Worcester, MASSACHUSETTS (1997)...........    $10,272     $9,856    $13,330     $35,460     $45,900         77%
as % of the Self-Sufficiency Standard.....        29%        28%        38%        100%        129%  ...........
Springfield, ILLINOIS (1996)..............     $8,280     $9,578    $12,980     $24,554     $47,700         51%
as % of the Self-Sufficiency Standard.....        34%        39%        53%        100%        194%  ...........
----------------------------------------------------------------------------------------------------------------

    Similarly the federal poverty line for a family of three (which is 
the same for every jurisdiction, varying only by the year for which the 
standard was calculated) ranges from about one-third to about one-half 
of the respective Self-Sufficiency Standard. While adding the costs of 
employment, including child care, transportation, and taxes, would 
raise the poverty level closer to what a family really needs, the 
poverty level would still be substantially below the Self-Sufficiency 
Standard. Moreover, the variation across geographical jurisdictions 
reinforces the federal poverty standard's not taking into account the 
wide range in the cost of living. These comparisons again highlight the 
inappropriateness of using a standard such as the federal poverty 
measure to assess income adequacy for families with employed adults 
for, unlike the Self-Sufficiency Standard, the poverty measure does not 
incorporate geographical differences or include costs associated with 
employment.
    In table 2 the Self-Sufficiency Standard is compared with the local 
median family income. In this case, we have calculated the Self-
Sufficiency Standard as a percent of the area median income (for a 
family of three). As can be seen in table 2, the Self-Sufficiency 
Standard ranges from 51 percent of the area median income for a family 
of three (Springfield, Illinois) to 77 percent (Worcester, 
Massachusetts). As noted earlier, the U.S. Department of Housing and 
Urban Development uses area median income as a standard to assess 
families' needs for housing assistance. Those with incomes below 50 
percent of the median area income are considered ``very low income,'' 
while those whose incomes are below 80 percent of the median are 
considered ``low income.'' \18\ Thus the Self-Sufficiency Standard in 
all of these states falls within the HUD definition of ``low income'' 
but not ``very low income.''
---------------------------------------------------------------------------
    \18\ Almost all assistance is limited to those of very low income, 
and even then only about one-fourth of eligible families receive 
housing assistance.
---------------------------------------------------------------------------

 Figure 1. Comparing the Self-Sufficiency Standard for a Single Adult 
 With a Preschool-Age Child and a School-Age Child to Income Benchmarks

[GRAPHIC] [TIFF OMITTED] T4216A.002

                                <all>

</pre></body></html>
